<html>
<title> - HEARING ON MENTAL HEALTH ISSUES</title>
<body><pre>[Senate Hearing 110-89]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-89
 
                    HEARING ON MENTAL HEALTH ISSUES

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 25, 2007

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                     U.S. GOVERNMENT PRINTING OFFICE

36-191 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Larry E. Craig, Idaho, Ranking 
    Virginia                             Member
Patty Murray, Washington             Arlen Specter, Pennsylvania
Barack Obama, Illinois               Richard M. Burr, North Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Lindsey O. Graham, South Carolina
Jim Webb, Virginia                   Kay Bailey Hutchison, Texas
Jon Tester, Montana                  John Ensign, Nevada
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                             April 25, 2007
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Craig, Hon. Larry E., Ranking Member, U.S. Senator from Idaho....     2
Murray, Hon. Patty, U.S. Senator from Washington.................     3
Tester, Hon. John, U.S. Senator from Montana.....................     5
Rockefeller, Hon. John D., IV, U.S. Senator from West Virginia...     5
Brown, Hon. Sherrod, U.S. Senator from Ohio......................     6
Webb, Hon. Jim , U.S. Senator from Virginia......................     7

                               WITNESSES

Bailey, Tony Bailey, Father of Justin Bailey.....................     8
    Prepared statement...........................................    10
Omvig, Randall, Father of Joshua L. Omvig; accompanied by Ellen 
  Omvig, Mother of Joshua L. Omvig...............................    11
    Prepared statement...........................................    13
      Attachment, newspaper articles:
        Pair Help Iraq Veterans `Survive Peace'..................    15
        Grundy Center Couple Who Lost Soldier Son Visit Capitol 
      Today......................................................    17
        Parents Push for Soldier's Story to Continue Beyond 
      Suicide....................................................    18
        Family of Dead Soldier Wants Government to Do More to 
      Treat
          Post-Traumatic Stress..................................    22
Campbell, Patrick, OIF Veteran, Legislative Director, Irag and 
  Afghanistan Veterans of America................................    24
    Prepared statement...........................................    27
Best, Connie Lee, Ph.D., Senior Faculty Member, National Crime 
  Victims Research and Treatment Center, Medical University of 
  South Carolina.................................................    29
    Prepared statement...........................................    31
Oslin, David, M.D., Director, VISN 4 Mental Illness Research, 
  Education and Clinical Center, Department of Veterans Affairs..    48
    Prepared statement...........................................    49
Kemp, Jan, R.N., Ph.D., Associate Director for Education, VISN 19 
  Mental Illness Research, Education and Clinical Center, 
  Department of Veterans Affairs.................................    50
    Prepared statement...........................................    52
Resick, Patricia, Ph.D., Director, Women's Division, National 
  Center for Post Traumatic Stress Disorder, Department of 
  Veterans Affairs...............................................    54
    Prepared statement...........................................    55
Ibson, Ralph, Vice President for Government Affairs, Mental 
  Health America.................................................    56
    Prepared statement...........................................    59

                                APPENDIX

Female Soldiers and Sexual Trauma: Operation Iraqi Freedom (OIF), 
  submitted by SGT Carolyn Schapper, Virginia National Guard.....    67


                    HEARING ON MENTAL HEALTH ISSUES

                              ----------                              


                       WEDNESDAY, APRIL 25, 2007

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:11 a.m., in 
Room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Rockefeller, Murray, Brown, 
Tester, Webb, and Craig.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. This hearing will come to order. Good 
afternoon, everyone. I will be brief as I am eager to hear the 
testimony of the witnesses before us.
    The very real truth of the war is that the toll will be 
felt by servicemembers and their families for years to come. We 
have focused much attention recently on the physical wounds 
sustained in combat. Today, we are taking a long overdue look 
at the invisible wounds, wounds which cannot be seen but are 
every bit as devastating as physical wounds.
    We know that many of the men and women who are currently 
serving in Iraq and Afghanistan will require treatment for 
mental health issues. We do not know yet if we will see the 
widespread chronic PTSD that followed Vietnam. I hope we do 
not, but veterans will need help readjusting back into society, 
and unfortunately, many will abuse drugs and alcohol to ease 
their pain. Some will commit suicide because of their pain. 
Still others will quietly suffer with PTSD and the profound 
wounds caused by sexual trauma.
    Without question, the Administration should have been 
taking the necessary steps at the start of this war to ensure 
that VA was prepared for the growing demand for mental health 
care. We know that the VA mental health system has long 
suffered from funding cuts and long waiting lines for care. 
Indeed, VA's own advisory groups and high-level officials have 
pointed out the shortcomings. A former high-level official 
charged that waiting lists rendered VA mental health care 
virtually inaccessible. Now, we know that demand is increasing. 
The latest numbers from VA indicate constant growth in mental 
health, with PTSD and abusive drugs as the top two conditions.
    Let me be clear about my goal. VA needs to have the finest 
mental health care available. The demand is too great and the 
manpower and expertise are just too broad to relinquish this to 
the private sector. When partnering with community programs 
makes sense, I am open to that. But I do not believe VA should 
shy away from its direct responsibilities in this area.
    A special thanks to our witnesses. We are so glad you are 
here with us today. I especially want to say thank you to those 
who are here to share personal stories. I also want to thank 
our staff, who have worked hard to put this together, and 
others, as well. I want to tell our witnesses that we are 
deeply in your debt.
    So let me, at this point in time, call on Senator Craig for 
his statement.

       STATEMENT OF HON. LARRY E. CRAIG, RANKING MEMBER, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Mr. Chairman, thank you, and thank you for 
focusing on this most important issue. I also want to extend a 
warm welcome to our panelists today, particularly to Tony 
Bailey, certainly to Randall and Ellen Omvig. We are truly 
grateful for your willingness to share with the Committee your 
stories and you have my deepest condolences for the loss of 
your loved ones. This country owed them a debt of gratitude for 
their sacrifices and their services and that debt we now owe to 
you.
    Just as the Committee is concerned about the bodies of 
returning servicemembers, we want to be sure that those 
troubled in mind by what they experienced protecting our 
freedoms receive the same kind of care. We must ensure that all 
are aware of their access to care and are not afraid to seek 
that care.
    I first made this statement in a series of seamless 
transition hearings over two years ago and it remains true 
today, that healing the veteran's mind is as equally important 
to this Committee as healing the veteran's body. The goal is to 
be sure that those with mental illness can return to live, 
work, learn, and participate fully in their communities. That 
means we must identify unmet needs and barriers to services or 
accepting the services available.
    We must identify innovative treatments and services that 
are demonstrably more effective. We must improve coordination 
amongst case managers and providers at DOD and at VA. And we 
must focus on the desired outcome of mental health care, which 
is to provide for each individual an opportunity to attain a 
full and productive life through employment, self-care, 
interpersonal relationships, and community participation.
    These are tough goals and they require that we ask tough 
questions, questions such as whether our servicemembers are 
prepared to manage the stress of combat before they set foot on 
the battlefield, questions such as have we created a barrier to 
wellness by compensating for mental illness without requiring a 
focus on recovery and rehabilitation from it? Are we setting 
appropriate benchmarks to evaluate the effectiveness of 
prescribed treatments?
    These are very difficult questions that are going to be 
required of us in taking the appropriate actions necessary. But 
the price for not addressing these questions and this issue are 
simply too high.
    To our two witnesses, to the fathers who have lost their 
sons, you know that price better than any of us. For the loved 
ones attending, you know that price better than any of us.
    As VA continues to implement its mental health strategic 
plan and its mental health initiative, including efforts at 
suicide prevention, I am committed to addressing these very 
difficult questions with my colleagues, but we owe a great deal 
to all of you for coming today to put a face on this issue and 
for sharing with us the reality of it.
    I thank you, Mr. Chairman, for convening this hearing.
    Chairman Akaka. Thank you very much, Senator Craig of 
Idaho, for your warm message.
    Senator Murray from the State of Washington?

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Well, Mr. Chairman, thank you very much for 
holding this really important hearing on mental health care 
issues that are affecting our veterans. I want to thank all of 
our witnesses especially today who are here to share their very 
personal and very painful stories. You need to know that all of 
you are speaking out for many others who can't be here, and I 
and all the Members of this Committee are really committed to 
using your experiences to help us help other veterans.
    Mr. Chairman, we all know that going to war has a profound 
effect on those who are sent to fight, and the wars in Iraq and 
Afghanistan are no exception to that. As the Iraq War now 
enters its fifth year, it is pretty clear that the fighting 
overseas has taken a tremendous toll on the lives of our troops 
who have served this Nation so honorably and on their families 
who have supported them so fully.
    We do know that more and more of our veterans from Iraq and 
Afghanistan are seeking care for mental health care problems 
when they return home. In fact, according to the VA itself, 
one-third of all returning Iraq veterans who have enrolled in 
the VA are seeking treatment for mental health problems. That 
is a pretty astounding statistic, and tragically, it is 
probably too low. We know that many of our returning 
servicemembers and veterans aren't looking for care because of 
the stigma surrounding treatment or because they fear that 
mental health diagnosis might negatively impact their military 
or civilian careers, and those veterans aren't being factored 
into the VA's own statistics and all too often we are finding 
those soldiers self-medicating their mental wounds.
    We have also heard reports of servicemembers being shipped 
back to war after doctors did recognize PTSD symptoms. Last 
month, in fact, the mother of an injured soldier sat right here 
at this table and told us about her son, who was not given 
medication to treat PTSD because if he was, then he would be 
called unfit to redeploy.
    Mr. Chairman, we also know that troops are deployed 
overseas for the third or now even the fourth time, a tour of 
duty, and the risk of positive screening for PTSD and other 
mental health care conditions increases with each deployment.
    So to me, it is really clearly time for the VA to really 
redouble their efforts to fight the PTSD stigma and increase 
their screening, their outreach, and their treatment.
    We also know that the Iraq War has created challenges for 
the VA to provide care for all of the veterans who are seeking 
mental health care treatment, and we have known about these 
problems for some time. Last year, the GAO issued a report that 
indicated the VA did not spend all of its mental health care 
funding that it was provided by us and that unclear directions 
from the VA central office likely resulted in mental health 
care funds being used for other health care priorities.
    Last spring, a VA under secretary said that VA mental 
health care was, he called it, virtually inaccessible because 
of the long waiting lines. And then this past February, the 
American Psychological Association released a report that 
servicemembers and their families are not receiving mental 
health care because of limited availability and difficult 
access.
    Our National Guard and Reserve members aren't faring any 
better. These are citizen soldiers who leave their families and 
their jobs to serve our Nation overseas and they often live, as 
we know, in very far-away areas which makes it very difficult 
for them to receive care when they come home. I hear, and I 
know my colleagues do, as well, from Guardsmen and Reservists 
and their families all the time about the problems they are 
encountering trying to get access to the VA, and to me, that is 
really unacceptable and we need to change.
    Mr. Chairman, now we are hearing that Vet Centers, which 
are an integral part of our VA's mental health care network, 
don't have enough staff to meet the growing numbers of veterans 
who are accessing these centers.
    And finally, according to this USA Today article that was 
just out, ``Staffing at VA Centers Lagging,'' it says that the 
number of returning veterans from Iraq and Afghanistan has gone 
up by more than 100 percent since 2004--100 percent since 2004, 
and yet the staffing levels at our Vet Centers has only gone up 
by 10 percent.
    So, Mr. Chairman, we have some real challenges, and we are 
making progress and I want to commend you and others for 
working with us in the Senate budget to increase the number for 
VA to $43.1 billion, and the money in the emergency 
supplemental that is going to come to the Senate, and I hope 
that the President signs, that will increase by $1.8 billion 
for veterans.
    But this hearing is really important for us to hear 
personally about this issue of post-traumatic stress syndrome 
and how we as a Committee can really start to focus on making 
sure that those men and women who fight for us don't have to 
fight a health care system when they come home.
    So thank you very much for holding this hearing. I really 
appreciate it.
    Chairman Akaka. Thank you very much, Senator Murray from 
Washington State.
    Now I would like to call on the Senator from Montana, 
Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman. I want to thank 
Ranking Member Craig and all the other Senators that are here 
today, and I especially want to thank the panel, Dr. Best, Mr. 
Campbell, the Omvigs, and Mr. Bailey. Thank you very much for 
being here today.
    I can tell you that, as from the testimony that has already 
been given and the opening statements, we have got a problem. I 
look forward to each and every one of your testimonies on this 
panel and the next one to help further delineate ways by which 
we can fix this problem.
    Tony, I have got a daughter who is 27 years old. I cannot 
imagine what each one of you have been through. When the 
Members of this Committee talk about us being indebted to you, 
it is right on. But we have got a problem here. We have come to 
this Committee to try to get the testimony and get the kind of 
input necessary so we can solve this problem by working 
together. And I really do appreciate the fact that you are 
willing to take the time out of each and every one of your busy 
schedules to talk about a subject that, for some, is very, very 
difficult.
    Thank you very much.
    Chairman Akaka. Thank you very much.
    Now I would like to call on Senator Rockefeller for your 
statement.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman. I almost 
don't know where to start, and so I probably shouldn't, but let 
me just say that for those of us who have been on this 
Committee and who care about it and who understand that this 
Nation has sort of a tendency--I don't hold ill will toward the 
Nation, but I hold ill will toward the results--of honoring the 
warfighter while the warfighter is fighting, and then the 
warfighter gets hurt, visibly or invisibly or both, comes back, 
and gets subject to a budget which, as Senator Murray pointed 
out, is entirely inadequate because it is within the budget of 
the United States as opposed to the warfighter's war, which is 
subject to the loans of China, Japan, and South Korea. So one 
gets everything they want, although that did not happen, but 
the second definitely doesn't.
    I think that you will not find a group of people around 
here who approach you with more respect, more sadness, more 
desire to help, more frustration, more anger at our own 
government, both Democratic and Republican Administrations, it 
doesn't make any difference. It seems that we never seem to 
give people their due.
    And then something comes along like Building 18, which in 
some ways is a gift to the Nation because it tells us how 
little we know, how little attention is paid to this and how 
much we have to do. I don't think there is anybody on this 
Committee on either side who doesn't have a heart full, a full 
heart.
    I know a little bit of something about suicide. I know 
nothing about suicide, Mr. Omvig. It has happened in my family. 
I don't know anything about it from the point of view of a 
parent. I don't know what I would do. I don't know what brings 
it on. I don't know if it is sudden.
    I do know that I talk almost every weekend I go home to 
West Virginia, which is not a big and powerful State but has 
unbelievable people, and I just sit down with 12 or 13 wounded 
veterans, visibly, invisibly, for 2 or 3 hours, no staff 
allowed, no press--they never know that it happens, no pencils. 
It is just--and then you start. And then people begin to say 
things that you could never imagine that people could say 
unless you were in there and the rhythm of the whole thing, 
their bonding, their anger, their need to leave the room 
sometimes just to vent and then come back in and join or not 
join.
    So I feel like Senator Murray, who has just been 
unbelievable on all of these things, as have our Chairman and 
Vice Chairman, but we aren't doing the job, and I think the 
beauty of your being here is that finally, there is a call to 
conscience on the part of the American people and I think you 
have helped cause this to happen. When the American people are 
really stirred and angry and emotional about a subject, they 
will not take excuses.
    Most Americans don't know that the Chinese, the Japanese, 
and the South Koreans pay for our war. Most of them don't know 
that we fail to pay for the results of that war in human terms 
because it is under something called a government budget, which 
is always inadequate no matter what the Administration is. It 
is always inadequate.
    Patty Murray talks about the mental health. There is just 
so much to learn. There is so much to do. We have to start and 
you have to understand that we are trying, whether we are 
beginning to try or however you want to interpret it.
    But take us as real people and let us make that our 
beginning point, that we sit here and you sit there. It is all 
a table. We are all human beings and we want things to work out 
for you and people who have served and people who are hurting, 
people who have passed, some people who are wounded who maybe 
wish they had passed because the agony is so deep. So those are 
my words.
    Chairman Akaka. Thank you very much, Senator Rockefeller 
from West Virginia.
    Now from Ohio, Senator Brown.

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman and Senator Craig. 
Thank you. My comments will be brief. I would just echo the 
words of Senator Rockefeller. I don't have the breadth of 
experience he does but have seen and heard so many of these 
stories and have been increasingly overwhelmed by the failure 
of our government to do what it needs to do for the families of 
our soldiers. We cheer them on as they go to war and do so 
little in so many cases when they come back.
    To take the issue of the polytrauma centers, we hear so 
much about they are doing tremendous work. However, the four 
polytrauma centers around the country have 48 beds among them. 
Ohio State University at the medical center treats brain injury 
patients in its world class facility, Dodd Hall. They have 60 
beds in that one facility, 12 more than the four polytrauma 
centers around the country. That tells me how very much we need 
to do.
    The numbers are staggering. As we know, one-third of 
soldiers from the wars in Iraq and Afghanistan will seek some 
kind of mental health treatment. We have not done what we 
should for the next year or two or three or five. We should be 
talking even more years into the future for what we need to do 
for the next four or five decades and what we are going to need 
to do to serve the men and women who have returned from these 
two wars.
    I so much appreciate the families being here and their 
sacrifice and their candor and their courage, so thank you all.
    Chairman Akaka. Thank you very much, Senator Brown from 
Ohio.
    From Virginia, Senator Webb.

                  STATEMENT OF HON. JIM WEBB, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you, Mr. Chairman. I would say to our 
witnesses here that this is really your chance to talk to us. 
We have a chance to talk to each other every day and I don't 
want to take much time from your opportunity to discuss your 
issues.
    I would say a couple things. One is that I first started 
working in this area in 1977 after I got out of the Marine 
Corps and attended law school. I came up here as a Committee 
counsel working on the Veterans Committee on the House side. 
One of the constants of American history in terms of when we 
send people off to war is that they do have readjustment needs 
when they come back.
    A lot of people are kind of surprised by that when we look 
at all the films about World War II and all the rest of that. 
But one of the first studies I worked on in 1977 was a National 
Academy of Sciences study on these sorts of issues and 25 
percent of the people coming back from World War II had similar 
difficulties. Each one of these experiences has a different 
pattern to it. In the Vietnam era, we basically pioneered a lot 
of this post-traumatic stress research and this sort of thing.
    I have been intimately involved with people who have been 
serving since 9/11, a lot of it through my friends, a lot of it 
through my own family. I have two daughters who are engaged to 
enlisted veterans. You may know my son is currently in Iraq as 
an enlisted Marine. We need to stay on these.
    And I think, Mr. Chairman, what happened at Virginia Tech 
last week, I think at bottom when we examine it, we are going 
to see that we are not paying enough attention to these sorts 
of issues in our society, issues of mental health and how to 
talk about them openly and how to help people.
    I am looking forward to doing what we can in these 
situations and am grateful for all of you being here today.
    Chairman Akaka. Thank you very much, Senator Webb from 
Virginia.
    I welcome the first panel. We have asked each of you here 
for your personal and your particular perspective on VA mental 
health care.
    First, I welcome Tony Bailey. Mr. Bailey is the father of 
Justin Bailey, who served as a Marine in the first wave of 
troops on the ground in Iraq. Mary Kay Bailey, Justin's mother, 
is here today, as well.
    I also welcome Randy Omvig, Joshua Omvig's father. Randy is 
accompanied by his wife, Ellen.
    To the Baileys and the Omvigs, you have traveled long 
distances to be here today to speak of your sons, both of whom 
died far too young. You have my deepest sympathy for your loss. 
You also have my gratitude for being willing to share your 
stories in the hope that things will be better for other young 
servicemembers.
    I welcome, as well, Patrick Campbell. Patrick represents 
Iraq and Afghanistan Veterans of America and served in Iraq as 
a combat medic. He currently serves with the Washington, D.C. 
National Guard.
    Finally, I welcome Dr. Connie Best. Dr. Best is a senior 
faculty member at the National Crime Victims Research and 
Treatment Center at the Medical University of South Carolina 
and served for 20 years in the Navy Reserve.
    I want to thank each of you for being here today. I want 
you to know that your full statements will appear in the record 
of the Committee.
    Before we move to testimony, I should tell you that I 
received a submission by a woman veteran who served in Iraq 
describing her service and that of other women. I ask unanimous 
consent to put it in the hearing record as it provides valuable 
insights on the experience of some women who have or are 
serving in combat zones. That will be added to the record.
    Chairman Akaka. Mr. Bailey, will you please begin with your 
testimony.

                   STATEMENT OF TONY BAILEY, 
                    FATHER OF JUSTIN BAILEY

    Mr. Bailey. Mr. Chairman and Members of the Committee, I 
would like to tell you about my son who died on January 26, 
2007, at the West L.A. VA Hospital. He was 27 years old and 
Justin was seeking treatment for PTSD and drug abuse.
    Justin joined the Marine Corps in December 1998, 
approximately 6 months after graduating from high school. 
Justin was in the infantry and was due to separate from the 
Marines in January of 2003, but was involuntarily extended due 
to the impending war. Justin was with the first wave of troops 
that arrived in Iraq when the war started in 2003. He fought in 
Nasarija and returned to Camp Pendleton in June of 2003.
    While Justin was in Iraq, he sustained an injury to his 
groin. He underwent two different surgeries about 6 months 
apart. In between these surgeries, he waited around, basically 
doing nothing, until he was discharged in April of 2004. After 
his discharge, Justin still complained of pain from his 
injuries and he was diagnosed with PTSD. He began taking 
prescription drugs that were prescribed by the VA and were not 
monitored. He was also using illegal drugs.
    In November of 2006, Justin checked himself into the West 
L.A. VA Hospital. According to his medical records, Justin went 
in taking Xanax and a pain medication and 2 weeks later was on 
Xanax and four other different prescription drugs. Justin had 
been on Xanax since 2004. We were later told by the medical 
staff after Justin's death that Xanax is inconsistent with the 
treatment of PTSD. Justin's pain medication had been changed to 
methadone, which received an FDA alert in November of 2006 and 
had been highly publicized due to its addictive and 
unpredictable nature.
    After 2 weeks in the hospital, Justin was sent to the 
domiciliary, which is described by the VA as a residential 
substance abuse treatment program. On the night of January 26, 
I learned that Justin was being taken to the ER at the 
hospital. He had just received his new prescriptions the day 
before and now he had died of an apparent overdose of his 
prescription drugs.
    Looking back, I was very happy for Justin that he made the 
decision to get help and that he was going to the VA for help. 
I assumed that being a large VA facility, that they would be 
the best equipped and would have the best experience with PTSD 
and related drug abuse issues. I was wrong.
    Despite warnings from friends, family, and notations in his 
medical records that Justin had a tendency to over-medicate 
himself on prescription drugs, the L.A. VA Hospital determined 
that after a mere 2 weeks at their hospital, that he had the 
ability to self-administer his medication.
    Two days after Justin died, my wife and I visited the 
hospital and were greeted with a total lack of sympathy and 
faced bureaucratic hassles to get basic information. And 
despite the VA's touting of its electronic medical records, we 
were sent on a wild goose chase throughout the hospital looking 
for Justin's records. We met with his medical staff. They 
indicated that Justin had missed several of his PTSD 
appointments but they did nothing but reschedule a new 
appointment. They should have made face-to-face contact with 
him. Patients with PTSD and substance abuse are notoriously 
difficult to reach.
    We left the hospital with unanswered questions. We went 
from place to place and got nowhere. I can only imagine what a 
veteran with mental illness would go through.
    Other than some classes required by the domiciliary 
program, it functioned as a residential facility, and while 
many veterans need a place to stay as they are transitioning to 
civilian life, Justin was there primarily for drug treatment 
and he needed more.
    I will tell you that after our experiences with the 
hospital, they are making some changes, including reducing 
dosages, surprise inspections, increased weekend staffing. It 
is my hope that these changes will remain in effect and that 
these changes will occur 
systemwide.
    I cannot express the emotion that I feel over Justin's 
death and the thought that all of this could have been 
prevented. I don't believe that this facility is equipped to 
deal with PTSD and drug abuse problems, which are so prevalent. 
I believe with some veterans, that there is a lag between the 
return from war and their acknowledgement and/or diagnosis of 
PTSD and we have yet to see our VA hospitals overwhelmed with 
mental illness from this war.
    It would help to increase the budget of the VA hospitals, 
but not before a thorough evaluation of these facilities is 
conducted. Adding money to facilities that have systematic 
issues is not going to increase their effectiveness.
    When I spoke to Justin on the Sunday before he died, he 
said, ``Dad, I know this is my last chance and I want to get 
better.'' He was very positive about what he was going to do 
when he got out of the program. He had plans for his career and 
wanted to do something with his life. His stepmom and I were 
very happy for him, and for once in a long time, we had hoped 
that he would be able to lead a happy and healthy life.
    Thank you for allowing me to speak to you today.
    [The prepared statement of Mr. Bailey follows:]
       Prepared Statement of Tony Bailey, Father of Justin Bailey
    Mr. Chairman and Members of the Committee:
    I would like to tell you about my son, Justin Bailey, who died on 
January 26, 2007, at the West LA VA Hospital. He was 27 years old. 
Justin was seeking treatment for PTSD and drug abuse.
    Justin joined the Marine Corps in December 1998, approximately 6 
months after graduating from high school. He was in the infantry and 
was due to separate from the Marines in January 2003, but was 
involuntarily extended due to the impending war. Justin was with the 
first wave of troops that arrived in Iraq when the war started in 2003. 
He fought in Nasarija and returned to Camp Pendleton in June 2003. 
While Justin was in Iraq, he sustained an injury to his groin. He 
underwent two different surgeries at the Naval Hospital at Camp 
Pendleton about 6 months apart. In between surgeries, he waited around 
basically doing nothing until he was discharged in April 2004.
    After his discharge, Justin still complained of pain from his 
injury, and he was diagnosed with PTSD. He had trouble sleeping, 
nightmares, and short term memory loss. He began taking prescription 
drugs that were prescribed by the VA. Over approximately the last two 
and a half years, the VA prescribed the following different drugs: 
alprazolam (xanax), diclofenac, quetiapine fumarate, buspirone, 
benztropine mesylate, aripiprazole, hydrocone, acetaminophen, 
olanzapine, hydroxyzine pamoate, divalproex, magnesium hydroxide, 
clonazepam, lithium carbonate, trazodone, prazosin, bupropion, 
levalbuterol tart, lorazepam, oxycodone, omeprazole, ibuprofen, 
doxepin, amitriptyline, temazepam, mirtazapine, and methadone. It 
doesn't appear as if the drugs were monitored effectively and in my 
opinion he was given drugs and sent on his way instead of being 
properly diagnosed and treated. He also began using illicit drugs.
    In November 2006, Justin checked himself into the West LA VA 
Hospital. According to his medical records, Justin went in taking xanax 
and hydrocone for pain, and 2 weeks later was on xanax, buproprion and 
trazodone, which are antidepressants, prazosin, and methadone, which he 
was given for pain. Justin had been on xanax since 2004. We were later 
told by medical staff after Justin's death that xanax is inconsistent 
with the treatment of PTSD. Justin's pain medication had been changed 
to methadone, which received an FDA alert in November 2006 and has been 
highly publicized due to its addictive and unpredictable nature. The 
FDA alert explained the risks of methadone and cautioned the medical 
community to ensure that the benefits of prescribing methadone outweigh 
the risks.
    After his 2 weeks in the hospital, Justin was sent to the 
domiciliary, which is described by the VA as a residential substance 
abuse program.
    On the night of January 26th, I learned that Justin was being taken 
to the ER at the hospital. He had just received his new prescriptions 
the day before. And now he had died of an apparent overdose of his 
prescription drugs.
    Looking back, I was very happy for Justin that he made the decision 
to get help and that he was going to the VA for help. I assumed that 
being a large VA facility they would be best equipped and would have 
the most experience with PTSD and related drug-abuse issues. I also 
assumed that Justin would only receive his prescriptions in small 
individually controlled dosages. I was wrong.
    Despite warnings from friends and family and notations in his 
medical record that Justin had a tendency to over-medicate himself on 
prescription drugs, the LA VA hospital determined that after a mere 2 
weeks at their hospital that he had the ability to self administer 
medications. The day before he died, he was given five different 
prescriptions in dosages of 14, 15 and 30 days.
    Two days after Justin died, my wife and I visited the hospital and 
were greeted with a total lack of sympathy and faced bureaucratic 
hassles to get basic information. And despite the VA's touting of its 
electronic medical records, we went on a wild goose chase throughout 
the hospital looking for Justin's records.
    We met with his medical staff. The PTSD professionals indicated 
that Justin had missed several of his PTSD appointments, but they did 
nothing but reschedule a new appointment. They should have made face-
to-face contact with him. Patients with PTSD and substance abuse are 
notoriously difficult to reach. They also indicated that although they 
knew that Justin had problems with over-medicating on prescription 
drugs, they had to listen to the patient when it came to his care. And, 
they told us that Justin had not seen a psychiatrist since being in the 
domiciliary. He had been there approximately 6 weeks already, and a 
psychiatrist had not yet been assigned to him. We found it disturbing 
that the primary care physician and RN continued to give Justin 
prescriptions that he had been prescribed in the hospital, without 
evaluating him to see if the drug interactions were OK or the drug 
treatment was even effective.
    We left the hospital with unanswered questions. We went from place 
to place and got nowhere. I can only imagine what it must be like for a 
veteran with mental illness. Every office that we visited seemed to act 
independently without knowledge of what others were doing. There was 
obviously inadequate communication between offices and medical staff, 
but yet that seemed to be the norm and didn't concern the people that 
we spoke to. The only communication network that did seem to function 
well in this hospital was the communication to the organ donation 
people. I received a phone call 4 hours after my son died at 2:30 in 
the morning in which I was asked questions about the condition of my 
son and specifically about his eyes.
    Other than some classes required by the domiciliary program, it 
functioned as a residential facility. And while many veterans need a 
place to stay as they transition to civilian life, Justin was there 
primarily for drug treatment, and he needed more.
    I will tell you that after our experience with the hospital, they 
are making some changes, including reducing dosages, surprise 
inspections, and increased weekend staffing. It is my hope that the 
changes will remain in effect and that these changes will occur system-
wide.
    I cannot express the emotions that I feel over Justin's death and 
the thought that all of this could have been prevented. I don't believe 
that this facility is equipped to deal with PTSD and drug abuse 
problems, which are so prevalent.
    I believe with some veterans, there is a lag between their return 
from war and their acknowledgment and/or diagnosis of PTSD, and we have 
yet to see our VA hospitals overwhelmed with mental illness from this 
war. I have a concern that our Iraqi veterans with mental illness will 
give up on our VA hospitals, because of the complexity and apathy. We 
can do better than that. We send them to war to fight for our country 
and it is our responsibility to take care of them when they return.
    It would help to increase the budgets of the VA hospitals, but not 
before a thorough evaluation of these facilities is conducted. Adding 
money to facilities that have systemic issues is not going to increase 
their effectiveness.
    When I spoke to Justin on the Sunday before he died, he said, 
``Dad, I know this is my last chance and I want to get better.'' He was 
very positive about what he was going to do when he got out of his 
program. He had plans for his career and wanted to do something with 
his life. His step-mom and I were very happy for him and for once in a 
long time, we had hope that he would be able to lead a happy and 
healthy life.
    Thank you for allowing me to speak to you today.

    Chairman Akaka. Thank you very much, Mr. Bailey.
    Now, Randall Omvig.

    STATEMENT OF RANDALL OMVIG, FATHER OF JOSHUA L. OMVIG; 
             ACCOMPANIED BY ELLEN OMVIG, MOTHER OF 
                          JOSHUA OMVIG

    Mr. Omvig. Ellen and I would like to thank you for the 
opportunity to address the Senate Veterans' Affairs Committee. 
We have submitted two newspaper articles from the Des Moines 
Register and the Waterloo Courier from Iowa for your 
examination. We also hope that you have had time to look at 
Josh's memorial Web site, which was created by Josh's aunt, 
Julie Westly. This site was created to help others with as much 
information as we could find on PTSD, post-traumatic stress 
disorder.
    There is no way we could go through in 5 minutes the events 
leading up to and the day Josh took his life in front of his 
mother. We would like to voice our strong support of the Joshua 
Omvig Veterans Suicide Prevention Act, S. 479, reintroduced by 
Senator Harkin and Senator Grassley. This bill has Josh's name 
on it, but it represents so many men and women before and after 
Josh who were unable to live with the physical, mental, and 
psychological effects of their service.
    One of the most important issues we see in the past and 
today is the way we are bringing our troops back, regular 
service and especially the National Guard and Reserve units who 
are going back to civilian life. Josh's company went from Iraq 
to Thanksgiving dinner with their families in less than 1 week. 
One or 2 weeks of decompression or defusing is not enough. 
This, however, is more the rule than the exception. A few days 
later, Josh was back to his civilian job.
    All the troops know how to fill out the form asking if they 
are having any problems. They know if they say yes, they will 
be held back, won't be able to see their families and loved 
ones. The one thing they have been thinking and dreaming about 
is the homecoming and they won't do anything to delay that.
    Josh's company was put on a 90-day call-up period when they 
got back, whereby if they were needed, they would be called 
back to active duty. During this time, there is no drill, no 
contact with the people he spent such an intense time with. 
There was no one around him to talk over things with. After a 
week or two of being home, reality starts to set in. Things are 
not the same.
    Why didn't Josh and so many others seek help when they got 
back? We train our soldiers well, mentally and physically, to 
handle any situation that comes up, to survive, the ``I can 
do,'' ``I can handle it'' attitude. When we would ask Josh how 
he was doing, it was, ``I am OK. I can handle it.'' When we 
hear that now, we know there is a soldier that is having 
problems.
    Josh wouldn't tell us very much about what he did in Iraq. 
He had to sign secrecy papers that they would not say where 
they were or what they did. Josh tried to keep his promise. 
Little things here and there in conversations would come out. 
He would tell us, ``We couldn't tell anyone.'' How can you seek 
help if you couldn't tell anyone what his service experiences 
were? And we have heard this from other veterans, too.
    When Josh got back, he was always sick with some type of 
upper respiratory or gastrointestinal problem. We finally got 
him to go to our family doctor, who he was friends with. We 
told him to talk to her about some of the problems he was 
having. She later told Ellen to get him some help. We tried to 
get Josh to go to the VA hospital, but he wouldn't go. He said 
it would affect his military and personal career. We told him 
we would set up an appointment with a private doctor, but he 
said the Army would find out. We even told him that we would 
set up an appointment under our name so the Army wouldn't find 
out. He couldn't believe we would really do such a thing. It 
wasn't right.
    It is usually a crisis or a tragedy that brings the veteran 
to see that they can't handle it alone and they need help, or 
the family that finally pushes the situation of seeking help. 
This is why it is so important to have the appropriate support, 
training, and counseling for family members before their 
soldiers come home. This will help them to understand the 
changes that may happen, what to look for, where to go for 
help, what action can be taken to help their soldier.
    We received the present information families get before 
Josh got home. Give them space. Don't push them to talk. Give 
them time to acclimate. It didn't work. Peer training and 
counseling is needed to help the veteran and their families. 
The VA delivery system, presentation, and implementation of 
mental health and psychological services hasn't changed much. 
It is still mainly up to the veteran and their family to 
identify the problem and go seek help.
    There is still no comprehensive prevention program during 
the defusing or decompression time to start dealing with the 
emotional and psychological effects of their service, to 
provide group peer counseling, training, coping mechanisms, and 
strategies.
    The first counseling of Josh's company had come at the 
first drill after Josh's death. They brought in chaplains and 
counselors to have group and private sessions, to talk over 
what happened with Josh. Something amazing happened. The 
conversation went from what happened to Josh to what troubles 
some of the other soldiers were having. Some of them went on to 
get more counseling and treatment after that.
    We feel the decompression time should take place after the 
soldiers have left to see their families. After the experience 
of homecoming and being with their families, the soldier will 
be able to deal with the paperwork and assimilation training to 
civilian life. When back home, we must assure that there are 
accessible, timely services, education, and outreach programs 
for the veterans and their families.
    The day after Josh's suicide, the Grundy Center Police 
Department and Fire Department had a defusing time where a 
professional counselor was brought in to help them cope and 
deal with what happened that day. Do we as a Nation take the 
same humanitarian measures for our troops who have served for 
us for months in a combat area? Are we providing our military 
men and women with the appropriate services to help them 
assimilate back to civilian life? Are we providing them with 
what they need to survive the peace?
    Ellen and I have to say, no, not at this time.
    We can and we must do more. This is no time to bury our 
head in the sand, to take a defensive posture, to try and 
justify or explain the problems of the past. It is time to make 
a major process check in the implementation of preventative 
programs. Research has proven that if treated early, the chance 
of coping with mental and psychological problems is better and 
may keep them from going to the chronic stage.
    We have and we will have brave men and women serving for 
us. It is our duty to see that they receive the best services 
possible so they can once again have good lives. As we see it, 
they are the ones who have actually earned this right.
    [The prepared statement of Mr. Omvig follows:]
     Prepared Statement of Randall Omvig, Father of Joshua L. Omvig
    Ellen and I would like to thank you for the opportunity to address 
the Senate Veterans' Affairs Committee. We have submitted two newspaper 
articles from the Des Moines Register and the Waterloo Courier from 
Iowa for your examination. We also hope you have had the time to look 
at Josh's memorial Web site, http://joshua-omvig.memory-of.com/
about.aspx which was created by Josh's Aunt, Julie Westly. This site 
was created to help others with as much information as we could find on 
Post Traumatic Stress Disorder (PTSD). There is no way we could go 
through in 5 minutes the events leading up to and the day Josh took his 
life in front of his mother.
    We would like to voice our strong support of the Joshua Omvig 
Veterans Suicide Prevention Act, S. 479, reintroduced by Senator Harkin 
and Senator Grassley. This bill has Josh's name, but it represents so 
many men and women before and after Josh who were unable to live with 
the physical, mental and psychological effects of their service. The 
major points of the bill are the following:

    1. De-Stigmatizing Mental Health
    2. Training of employees and other personnel on suicide and suicide 
prevention.
    3. Family education and outreach.
    4. Peer support program.
    5. Health assessments of Veterans
    6. Counseling and treatment of Veterans
    7. Suicide prevention counselors
    8. Research on the best practices for suicide prevention among 
Veterans.
    9. Substance abuse treatment
    10. 24-hour mental health care.
    11. Telephone Hotline.

    One of the most important issues we see in the past and today is 
the way we are bringing our troops back, regular service and especially 
the National Guard and Reserve Units who are going back to civilian 
life. Josh's company went from Iraq to Thanksgiving dinner with their 
families in less than a week. One or two weeks of decompression or 
defusing is not enough. This however, is more the rule than the 
exception. A few days later Josh was back to his civilian job.
    All the troops know how to fill out the form asking if they are 
having any problems. They know if they say yes they will be held back 
and won't be able to see their families and loved ones. The one thing 
they have been thinking and dreaming about is the homecoming and they 
won't do anything to delay that.
    Josh's company was put on a 90 day call-up period when they got 
back whereby if they were needed they would be called back to active 
duty. During this time there is no drill, no contact with the people 
who he had spent such an intense time with. There was no one around for 
him to talk over things with. After a week or two of being home reality 
starts to set in, things are not the same.
    Why didn't Josh and so many others seek help when they got back? We 
train our soldiers well, mentally and physically, to handle any 
situation that comes up to survive. The Can Do, I Can Handle It 
attitude. When we would ask Josh how he was doing it was ``I'm OK, I 
Can Handle It.'' When we hear that now we know there is a soldier 
that's having problems.
    Josh wouldn't tell us very much about what he did in Iraq. They had 
to sign secrecy papers that they would not say where they were or what 
they did. Josh tried to keep his promise. Little things here and there 
in conversations would come out and he would tell us we couldn't tell 
anyone. How could he seek help if he couldn't tell anyone what his 
service experiences were. We have heard this from other veterans too.
    When Josh got back he was always sick with some type of upper 
respiratory and gastro-intestinal problem. We finally got him to go to 
our family doctor whom he was friends with. We told him to talk to her 
about some of the problems he was having. She later told Ellen to get 
him some help. We tried to get Josh to go to the VA hospital but he 
wouldn't go, he said it would affect his military and personal career. 
We told him we would set an appointment with a private doctor but he 
said the Army would find out. We even told him we would set up an 
appointment under our name so the Army wouldn't find out, he couldn't 
believe we would really do such a thing it wasn't right.
    It is usually a crisis or tragedy that brings the Veteran to see 
they can't handle it alone and they need help or the family that 
finally pushes the situation of seeking help. This is why it is so 
important to have the appropriate support, training and counseling for 
family members before their soldier comes home. This will help them to 
understand the changes that may happen. What to look for, where to go 
for help and what action can be taken to help their soldier. We 
received the present information families get before Josh got home. 
Give them space, don't push them to talk, give them time to acclimate--
it didn't work. Peer training and counseling are needed to help the 
Veteran and their families.
    The VA delivery system, presentation and implementation of mental 
and psychological services hasn't changed much. It is still mainly up 
to the Veteran and their family to identify the problem and go seek 
help. There still is no comprehensive preventative program during the 
defusing or decompression time to start dealing with the emotional and 
psychological effects of their service. VA and DoD need to provide 
group peer counseling, training, coping mechanisms and strategies.
    The first counseling Josh's company had came at the first drill 
after Josh's death. They brought in chaplains and counselors to have 
group and private sessions to talk over what happened with Josh. 
Something amazing happened. The conversation went from what happened to 
Josh to what trouble some of the other soldiers were having too. Some 
of them went on to get more counseling and treatment after that.
    We feel the decompression time should take place after the soldiers 
have leave to see their families. After the experiences of homecoming 
and being with their families, the soldier will be able to deal with 
the paper work and assimilation training for civilian life. When back 
home, we must assure that there are accessible, timely services, 
education and outreach programs for the veterans and their families.
    The day after Josh's suicide, the Grundy Center police department 
and fire department had a defusing time where a professional counselor 
was brought in to help them cope and deal with what happened that day. 
Do we as a Nation take the same humanitarian measures for our troops 
who have served for us for months in a combat area? Are we providing 
our military men and women the appropriate services to help them 
assimilate to civilian life? Are we providing them with what they need 
to survive the peace? Ellen and I have to say ``No'' not at this time. 
We can and must do more!
    This is no time to bury our head in the sand, to take a defensive 
posture, to try and justify or explain the problems of the past. It is 
time to make a major process check to implement preventative programs. 
Research has proven that if treated early the chance of coping with 
mental and psychological problems is better and may keep them from 
going to the chronic stage. We have and will have brave men and women 
serving for us. It is our duty to see that they receive the best 
services possible so they can once again have good lives. As we see it, 
they are the ones who have actually ``earned'' this right.
                                 ______
                                 

              [From the Des Moines Register, May 12, 2006]

                Pair Help Iraq Veterans `Survive Peace'

                          (By Jennifer Jacobs)

    Grundy Center, IA.--The secrets that troubled veterans confide to 
Randy and Ellen Omvig weigh heavily on their shoulders.
    Their son, Joshua, a 22-year-old Iraq veteran, was so anxious to 
clear his mind of the trauma of war that he killed himself in front of 
his screaming mother. A Web site they created in his memory: http://
joshua-omvig.memory-of.com/About.aspx has become a whispering wall of 
sorts, a safe place where other soldiers confess their silent 
suffering.
    ``It's been hundreds a day--so many heartbreaking stories,'' Ellen 
Omvig said, holding on her lap the note her son left, explaining his 
own torment. ``It's like the same story over and over again, just 
different names, different towns. A lot of them will make you cry, 
there's so much pain.''
    The Omvigs, of Grundy Center, will be at the State Capitol Rotunda 
today with Congressman Leonard Boswell and Gen. Wesley Clark, who will 
speak at 3:30 p.m. on the need for better services for troops with 
post-traumatic stress disorder, returning from Iraq and Afghanistan.
    ``You know the phrase you've got to be careful of?'' Randy Omvig 
said. He paused, his breathing ragged. ``When they say: `I'm fine. I 
can handle it.' That means: `I'm having trouble.' ''
    It took 4 months for the Omvigs, who are intensely private, 
churchgoing Republicans, to agree to share Josh's story publicly.
    Randy Omvig, a wrestling coach with a rock-like stature and stoic 
personality, nearly skipped his son's funeral in December because, he 
told himself, he couldn't have everyone see him break down. His wife 
has been unable to work full time since a semi hit her car 8 years ago, 
and these days she is even more fragile.
    ``The time to help Josh is over,'' Randy Omvig said, and this time 
his bass voice was unwavering.
    ``But we can't ignore the others. They're coming back here safe. 
We've got to help them survive the peace.''
                          messages of torment
    The messages come in the dead of night, from insomniacs who tell 
the Omvigs that they nurse a deep need to be alone. They trust no one 
but their combat buddies. They can't kick the flashbacks and 
nightmares. They lose their temper at work. A few have admitted they 
expect to divorce soon. Some have lashed out with their fists. Some say 
getting drunk seems to be their only relief.
    And some have felt the scratch of rope around their neck or the 
chill of a gun muzzle on their head.
    ``Instead of killing themselves, they'd rather re-enlist and get 
shot,'' said Josh's aunt, Julie Westly of Sioux City, who helps the 
Omvigs keep up with the 15 to 50 e-mails that arrive daily from 
soldiers and families in Iowa and elsewhere. ``They'd rather die with 
honor,'' Westly said.
    That was Josh's plan, his family said. He thought diving back into 
the war zone would ease his restlessness--and spare some other soldier 
from being separated from family.
    The kid known as the joker who cracked everyone up barely cracked a 
smile after he got home in November after 11 months of high-level 
security work north of Baghdad.
    Josh, who was with the U.S. Army Reserve 339th Military Police 
Company of Davenport, said he felt honored to defend his country, and 
he knew why he had to do the things he did. But he was never able to 
recover from them.
    ``He'd say, `Mom, I don't want you to hate me,' '' Ellen Omvig 
recalled, her eyes red and tired behind delicate glasses. ``I'd say, 
`How could we hate you? You were in the war.' ''
    Every time he left the house, he hugged his parents fiercely and 
said he loved them.
    Unable to sleep, he would work himself into exhaustion, pulling 
double shifts as a security guard in the skywalks of Des Moines before 
driving 90 miles to Grundy Center. Then he'd hide out in his bedroom, 
playing war video games with loud music in his headphones.
    At least his hands had stopped shaking. For a while, he couldn't 
button his clothing or grasp items in his pockets. He'd see something 
on the side of the road and for a few seconds his racing heart told him 
it could be a bomb. He was startled by sudden movements, like a bird 
landing on a stop sign.
                              a final note
    The shaking stopped, but the hyper-vigilance didn't. And his mood 
worsened.
    He refused to go to counseling. He was certain the Army would find 
out, and that there would be repercussions. He figured that with his 
symptoms, his goal to be a police officer was ruined.
    Four days before Christmas, Josh went out drinking. A friend whose 
car had slid into a ditch in Black Hawk County called him for help, and 
Josh was arrested for first-offense operating while intoxicated.
    When he got home in the morning, he shaved, changed into his desert 
uniform, and told his mom the recruiter had asked him to tag along to 
meet some possible recruits.
    Ellen Omvig detected nothing unusual about his behavior, and told 
him she was going to hop in the shower. Josh casually handed her a 
note, saying, ``You can read it later,'' and walked out the door.
    ``Mom & Dad,'' she read. ``Don't think this is because of you. You 
did the best you could with me. The faces and the voices just won't go 
away.'' He's re-enlisting, she thought.
    `` . . . I will always love you. Josh.''
    She sprinted after him, figuring she could persuade him not to sign 
anything until he talked it over with his father.
    And then the realization hit her, and she was yelling for Josh to 
stop, stop, stop, stop. She fumbled for the locked door handle of his 
pickup, grabbed the side-view mirror, pleading.
    ``Terry's coming,'' Josh told her. ``He'll take care of it.''
    Ellen Omvig saw the handgun. As supervisor of his security crew, 
Josh was permitted to carry one.
    She was screaming, and Josh kept telling her she didn't understand. 
His battle buddy had been killed, he said.
    His parents aren't sure how he knew that. Maybe he got a letter. 
Neither parent has entered his bedroom since he died.
    Josh kept repeating that he should have been there taking care of 
him. He had to be with him now. He said he'd been dead ever since he 
left Iraq.
    ``His eyes were just dark, and it was like he wasn't really 
there,'' Ellen Omvig recalled, her hands hugging her sides, not 
touching the tears sliding down her face. ``I said, `No! Your dad's 
counting on you to take care of me if anything happens to him.' And 
that's when he broke and the pain and the anguish was so clear and he 
said, `How can I take care of you when I can't take care of myself?' ''
    Then a squad car rolled up, Ellen Omvig said. Josh had telephoned 
police officer Terry Oltman and asked him to be at the Omvig house in 
10 minutes. Josh, a reserve officer and volunteer firefighter, knew 
every cop in town. ``Go!'' Josh ordered his mother.
    Oltman was shouting for Ellen Omvig to get away, but she wouldn't 
leave her son, and Josh angled his head so the bullet's path wasn't 
aimed at his mother.
    That was December 22, 2005.
                           helping the living
    It never hit Ellen and Randy Omvig until later that Josh's problems 
were classic symptoms of post-traumatic stress disorder. After posting 
information at http://joshua-omvig.memory-of.com, they've heard from 
military families worldwide who say the problem is extensive.
    ``It's a terrible thing,'' Ellen Omvig said. ``There are a ton of 
things that can be done so that people can live with it and at least 
put it on the back burner in their lives instead of letting it be the 
driving force in their lives and being permanently disabled.'' The 
Omvigs think the U.S. military isn't doing enough to address veterans' 
mental health or to ease the stigma of getting treatment.
    Officials with the Veterans' Administration and Department of 
Defense said they have taken steps to offer more mental health 
services, but servicemembers are not always receptive to that.
    A Government Accountability Office report issued Thursday states 
that of returning troops found to be at risk for PTSD, 88 percent were 
not referred by government health care providers for further help.
    ``We're not political one way or another about should we be over 
there, should we not be over there,'' Randy Omvig said. ``We hear 
they're on a `humanitarian mission.' There must also be a humanitarian 
mission when they get home. We can't let another generation suffer the 
way the Vietnam generation suffers.''
    Now the Omvigs write to politicians and military officials, 
applying pressure. When Boswell's office called Wednesday, they agreed 
to come to the Capitol.
    ``I'm willing to talk to anybody I have to,'' Randy said. ``This 
isn't going to end in a year.''
                                 ______
                                 

         [From the Waterloo-Cedar Falls Courier, May 12, 2006]

               Grundy Center Couple Who Lost Soldier Son 
                          Visit Capitol Today

                           (By Dennis Magee)

    Grundy Center.--Randy and Ellen Omvig will go public this afternoon 
with their grief. They would rather not.
    ``Truth be told, we'd rather go fishing,'' Ellen said.
    But then, many things in their life are not as they would wish.
    The couple's son, Josh, killed himself in December. He was 22 years 
old and a veteran of the war on terrorism. He managed for about a year 
after his return to Iowa.
    Randy and Ellen Omvig blame post-traumatic stress disorder for 
their son's death. As the name suggests, the psychological condition is 
triggered by horrific events that overwhelm a person's ability to cope.
    In a series beginning Saturday, the Courier will examine issues 
related to post-traumatic stress and what the disorder will mean to 
soldiers, their families and the state of Iowa.
    The Omvigs will appear at 3:30 p.m. in the State Capitol Rotunda 
with Rep. Leonard Boswell, who will talk about proposed legislation. 
Boswell, a Democrat representing Iowa's 3rd District, will appear with 
Gen. Wesley Clark, a onetime and possibly future Democratic candidate 
for president.
    Boswell served for 22 years in the U.S. Army and completed two 
tours in Vietnam. He is expected to talk about House Resolution 1588, a 
bill introduced by Rep. Lane Evans, D-Illinois in April 2005, but still 
stuck in the first stages of the legislative process! The measure calls 
on the Federal Government ``to improve programs for the identification 
and treatment of post-deployment mental health conditions, including 
post-traumatic stress disorder, in veterans and members of the armed 
forces, and for other purposes,'' according to a Web site maintained by 
the Library of Congress. The bill also suggests a requirement to study 
factors that decrease the likelihood of developing chronic post-
traumatic stress disorder related to combat.
    The [bill] is backed by more than 100 congressmen, almost 
exclusively from the Democratic side of the aisle, but including Rep. 
Jim Leach, a Republican from Iowa. Boswell signed on as a co-sponsor 
May 9 of this year. Last legislative action on the bill came April 25, 
2005, when it was forwarded to the House Subcommittee on Health.
    During a recent interview, the Omvigs talked about their reluctance 
to become public figures--and their commitment to do so.
    Burying their heads and hearts would be easier and safer than 
speaking out.
    ``But it wouldn't have been just to Joshua,'' Randy said.
    ``Or to anybody,'' Ellen added.
    The couple view their participation with trepidation.
    ``Exciting is not the word we think of. Frightening is the word we 
speak of to each other,'' Ellen said Thursday.
    Not of anyone or anything in particular. Or of the probable media 
horde and crowd.
    ``We feel ill-suited, not qualified, to speak on the behalf of 
others,'' Ellen said. ``I do not have the right words to explain how we 
feel.''
    She has a powerful message nonetheless.
                                 ______
                                 

         [From the Waterloo-Cedar Falls Courier, May 13, 2006]

             Parents Push for Solider's Story to Continue 
                             Beyond Suicide

                           (By Dennis Magee)

First in a series
    Grundy Center.--He always intended to be a policeman. To get 
there--with his parents' guidance--Josh Omvig became a soldier.
    ``He was a nice young man,'' Ellen says.
    A mother's pained love.
    ``He was a pretty straight arrow,'' Randy says.
    A father's wounded joy.
    They knew Josh experienced combat in Iraq as an Army reservist. By 
connecting the dots, they concluded their son probably participated 
vigorously. Too late, they realized the person they got back from the 
war on terrorism was not the young man they sent.
    Sadly, they say, post-traumatic stress disorder was only a vague 
concept until they saw Josh's world unravel.
    ``In retrospect, we probably should have pushed harder,'' Randy 
says.
    His tone conveys little confidence the couple actually believe they 
could have saved their boy. As they see it, odds weighed heavily 
against their son.
    ``I keep thinking about it,'' Randy says. ``But it was a no-win 
situation for Josh.'' The soldier told his mother once he died in Iraq. 
But he kept living for another year.
                             burning desire
    Josh, a former Boy Scout with a newspaper route, wanted to join the 
military early. His parents refused to sign paperwork required of a 17-
year-old and made him wait.
    `` `It is an adult decision. It is 7 years of your life,' '' Randy 
remembers telling his son.
    Later, the couple insisted their son investigate several branches 
of the armed forces before making a commitment. And they helped.
    ``Josh was pretty focused,'' Randy says.
    He enlisted with the 339th Military Police Company based in 
Davenport.
    ``When he signed up they hadn't been activated in more than 30 
years,'' Randy says.
    The choice was logical for an aspiring policeman or sheriff's 
deputy.
    ``He figured the best way to get some experience was to go into the 
reserves,'' Randy says.
    Josh graduated a semester early from Grundy Center High School. 
Within 2 days he was training at Fort Leonard Wood in Missouri.
    The company deployed to Guantanamo Bay, Cuba, guarding suspected 
members of al Qaida. But Josh was not yet ready. Meanwhile, he enrolled 
in law enforcement courses at Hawkeye Community College.
    ``But sitting in the classroom was kind of tough on him,'' Randy 
says.
    Josh seemed to enjoy much more the ride-alongs he arranged with 
sheriff's deputies in Tama, Grundy and Hardin counties.
    ``He liked the action part of it,'' Randy says.
    Josh started working for a security company in Des Moines and 
became a supervisor. He moved to Altoona.
    In 2003, the soldiers in the 339th--back from Cuba--and Josh and 
his parents anticipated what lay ahead.
    ``They kept telling them all summer, `You're going to be activated 
real soon . . . ,' '' Ellen says. ``That went on for months.''
    Josh got ready, had his teeth checked and deposited DNA samples 
with the military. Officials activated the 339th once again in December 
2003 and the company deployed to Iraq in February 2004.
    The soldiers' mission included guarding people and enemy munitions. 
They at times also protected convoys. Shifts were 15 hours long. Their 
camp at one point was mortared daily.
    Temperatures inside tents exceeded 100 degrees at night, Josh said, 
and soldiers resorted to flea collars on their beds and around ankles 
to stop the pests. But that didn't work too well, Ellen says, because 
the toxic chemicals irritated the soldiers' skin.
    ``It was pretty rough conditions for them,'' Randy says.
    At the time, the couple didn't know where their son was. They later 
learned he served in the Sunni Triangle, a region northwest of Baghdad 
and home to many of Saddam Hussein's most loyal followers.
    The 339th worked out of a ``forward operating base,'' according to 
the Omvigs. There were no showers and only sporadic electrical service, 
Josh said. Telephone reception was poor and calls were frequently 
interrupted.
    Soldiers in the company encountered close combat in urban 
conditions. Josh mentioned tall buildings crowding streets narrower 
than H Avenue where his parents lived in Grundy Center. Gunmen would 
pop up in windows a few feet away from convoys. Josh indicated a 
handgun might have been more effective than the grenade launcher he 
manned.
    Josh never talked about killing anyone but said the 339th came 
under fire. He was usually in the company's lead vehicle and ``he was 
their best shot,'' Randy says.
    The couple received one letter from their son in 11 months. Josh 
later said he was firing off notes every month. Josh also occasionally 
skipped opportunities to call home, at least in part to allow fellow 
soldiers with spouses and children access to available phones.
    ``Another reason was he said it was too hard talking to us,'' Ellen 
says.
                          break in the action
    In early September 2004, Josh returned to Grundy County for a few 
days of rest and relaxation. He found little of either, according to 
his parents.
    ``He shook for 3 days,'' Randy says.
    He remained vigilant and seemed unable to let down his guard.
    ``He was in pretty bad shape when he got back,'' Randy says.
    The effects were apparent enough that others noticed. One of Josh's 
first desires was a meal at McDonald's. While there, the family 
encountered a veteran of the Vietnam War.
    The older man saw the jitters and addressed Josh.
    `` `I know. It will get better. Thank you for your service,' '' 
Ellen remembers the man saying.
    Josh only shared information about Iraq in one or two-sentence 
fragments at a time. But as they spent time together, his parents 
learned driving presented perceived threats to the veteran. Deer along 
the road. Headlights in the rear view mirror. Ordinary items, like 
culverts, that to Josh represented hiding places.
    ``His head was on a pivot,'' Randy says.
    While home, Josh withdrew periodically from family festivities.
    `` `You've got to forgive me. But I can't be around people too 
much,' '' Ellen remembers him saying.
    But he was glad to be in Grundy Center.
    ``He kept saying, `I'm so happy to be home,' '' Ellen says.
    Randy remembers Josh taking time to smell flowers and touch leaves 
still hanging on trees. He talked little about what he had experienced. 
Peace eluded Josh, especially at night.
    ``Of course, you heard him. The bad dreams,'' Ellen says.
    Their son would call out while sleeping, usually ``No'' or ``Stop'' 
or some other military command.
    ``He didn't really want to go back. But he didn't want to leave his 
buddies either,'' Randy says.
    Josh fulfilled his obligation. He returned to Iraq after about 10 
days.
    ``We just got him pretty well rested and fed,'' Ellen says.
    The couple was concerned. Looking back, they realize they witnessed 
the serious effects of combat-stress reaction.
    `` `I'm fine. I can handle it. I've got it under control,' '' Ellen 
remembers Josh repeating several times.
    ``I didn't know enough,'' she adds.
    ``And he was putting on a pretty good act for us,'' Randy says.
                              headed home
    Josh completed his tour of duty in Iraq on his 21st birthday in 
November 2004. He later told his parents the company expected to spend 
3 weeks in Kuwait. At another point, Josh believed he would be at Fort 
McCoy in Wisconsin for 3 months.
    In reality, the soldiers were in Iowa within a week.
    As the Omvigs explain the transition, Josh ``went from fifth gear 
to first gear'' in a few days.
    For many troops returning to the United States, the fastest way out 
is the preferred path. Though sick, Josh declined an opportunity to 
visit the infirmary in Wisconsin.
    Randy explains a soldier's option at that point.
    ``Do I say yes and have to stay, or do I say no and go home to my 
family? ''
    When he arrived in Iowa, the next day was Thanksgiving. On Friday, 
Josh returned to work in Des Moines.
    Ellen and Randy knew their son was suffering. Josh, however, 
continued to assert he could handle the situation. He expressed concern 
that talking with an Army counselor, admitting a mental health issue, 
conceding he needed help would damage his career.
    ``We even tried to get him to go get private help that we would pay 
for,'' Ellen says. ``He said, `Nope. They will find out.' ''
    Ellen suggested seeking therapy by using an assumed name. Josh 
rejected the idea, shocked his mother might condone lying.
    The specifics about what troubled their son and to what extent 
remained a mystery.
    ``You get short conversations,'' Ellen says. ``Loving and kind. But 
short.'' Other veterans later told Randy and Ellen that Josh at times 
appeared to want to discuss something. The veterans did not press the 
issue, giving the soldier space to proceed at his pace. Josh inevitably 
let the moments pass, the veterans said.
    The security firm put out pink slips and Josh was out of work. He 
moved into his parents' home in Grundy Center and--still considering a 
career in law enforcement--enrolled at Ellsworth Community College.
    While waiting for classes to begin, Josh commuted to a part-time 
job in Des Moines. At one point, he shared a conversation with his 
father, notable because of its length and content.
    `` `Dad, I just want to be happy like you,' '' Randy remembers.
    Josh repeated the thought several times.
    An aunt, Julie Westly of Sioux City, and others in the family also 
knew about Josh's ``deep, deep depression.''
    ``We all encouraged him to get help. But he was so afraid because 
he thought his career would be over,'' Westly says.
    Weeks played out, and casual observers in Grundy Center might not 
have noticed any change in Josh. He started helping as a crossing guard 
for the elementary school, setting out stop signs. He volunteered with 
the Grundy Center Fire Department, bounding out of the Omvigs' home 
when his pager sounded.
    ``He loved it. He loved to help people,'' Randy says.
    Getting up in the night for an emergency hardly seemed an 
inconvenience.
    `` `Well I don't sleep anyway, Mom,' '' Ellen remembers him saying.
    Josh altered his career goal slightly. He still wanted to be a 
policeman, but in a small community.
    ``Mostly, he wanted to be happy,'' Randy says. ``I knew what he 
meant.''
    Besides restless nights, Josh experienced flashbacks. Unfamiliar 
sounds sparked an undeniable urge to examine his parents' property--in 
military terms, to secure the perimeter.
    Ellen and Randy know Josh would circle their lot. He may have gone 
farther into the neighborhood.
    ``I don't know. We didn't follow him,'' Ellen says.
    Josh occasionally shared thoughts that his mother did not 
understand.
    `` `I don't want you to hate me,' '' she remembers him saying.
    At the time, Ellen interpreted the comment as a reflection on tasks 
performed in combat. Attempts to reassure that she would never hate her 
son were only marginally effective.
    `` `What you had to do over there is what you had to do to 
survive,' '' Ellen remembers saying.
    Josh admitted another problem.
    ``He talked about hearing voices, seeing faces,'' Randy says.
    Ellen pressed her son on one occasion about what he meant.
    ``He said Iraqi people.''
                              bad to worse
    Josh had an ally in Iraq. Ellen and Randy know him only as Ray.
    The soldiers were assigned to each other as battle buddies during 
boot camp because they were standing in line together.
    ``They ended up good friends,'' Ellen says.
    Toward the end of December, Josh apparently learned Ray had been 
killed in Iraq. The soldier's death followed unfortunately close to the 
funeral for Jimmie Kitch, Ellen's mother.
    On December 21, Josh went out drinking, an uncharacteristic event, 
according to his father and others.
    ``I've never seen him drink a beer,'' Westly says.
    At some point during the evening, Josh's truck and another vehicle 
went into a ditch along Orange Road and got stuck in snow. Josh and the 
other driver left the area. When they returned in a third car with two 
other people, a police officer from Hudson and Black Hawk County 
sheriff's deputies were at the scene.
    According to their report, the deputies smelled alcohol on Josh's 
breath and he failed two of three field sobriety tests. They arrested 
Josh for operating a vehicle while intoxicated.
    Josh got out of the Black Hawk County Jail at 9 a.m. Ellen 
remembers by 11 he was home in Grundy Center. It was a Thursday.
    He shaved and put on his desert fatigues. He said he wouldn't be 
going to work. At the time, Ellen remembered a conversation about 
visiting a friend and didn't think anything unusual. There was also 
mention of helping a recruiter talk with prospective young men and 
women, which Josh had done in the past.
    He asked his mother for their pastor's telephone number. And a 
sheet of paper. He wanted to write a few things down.
    Ellen tore a piece out of a spiral notebook, shearing off one 
corner. Josh said the damaged page was good enough. Ellen remembers her 
son's demeanor as calm.
    Josh later handed his mother a note and went out a back door. Ellen 
read the words but didn't understand. Josh described joining his 
buddies. She at first thought that meant re-enlisting, a possibility 
Josh had entertained.
    She went after him.
    ``I wanted him to talk to his dad,'' Ellen says.
    ``Then it finally hit her what he was talking about,'' Randy adds.
    Josh was in his truck. The doors were locked. Ellen pleaded with 
her son to not do what he was contemplating. Her appeals turned to 
screams.
    Ellen did not [know at] the time Josh had already called a friend, 
police officer Terry Oltman. He asked Oltman to stop by the house in a 
few minutes.
    Seeing what was developing, Oltman ordered Ellen away from the car, 
she remembers. Ellen refused to leave her son.
    Josh raised a handgun and fired a single shot. He turned his head 
slightly to avoid possibly injuring his mother.
    ``I just can't believe how much can happen in one minute,'' Ellen 
says.
    Father and mother want information in their son's suicide note held 
privately. Save for the closing thought:
    ``I will always love you. Josh.''
                               postscript
    The family buried their soldier with help from the U.S. Army 
Reserve 339th Military Police Company. Josh Omvig was 22.
    ``He thought it would get better because he was home,'' Westly 
says. ``And it never got better. It got worse.''
    Josh told his mother once he died in Iraq. But he kept living for 
another year.
                                 ______
                                 

         [From the Waterloo-Cedar Falls Courier, May 13, 2006]

          Family of Dead Soldier Wants Government to Do More 
                     to Treat Post-Traumatic Stress

                           (By Dennis Magee)

    Des Moines.--He served in Iraq. He came home. Then Army Spc. Josh 
Omvig killed himself. His parents blame post-traumatic stress disorder.
    Only reluctantly did Randy and Ellen Omvig agree to share their 
son's story.
    ``We already live with what happened to Josh,'' Randy says. ``Every 
day.''
    ``And night,'' Ellen adds.
    Friday afternoon--against their impulse to maintain private lives--
the couple was near center stage in Iowa. They participated in a press 
conference organized by Rep. Leonard Boswell, a Democrat seeking re-
election in Iowa's 3rd District. Gen. Wesley Clark, a onetime and 
possible repeat Democratic candidate for president, also addressed a 
small crowd and a few television cameras.
    The Omvigs sat in the State Capitol Rotunda in the front row, 
introduced late in the hour-long event. Hearing the words ``he took his 
own life'' moved the couple near to tears.
    ``We know our deep feelings will never replace Joshua,'' Boswell 
said.
    The event served as both campaign stop for Boswell and an 
opportunity for the candidate to address the Federal Government's 
response to its returning soldiers.
    ``We're trying to stir up a little tension. Others are, too,'' 
Boswell said.
    Specifically, he said, the time for action on House Resolution 1588 
is well-past. The measure would boost benefits for veterans and address 
issues related to post-traumatic stress disorder.
    Rep. Lane Evans, D-Illinois, introduced the bill in April 2005. 
Boswell signed on as one of more than 100 co-sponsors last week.
    ``I didn't want to come out here and tell you I support it if I 
wasn't on it,'' he said.
    The last action on the bill was referral to the House Subcommittee 
on Health toward the end of April 2005.
    ``I can't believe they've had that for more than a year,'' Ellen 
Omvig said.
    Boswell suggested part of the hang-up is related to the cost, a 
notion he rejected.
    ``And we can't find the money? In the United States of America? 
It's absurd,'' he said.
    He also emphasized the bill's intent to strengthen cooperative 
efforts between the U.S. Department of Defense and the U.S. Department 
of Veterans Affairs.
    Clark later attacked President George W. Bush, saying the 
administration needs ``to get its priorities right.''
    The retired four-star general, who was severely wounded in Vietnam, 
also shared his experience with life after combat. Nine years after his 
service in Southeast Asia, Clark said he experienced flashbacks.
    ``It takes a long time for these feelings to surface and for 
veterans to be able to vocalize what they went through,'' he said.
    ``I was lucky. I didn't suffer much,'' Clark added.
    Josh Omvig did.
    The young man from Grundy Center suffered through nightmares, 
difficulty sleeping, involuntary shaking, physical health concerns, 
intrusive memories and a sense that he must be hypervigilant to 
supposed dangers.
    ``He never was well,'' Ellen says.
    She and her husband witnessed their son's struggle for about a 
year. They and other family members tried to intervene but their 
suggestions were rejected. Josh was in a place--had been to a place--
his parents could not reach.
    ``We always thought we had a pretty good rapport, that he could 
tell us anything,'' Randy says. ``But he couldn't tell us about that.''
    Toward what turned out to be the end, they attached a name to 
Josh's condition--post-traumatic stress disorder.
    ``We didn't associate it with Josh until he started talking about 
the voices and faces,'' Randy says.
    ``Nobody gave us any reason to know about it,'' Ellen adds.
    Josh used a handgun to end his pain. His parents buried him in 
December. He was 22.
    ``It's hard to just get up in the morning,'' Randy says. `` . . . 
As a matter of fact, it's getting harder. The numbness is wearing 
away.''
    The couple's other son is in the Army. Their daughter is in high 
school.
    ``People ask, `How can you go on?' I have other children,'' Ellen 
says.
    In their grief, the Omvigs sensed a need early on to address issues 
they believe vitally important to soldiers and their military families. 
Randy's sister, Julie Westly, created a Web page devoted to her nephew 
and to post-traumatic stress disorder.
    ``We tried to research post-traumatic stress disorder and it was so 
hard to even find out what it was called,'' Westly says. ``I was 
searching for `military suicide' and it took a good week to even find 
out it even had a name.''
    Their sad experience spawned what the family says will be an 
extended commitment to spreading the word about post-traumatic stress 
disorder.
    ``What we can do for Josh is over. But we don't want what we went 
through to happen to any other families,'' Randy says.
    But it apparently is, though the extent of the problem is difficult 
to quantify. The National Veterans Foundation, a private nonprofit 
organization, reports at least 65 soldiers and 32 Marines have taken 
their own lives, either while serving in Iraq or after returning to the 
United States.
    ``It's the worst thing for any parent--to see your child die--let 
alone suicide,'' Westly says.
                              help needed
    Josh's parents have a short list of items they maintain returning 
troops deserve.
    <bullet> Guarantees those who seek medical care, physical or 
mental, do not face reprisals in their military or civilian careers.
    One of Josh's stated reasons for not seeking counseling was fear an 
admission he needed help would damage his professional life.
    <bullet> Transition periods between active duty and their return to 
civilian lives.
    ``We want to make sure the troops coming back have time to 
decompress, have this down time,'' Randy says.
    The Omvigs stipulate the time should be spent on ground that troops 
consider safe. A month in Kuwait will not serve. The transition, in 
their view, would be most effective on U.S. soil. But not in their 
homes and hometowns, either.
    <bullet> Intact units until ultimate release from duty.
    The Omvigs advance--and research supports--the notion that soldiers 
should be surrounded by their colleagues. After returning to home bases 
or reserve centers, soldiers should be required to check in 
periodically and maintain contact with other troops.
    <bullet> Mandatory counseling with fellow soldiers with similar 
backgrounds.
    Veterans tell the Omvigs they prefer to talk with people who 
understand conditions on the battlefield.
    ``Because they won't talk or listen to someone who hasn't been 
there,'' Ellen says.
    That includes relatives, including parents and spouses.
    ``Their family is the one safe place that hasn't been affected by 
their service,'' Ellen says.
    Home is a good place, set aloft on an idealistic pedestal.
    ``They don't want it to change that. . . If they tell you anything, 
it will soil it,'' Ellen says.
    <bullet> Information for families.
    The couple also believes spouses and parents should receive more 
training on how to cope with returning soldiers. Information on how to 
recognize symptoms and treatment options should be readily available.
    ``They don't prepare the families for what comes home,'' Ellen 
says.
                               role model
    The Omvigs draw comparison to how soldiers in World War II returned 
from Europe or the Pacific--on very slow ships over the course of weeks 
and months. And all the while, the troops were surrounded by fellow 
fighting men and women, who knew the score on the battlefield.
    ``You had a chance to wind down. There was nothing from the outside 
world you had to deal with. Indeed, there was no way you could,'' Ellen 
says.
    The Omvigs adamantly resist entering the debate about the war in 
Iraq. The Web site in Josh's honor refers only to his life, offering 
hundreds of resources related to post-traumatic stress disorder. There 
are also dozens of links to additional Internet sites they believe 
veterans and their families will find helpful.
    Those who would argue the merits of the conflict should go 
elsewhere.
    ``This is not the platform or the forum for that discussion,'' 
Ellen says. The after effects of combat cross boundaries between 
countries, between political parties and between religious convictions.
    The political arena is relevant to the Omvigs for one reason only: 
They want state and Federal legislators to address issues related to 
post-traumatic stress disorder.
    ``This is isn't politics. This is humanitarian,'' Randy says.
    If government officials continue to deploy military units, 
including guardsmen and reservists, they should also prepare for their 
return.
    ``OK. Take him as a citizen-soldier. But how are you going to bring 
him back as a citizen? '' Randy asks.
    ``From the Revolutionary War on down, the attitude has been, `Buck 
up. Be tough. Deal with what you've got,' '' Ellen adds. ``But that 
doesn't work.''
    The Omvigs understand proposals to hold soldiers longer, to provide 
mandatory therapy sessions, carry a price tag But, they reason, paying 
now will cost less than paying later.
    ``Can we afford to have these people--who served so heroically--to 
have problems for the next 10, 20, 30, 40, 50 years? '' Randy asks. ``. 
. . How much is it going to cost in the future if they can't be 
productive citizens, if they can't hold a job? '' They also cite as 
possible--even likely side effects--alcohol and drug abuse, divorce and 
child abuse. And suicide.
    According to the National Veterans Foundation, the post-traumatic 
stress disorder cases treated within the Veterans Administration system 
increased by tenfold within the last year. More than 16,000 veterans of 
Iraq and Afghanistan already carry the diagnosis.
    ``We're expected to be humane to the rest of the world. Well how 
about being humane to these soldiers?'' Randy says.
    Ellen and Randy, however, view the public stance their taking as 
``a necessary evil.'' Dealing with their grief privately is the 
preferred course.
    ``That's really what their goal is, to get the word out,'' Westly 
says.
    Burying their heads and hearts would be easier and safer than 
speaking out.
    ``But it wouldn't have been just to Joshua,'' Randy says.
    ``Or to anybody,'' Ellen adds.
    Josh's Web site on at least one occasion attracted a hurtful 
comment about his abilities and courage--and though they state no 
political viewpoint--about the family's sense of patriotism.
    Five months after their son's funeral, the Omvigs and Westly are 
speaking out anyway. They want others to know about the danger to 
soldiers posed by post-traumatic stress disorder.
    ``We are ready to make a lifelong commitment to this, until it 
doesn't exist any more,'' Westly says. ``We don't want to see this 
happen to any other families.'' Ellen says the family has no choice.
    ``We know now. We've been enlightened. It's our responsibility.''
    ``So now it's your responsibility,'' Ellen adds to those who hear 
her words.
    ``There's other families. There's other moms.''

    Chairman Akaka. Thank you very much, Mr. Omvig.
    Patrick Campbell?

          STATEMENT OF PATRICK CAMPBELL, OIF VETERAN, 
          CONGRESSIONAL LIAISON, IRAQ AND AFGHANISTAN 
                      VETERANS OF AMERICA

    Mr. Campbell. Thank you very much for having this 
opportunity to speak. I am here with the Iraq and Afghanistan 
Veterans of America and I am not the only Iraq veteran here. If 
I could have the other Iraq veterans in the crowd please stand 
up. I know there are at least four of them here.
    [Applause.]
    Mr. Campbell. They might not be standing because they are a 
humble group.
    The system that the Department of Veterans Affairs employs 
to treat servicemembers with mental health issues suffers from 
a fundamentally fatal flaw. It is a system that waits. It is a 
system that waits for a servicemember to acknowledge that they 
have a problem. It is a system that waits for a servicemember 
to ask for help. The system is broken and we must fix it before 
we lose this generation of heroes.
    I know everyone in this Committee has heard the statistic 
that one in three Iraq veterans and one in nine Afghanistan 
veterans will suffer a mental health problem as a result of 
their service. As you have heard here today, every statistic 
like this represents both a name and a tragic story.
    I am here to tell you what my counselor at the D.C. Vet 
Center told me on my very first counseling session when I 
finally admitted that I had a problem a year later. No one goes 
to war and comes home the same person they were before they 
left, no one.
    In preparation for this testimony, I exhibited a classic 
symptom of post-traumatic stress disorder, denial. I wrote this 
whole entire testimony wanting to talk about someone else 
because I was too embarrassed to admit to you, even though I 
have done it numerous times, that I personally have post-
traumatic stress disorder. I have been diagnosed. I wrote this 
testimony about someone else because it was easier to tell 
their story than my own. I am still going to tell theirs 
because I think his is better, but I know that I am fooling 
myself when I think that I am healed.
    I did use this as an opportunity to talk to my brothers who 
I patrolled with in Iraq. What I found not only disturbed me, 
it scared me. Two years later, there is a picture in each of 
your folders. The Alpha Company Killas, my brothers, are now 
struggling to find their place in the world. From my lieutenant 
all the way down to the gunners, no one has been spared. I 
heard stories about strained marriages, ruined engagements, 
methamphetamines, alcohol, and sleepless nights. These are just 
some of the stories.
    I want to talk about the icon of this war, the gunner, the 
guy who has to make life or death decisions every day. Three 
out of our four gunners are suffering from severe post-
traumatic stress disorder and substance abuse. The fourth one 
is on active duty because he could not stand the idea of being 
surrounded by civilians. All of them desperately need help but 
are too proud to ask.
    One story in particular breaks my heart. We call him 
Manimal, and he is the picture on the bottom, half-man, half-
animal. He has a smile like Clark Kent, a contagious hearty 
laugh, and a deadly right hook. He is a simple giant who the 
kids loved in Iraq. On more than one occasion while we were 
serving in Iraq, a car would come too close. They would either 
ignore or not hear the warning shots and Manimal would have to 
do his job. On three or four occasions, I saw Manimal put a 
hundred rounds in a car, because when it came down to choosing 
between us and the unknown face in the car coming toward us, he 
was the most loyal friend you could ever possibly have.
    I remember finding Manimal in the corner of a tent one day. 
He was sitting by himself. He never sits by himself. He is the 
center of attention. I said, ``Hey, Manimal, what is up?'' He 
started talking, but he never made eye contact with me. He 
said, ``I saw that bullet hit that man in the chest. I saw his 
face as he lost control of the car. I watched that car hit the 
wall as we drove by. I couldn't say anything because--well, 
because we just kept on driving.'' This man watched this man 
die that he just shot and we just kept driving.
    As a medic, I had to make life and death decisions when an 
emergency arose. Manimal had to make them every time we got on 
the highway. When he got home, he never could keep a job for 
more than 2 weeks. He couldn't stand being told what to do by 
an 18-year-old who never saw what he saw. He drank too much and 
once was caught, got a DUI and had his license suspended. He 
would call me late at night, usually at two or three in the 
morning, just to talk, to talk to someone whom he trusted.
    Finally, I was able to work with Manimal and we decided a 
profession for him. He would become a medic like myself. He 
finished the EMT class and passed the test, which was a bit 
step for someone who never graduated high school, only to be 
told because he didn't have his driver's license, he couldn't 
start his job. As he waited to start his job, he spent all his 
money on a woman who said she loved him, but when the money ran 
out, so did she.
    Now a man who finally found his path after coming home is 
still being held back by his past. Currently, he is living on 
his mother's couch, still drinking too much, and is up to his 
ears in debt. And the last phone call--he has been calling me. 
He called me seven times in the last month asking for the phone 
number on how to volunteer to go back to Iraq. He will not stop 
calling me because he says to me it is the only way he can get 
out of debt and Iraq is the only place that makes sense. It is 
the only place where he can be someone again.
    Manimal has a GED and I go to law school. We have very 
different backgrounds, but we are so incredibly similar. We 
both got home and we drank too much. We made impulsive 
decisions. We shut the world out and tried to fill that gaping 
hole in our souls with women. We are both too proud to ask for 
help and too scared to admit that we have a problem. Two years 
later, the only difference between Manimal and I is the fact 
that I have a friend who intervened and said, ``I will not be 
your friend anymore unless you go get help, because you are not 
the man I knew. You are not the man who I was friends with.'' 
Sadly for Manimal, his support network collapsed under the 
weight of his problems.
    The answer to the problems that Manimal and I face require 
face-to-face counseling. Every servicemember who comes home 
from a combat zone deserves this. Only then will we be able to 
remove the stigma and fear of asking for help. Don't 
misunderstand me. The soldiers will complain, just like a kid 
complaining about taking a bath after playing in the dirt all 
day. Everyone knows we just need to do it.
    Now, just getting into the door is not enough. We need to 
make sure that once they get in that door, they spend more time 
in the counseling room than they do in the lobby waiting for 
help. As Senator Murray already said, the USA Today article 
says the number of Iraq veterans who are using the Vet Centers 
has almost tripled and the staff has only increased by less 
than 10 percent. We must fully staff these facilities.
    Lastly, Manimal only has a few months left to enroll in the 
VA to be treated for conditions that potentially can be related 
to his combat service, such as his readjustment issues. The 2-
year eligibility window is unrealistic and confusing for a 
National Guard soldier who thinks that being in the Reserves 
means that they are not a veteran, especially those who are in 
a unit that are planning on redeploying in a couple months. A 
5-year eligibility period would let our servicemen and women 
have the opportunity to settle back into their lives before 
they start losing their benefits.
    I am sorry I didn't tell you my personal story, but I 
appreciate you listening to what little pieces I did tell you. 
Thank you for listening to Manimal's story, and I know Manimal 
is at home watching this right now. Thank you, Manimal, for 
letting me tell yours because it was much easier to tell yours 
than it was to tell mine.
    I have been here for a year. I have been doing this job for 
a year and I can tell you that we, as a Congress, and we, as a 
veteran community, have come a long way. I appreciate that we 
are speaking first, the people who have had to pay the price of 
this war. I know that each one of the veterans sitting behind 
me, especially the ones who wouldn't even stand up, and the 
veterans watching this right now, they are counting on you 
because they will never ask for help. It is not in our culture. 
We have got to get the help to come to them. Thank you again.
    [The prepared statement of Mr. Campbell follows:]
         Prepared Statement of Patrick Campbell, OIF Veteran, 
     Legislative Director, Iraq and Afghanistan Veterans of America
    Mr. Chairman and Members of the Senate Committee on Veterans' 
Affair, on behalf of the Iraq and Afghanistan Veterans of America 
(IAVA), thank you for this opportunity to address, ``The VA's response 
to the mental health needs of today's veterans.''
    My name is SGT Patrick Campbell and I am a combat medic for the DC 
National Guard, an OIF vet and the Legislative Director for the Iraq & 
Afghanistan Veterans of America. IAVA is the Nation's first and largest 
organization for veterans of the wars in Iraq and Afghanistan. IAVA 
believes that the troops and veterans who were and are on the front 
lines are uniquely qualified to speak about and educate the public 
about the realities of war, its implications on the health of our 
military, and its impact on national security.
    Everyone on this Committee has heard the statistic that one in 
three Iraq veterans and one in nine Afghanistan veterans will suffer 
from a mental health problem as a result of their service. Every 
statistic like this represents a name and a heart wrenching story. I am 
here today to tell you what my counselor at the DC Vet Center told me 
in my first session, ``No one goes to war and comes home the same 
person they were when they left.''
    The system that the Department of Veteran Affairs employs to treat 
servicemembers with mental health issues suffers from a fundamentally 
fatal flaw. It is a passive system. It is a system that waits. It waits 
for servicemembers to acknowledge that they a problem. It is system 
that waits for servicemembers to ask for help. The system is broken and 
we must fix it before we lose this generation of heroes.
    In preparation for this testimony, I decided that rather than 
searching my heart for another dark shadow to bring into the light, I 
would use this as an opportunity to check in with my 20 brothers from 
Iraq. What I found not only disturbed me, but scared me. Two years 
later with redeployments looming on the horizon, the once proud Alpha 
Company Killas are now struggling to find their place in the world. 
From my Lieutenant down to the gunners, no one has been spared. 
Strained marriages, ruined engagements, methamphetamines, alcohol and 
sleepless nights are just some of the stories I have heard.
    Three out of the four gunners are suffering from severe PTSD and 
substance abuse. The fourth went on active duty because he could not 
think of being surrounded by civilians again. All of them are 
desperately in need of help, but too proud to ask. One story in 
particular breaks my heart. We call him Manimal (half man, half 
animal). He had a smile like Clark Kent, a contagious hearty laugh, and 
deadly right hook. He was a simple giant, whom the kids in Iraq loved 
to play with.
    On more than one occasion while serving in Iraq a car would come 
too close, would ignore warning shots and Manimal would have to do his 
job. I personally witnessed him light up three or four cars essentially 
riddle them full of bullets because when the choice was between us and 
them, Manimal was the most loyal friend one could ever have. I remember 
one day finding Manimal alone in a corner and I asked him how he was. 
He whispered but never made eye contact with me and stated, ``I saw my 
bullet hit that driver in the chest. I saw his face as he lost control 
of his car. I watched the car hit the wall as we drove by. I couldn't 
say anything because . . . well because. We just kept driving.'' As a 
medic I had to make life-and-death decisions when an emergency arose, 
Manimal made them every time we crossed on to a highway.
    When Manimal got home he never kept a job longer then 2 weeks. He 
couldn't stand being told what to do by an 18-year high school graduate 
who never saw what he saw. He often drank too much and one night he got 
caught. He was charged with a DUI and lost his driver's license.
    He would call me late in the night, just to talk . . . just to talk 
with someone who understood. Finally Manimal decided he wanted to be a 
medic. This profession would be his penance for the lives he took. He 
finished Emergency Medical Technician (EMT) classes and passed the test 
(a huge step because he never graduated high school) only to be told he 
couldn't start till he got his driver's license back. As he waited to 
start his job he spent all his money on a woman who said she loved him, 
but when the money ran out so did she. Now a man who found his path 
after coming home is still being held back by his past. Currently, he 
is living on his mother's couch, still drinking too much, and is up to 
his ears in debt. He only sees one solution out of this mess, to go 
back to Iraq and be someone again.
    Although we come from different backgrounds Manimal and I are very 
similar. When we got home we both drank too much, made impulsive 
decisions, shut the world out and tried to fill that gaping hole in our 
souls with women. We are also too proud to ask for help and too scared 
to admit when we have a problem. Two years later, the only difference 
between Manimal and I is that I am blessed with friends who forced me 
to get counseling. I was given an ultimatum, ``Go to counseling or lose 
another friend.'' Sadly, Manimal's support network broke under the 
weight of his problems.
    The answer to the problems Manimal and I face requires face-to-face 
counseling with a licensed mental health professional for every 
servicemember returning home from a combat zone. Only then will we 
remove the stigma and fear of asking for help. Don't misunderstand me, 
because the soldiers will complain, but just like a kid complaining 
about taking a bath after playing all day in the dirt . . . everyone 
knows we just need to do it.
    Once we get these servicemembers in the VA's door we need to make 
sure they are in the counseling room and not waiting for hours in the 
lobby. A recent USA Today article stated that although the number of 
Iraq and Afghanistan veterans using the Vet Centers has nearly tripled 
over the past 3 years, the number of staff has been increased by only 
9.3 percent. We cannot wait for the storm to come to start preparing, 
we must fully staff these facilities and look to expand them to new 
communities.
    Lastly, Manimal has only a few months left to enroll in the VA to 
be treated for conditions ``potentially related to his combat service'' 
such as his readjustment issues. The 2-year eligibility window is 
unrealistic and confusing for a National Guard soldier who thinks that 
being in the Reserves means they are not yet a veteran, especially 
those in a unit that will probably be redeployed in a matter of months. 
A 5-year eligibility period would let our servicemen and women have the 
opportunity to settle into their lives before they start to lose their 
benefits.
    Thank you for listening to my story. Thank you for listening to 
Manimal's story. And thank you for listening to all of our stories. 
This Congress has come a long way over the past 4 months, as evidenced 
by the fact that Veterans and not administrators are the first to speak 
at these hearings. Going forward, we have an obligation to create a 
culture where veterans' needs also come first, and returning troops do 
not have to beg for help because the help is already there.

    Chairman Akaka. Thank you, Patrick Campbell.
    Dr. Connie Best?

  STATEMENT OF CONNIE L. BEST, PH.D., SENIOR FACULTY MEMBER, 
 NATIONAL CRIME VICTIMS RESEARCH AND TREATMENT CENTER, MEDICAL 
                  UNIVERSITY OF SOUTH CAROLINA

    Dr. Best. Good afternoon, Senators. It is indeed an honor 
to address this Committee and to sit on this panel. I have been 
asked to discuss the ability of the Department of Veterans 
Affairs to meet the needs of veterans who have experienced 
military sexual trauma with particular attention to the Guard 
and Reserve.
    I am a clinical psychologist and a professor in the 
Department of Psychiatry and Behavioral Sciences at the Medical 
University of South Carolina. Today, I am speaking to you from 
several perspectives. First, I am a psychologist who has 
treated victims of rape and sexual assault for more than 25 
years. Second, I am someone who spent more than 20 years in the 
Navy Reserve, retired in 2004 at the rank of captain, which is 
an 06. Finally, I am a civilian psychologist who has served in 
a variety of consulting and advisory capacities and positions 
for the Department of Defense.
    According to the VA term, military sexual trauma, or MST, 
refers to both sexual harassment and sexual assault that occurs 
in the military. It can be experienced by both men and women. 
Numerous studies have documented in varying numbers the number 
of rapes in the military in the veteran population. One study 
of users of the VA health care system found that 23 percent of 
them had reported experiencing at least one sexual trauma while 
in the military.
    There are aspects of sexual trauma that are unique to the 
military. MST occurs on military installations where the victim 
both lives and works, and so often the victims remain in close 
proximity to their perpetrators. The perpetrators are 
frequently their supervisors or a higher-ranking peer who would 
be responsible for making decisions about their promotion and 
their duty assignments, so the risk of re-victimization is 
quite real. These factors combined with the value placed on 
unit cohesion, particularly in combat theaters, add to the 
reluctance of victims to come forward.
    The devastating effects of military sexual trauma are 
clear. As any veterans or their family members can tell you, 
victims may suffer for years. They may develop post-traumatic 
stress disorder, major depression, substance abuse problems, 
and functional impairment in social, vocational, interpersonal 
situations. The effects of military sexual trauma do not stop 
once the servicemember leaves the military.
    With approximately 76,000 Reservists currently deployed 
worldwide in support of the War on Terrorism--and actually, in 
2005, that number was 120,000 higher--members of the Guard and 
Reserve face their own unique sets of challenges when they 
experience MST. Once released from active duty recall, they do 
not remain on military bases. They return to their hometowns. 
This is an understandable urge to return as quickly as possible 
to their spouses, children, jobs, and their normal lives. Once 
returning home, they are away from their unit members and from 
other military support systems.
    During their post-deployment health assessment, which is 
conducted immediately after returning from deployment, they are 
given the opportunity to indicate if they have experienced MST 
or that they might be experiencing other mental health issues 
related to that trauma. Reservists are acutely aware that if 
they do endorse a serious mental health concern such as post-
traumatic stress disorder, they will likely be retained on 
active service and not allowed to return to their civilian 
lives.
    A 2006 study by mental health professionals at Walter Reed 
Army Institute of Research found that the prevalence rates of 
reporting a major mental health problem among servicemembers 
returning from Iraq and Afghanistan are 19 and 11 percent, 
respectively, with combat experience being the most frequently 
cited reasons for their problems. If a servicemember was 
unfortunate enough to have experienced both combat-related 
trauma and military sexual trauma, the risk for developing 
significant mental health problems would increase 
exponentially.
    One study found that members are also twice as likely to 
report mental health problems at the three or four-month time 
period after returning from deployment. That is a time that the 
post-
deployment health assessment has been over with and that the 
Guard members and Reserve members are typically at home.
    I believe that the VA is staffed by some of the best mental 
health care providers that there are and some have excellent 
expertise in working with military sexual trauma. However, I 
believe the problem facing the VA is one of sheer numbers. The 
significant number of veterans who may be experiencing MST or a 
combination of MST and combat-related trauma, compounded by the 
fact of the long-lasting nature of PTSD, means that the VA must 
be prepared to meet the needs of a growing number of victims 
and of veterans over the years to come.
    To quote a line from a well-known movie, ``Jaws,'' when one 
of the characters saw the shark go under the boat for the very 
first time, he uttered in understated and prophetic words, 
``We're gonna need a bigger boat.'' That is what I would say to 
the VA. We are going to need a bigger boat. That means more 
qualified and appropriately trained providers must be 
available. Those clinicians must be able to provide specialized 
services, sexual assault services, and understand sexual trauma 
in addition to combat-related trauma. They must be sensitive to 
the issues of the Guard and Reserve communities. Perhaps now it 
is time to consider some 
of the following:
    1. The addition of specialized training programs for 
current providers in the treatment of MST;
    2. Adding additional training program and internship sites 
for psychologists and psychiatrists. Internship training sites 
are very cost effective and it is a good way to ensure that you 
will have mental health providers in the pipeline to address 
the needs of our veterans in the years to come;
    3. Collaborations with academic medical centers with 
expertise in sexual trauma who can assist the VA in their 
training of their own clinicians; and
    4. The creation of specific outreach programs to address 
the needs of returning Guard and Reservists who face 
significant barriers to treatment.
    Thank you for this opportunity to address you and for the 
pleasure of sitting on this panel.
    [The prepared statement of Dr. Best follows:]
 Prepared Statement of Connie Lee Best, Ph.D., Senior Faculty Member, 
     National Crime Victims Research and Treatment Center, Medical 
                      University of South Carolina
    Good Afternoon Senators. It is indeed an honor to address this 
Committee. I have been asked by this Committee's Chairman, the 
Honorable Senator Akaka, to discuss with the Committee the ability of 
the Department of Veterans Affairs to meet the needs of veterans who 
have experienced military sexual trauma, with particular attention to 
the National Guard and Reserve.
    I am Dr. Connie Lee Best, a Clinical Psychologist and Professor in 
the Department of Psychiatry and Behavioral Sciences at the Medical 
University of South Carolina. Today I am speaking to you from several 
perspectives. First, as a psychologist who has spent more than 25 years 
treating victims of sexual assault. Second, as someone who spent twenty 
years in the United States Navy Reserve, retiring in 2004 at the rank 
of Captain (06). Third, as the Director of an office at the Medical 
University responsible for responding to complaints of sexual 
harassment within the University. Finally, as a civilian psychologist 
who has served in a variety of consulting and advisory positions, both 
paid and unpaid, for the Department of Defense.
    According to the VA, military sexual trauma (MST) refers to both 
sexual harassment and sexual assault that occurs in military settings. 
It can be experienced by both men and women. Sexual harassment is 
defined as repetitive, unwanted sexual attention or sexual coercion. 
Sexual assault is sexual activity against one's will.
    Numerous research studies have documented rates of rape ranging 
from lows of 6 percent for active duty women and 1 percent for active 
duty men to rates that are significantly higher. One study found that 
23 percent of female users of VA healthcare reported experiencing at 
least one sexual assault while in the military.
    There are aspects of sexual trauma that are unique to the military. 
MST most frequently occurs where the victims live and work so that 
often the victims remain in close proximity to the perpetrators. The 
perpetrators are just as frequently their supervisors or higher ranking 
peers who will be responsible for making decisions concerning the 
victim's promotion or duty assignments. The risk of re-victimization by 
the same perpetrator is real. These factors, combined with the value 
placed on unit cohesion, especially in the combat theaters, add to the 
reluctance for victims to come forward. Even given the relatively new 
system in the military that allows victims to seek medical and 
psychological care without required reporting to law enforcement, the 
unique aspects of MST have the effect of reducing the likelihood that 
victims will seek psychological services.
    The devastating affects of MST are clear. As any veteran or their 
family members will tell you, victims may suffer the effects for years. 
Those who have experienced MST often develop post traumatic stress 
disorder (PTSD), major depression, substance abuse problems, and 
functional impairment in social, interpersonal, and employment 
settings. The effects of MST do not stop once the servicemember leaves 
the military.
    As of April, 2007, there are approximately 76,000 Reservists 
deployed worldwide to support the War on Terrorism. In 2005, that 
number was 120,000 higher. Members of the Guard and Reserve face their 
own unique sets of challenges when they experience MST. Compared to 
their regular active duty counterparts, many members of the Guard and 
Reserve may not be as familiar with the resources available.
    Once released from active duty recall, they do not remain on a 
military base; they return to their hometowns. There is an 
understandable urge to return as quickly as possible to their spouses, 
children, jobs, and their ``normal'' lives. Once returning home, they 
are often far away from needed resources, away from other unit members, 
and away from their military social support systems. Although during 
their Post-Deployment Health Assessment conducted immediately after 
returning from deployment, they are given the opportunity to indicate 
if they had experienced a MST or are experiencing mental health effects 
associated with that trauma, Reservists are acutely aware that if they 
do endorse serious mental health concerns such as PTSD, they will 
likely be retained on active status and not be allowed to return to 
their civilian lives. Furthermore, the victims of sexual trauma may 
feel that if they could just return home to their families and jobs, 
they will be able to overcome this experience on their own.
    For Guard and Reserve members who have also experienced combat-
related trauma, the suffering can increase exponentially. A 2006 study 
by mental health professionals at Walter Reed Army Institute of 
Research, found that the prevalence rates of reporting a mental health 
problem among servicemembers returning from Iraq and Afghanistan were 
19 percent and 11 percent respectively, with combat experiences as the 
most frequently cited reason for their problems. If a servicemember was 
unfortunate enough to have experienced combat-related traumas and was 
also a victim of sexual trauma, the risk would be expected to be great 
for the development of significant mental health problems.
    Another group of military researchers found that servicemembers are 
twice as likely to report mental health concerns 3 or 4 months after 
returning from deployment rather than immediately afterwards. This time 
of greater reporting of PTSD and other mental health concerns is a time 
well beyond when the Post Deployment Health Assessment screening 
typically would occur. Members of the Guard and Reserve would already 
likely be demobilized and at home.
    I believe that the VA is staffed by some of the best mental health 
providers and by some with exceptional expertise in MST. However, I 
believe that one of the problems facing the VA in their responsibility 
to meet the needs of today's veterans who have experienced MST is one 
of sheer numbers. The significant number of veterans who may well be 
experiencing MST, in addition to those who may also be experiencing 
both sexual and combat-related trauma, combined with the long-lasting 
nature of PTSD, means that the VA must be prepared to meet what is 
expected to be a growing number of veterans in need of mental health 
services in the years to come. To quote a line from a well known movie, 
Jaws, when one of the characters saw the shark for the very first time 
he uttered the understated and prophetic words---``we're gonna need a 
bigger boat.'' That is what I would say to the VA--we are going to need 
a bigger boat.
    That means more qualified and appropriately trained providers must 
be available. Those providers must be able to provide specialized 
sexual assault services and understand the interaction of sexual trauma 
with combat-related trauma. They must also be sensitive to the special 
issues of the Guard and Reserve communities. Perhaps now is the time to 
consider some of the following: adding specialized training programs 
for providers in the treatment of MST; adding additional training 
internship sites for psychologists and psychiatrists which are both 
cost-effective and will ensure that there will be a sufficient number 
of providers in the pipeline to meet the ever-increasing numbers and 
needs of veterans; collaborations with academic medical centers with 
expertise in sexual trauma; and the creation of specific outreach 
programs to address the needs of returning Guard and Reservists who 
face significant barriers to treatment.
    Thank you.

    Chairman Akaka. Thank you very much for your testimonies.
    Let me tell you that according to our schedule, we are 
expecting a vote to be called, or a series of votes, on the 
floor. So as a result, I am going to ask each Member to ask one 
question and then we will move it along quickly. If we have 
time here for whatever reason, we will have a second round for 
this panel. We have a second panel waiting here.
    So let me ask my first question. Mr. Bailey and Mr. Omvig, 
what would each of you tell families of those with 
servicemembers in Iraq about what to watch for when the 
servicemember comes home, and what to do if symptoms arise? Mr. 
Bailey?
    Mr. Bailey. The biggest thing I would tell anybody is to 
not assume and to always ask questions. Do not assume the VA is 
there to help without somebody who is going to be there to 
guide them through every step because there are too many walls 
at the VA. Just do not assume. Nothing will get done if you do.
    Chairman Akaka. Thank you. Mr. Omvig?
    Mr. Omvig. One of the points that we have brought up before 
is peer counseling for families. As far as peer counseling, we 
are talking about people that have been through situations like 
ourselves being able to talk to families before the soldiers 
come home, being able to give them a little bit of the insight 
that took us too long to find out because it starts very slowly 
and builds and builds up to the perfect storm, and then it is 
almost too late.
    Mrs. Omvig. I might just like to say that it is really 
important for, and it has been discussed before, other veterans 
to be peer counselors, because they understand and so many of 
the veterans or even active duty service people do not feel 
safe or have various trust issues and only wish to speak or 
wish to listen to somebody else that they know really does 
understand what they have been going through or what they are 
dealing with and they don't want to have to be educating 
somebody about something they may not even be understanding 
themselves. So they need another peer counselor.
    Mr. Omvig. One thing that helped us tremendously early on, 
and when we got into talking to other veterans, is that the 
Vietnam veterans who have been struggling with PTSD so long, 
dealing with their own problems, started helping us understand 
what was going on with Josh. These guys who are fighting for 
their lives right now are trying to help us understand what 
happened to him, and they are some tremendous people.
    Chairman Akaka. Thank you for your response, Mr. Omvig and 
also Josh's mother, Ellen Omvig.
    Senator Craig?
    Senator Craig. Well, again, I thank all of you for your 
testimony.
    Possibly to you, Patrick, and to the Omvigs and to the 
Baileys, do any of you know what stress management training or 
preparations your sons may have received from the Marine Corps 
or the Army, respectively, prior to the entry into combat that 
might have helped them cope with what they experienced coming 
out of it? That is also directed at you, Patrick.
    Mr. Bailey. To my knowledge, the only thing my son talked 
about was urban warfare training. No stress management 
training. He was prepared to go fight in an urban combat 
environment, but there were no personal well-being classes that 
I am aware of.
    Senator Craig. OK.
    Mr. Campbell. Actually, I was very blessed. The thing that 
saved me was right before we got into theater in Kuwait, we had 
a police officer who does police officer training that talked 
about what happens when you are in a stressful situation and 
the physiological reactions. At the very end of that, they 
talked about secrets and how the secrets that you keep are the 
secrets that kill you. I remember thinking that was my mantra 
when I got home, that was the only thing that saved me, because 
the more I buried a story in my head, the more it just grew 
like a cancer and made it harder for me to function.
    That training is something that they give to police 
officers all across the country as part of their academy 
training, and I remember thinking, this needs to be told to 
everyone, what you should expect when you fire your weapon, but 
also what you should expect when you come home. And that is why 
we believe that whenever--normally, a police officer, when they 
fire their weapon and they see a weapon, they go through this 
type of counseling. I was fired at, shot at, blown up 16 times 
while I was there and I never once was required to get that 
type of counseling. The police officer training that we have in 
place already throughout this country would serve as an 
excellent model for pre- and post-deployment.
    Senator Craig. Thank you. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Craig.
    Let me do this by seniority. Senator Rockefeller, your 
question, and we will follow with Senator Murray.
    Senator Rockefeller. Mr. Chairman, I am going to depart 
from the usual and suggest that--I looked at the votes that we 
have coming up. I don't think they are going to change the 
future of the world. As for myself, I have made the decision I 
am just going to miss them because I think what we are doing 
here is far more important than what they are going to be doing 
on the floor of the Senate. So if you want to go on to somebody 
else, I will be here until you all come back for the next 
panel.
    Chairman Akaka. Senator Murray?
    Senator Murray. Let me just say that no apology or excuse 
can ever make up for the loss that you have endured. We are 
very grateful for you to have the courage to come here before 
this Committee and share your story, especially because anybody 
listening to this will hear something in it for them.
    One of my deepest concerns is the men and women who have 
separated from the service, gone home a year and a half ago, 
and feel like nobody knows what is going on in their head and 
don't get the help. So your words have made a difference for 
us, for the policies that we need to put in place, but 
hopefully for some soldiers out there that hear you, as well. 
So I really appreciate it.
    And Dr. Best, I wanted to thank you in particular for 
talking about the really hidden, unspoken story of sexual 
trauma from this war. It is a difficult issue because I have 
heard personally from many women I know-- and men, as well--who 
don't want to talk about it for obvious reasons, but also for 
the unspoken reason that they don't want to put at risk women 
in the military in general and we have got to figure out how to 
walk through this. So I hope that at a future time, you and I 
can sit down and talk about what we can do better to help 
really bring that into the public and help those people who 
have been traumatized, but do it in a way that provides them 
the dignity that they really deserve for what they are doing.
    So I only have time for one question and there are many I 
think I would ask. Patrick Campbell, because you were in the 
Guard and Reserve and came home, when the war started, and 
talking to our own Guard and Reserve, they said the most 
important thing was for the soldiers to get home and have that 
90-day waiting period before they were called back to their 
unit. I heard you say that is too long of a time, that getting 
back and having the camaraderie of those that you served with 
was absolutely critical for a number of reasons. Do we need to 
relook at that for our Guard and Reserve and think about 
bringing them back sooner, as hard as that is, when we want 
them to get home to their families?
    Mr. Campbell. No, I actually wasn't the one that said it. 
It was Mr. Omvig.
    Senator Murray. Oh.
    Mr. Campbell. But I will say this, that there was nothing 
more that I wanted to go than go and just disappear. I think 
the idea is that the 90-day period is before you go and work 
again. That makes complete sense. The idea that you don't come 
back and just interact and have forced fun time or time where 
you have to just decompress. That is completely different than 
having to go clean your vehicles, start checking in the 
weapons. Those are times that we can talk about.
    I think that what Mr. Omvig said was exactly right on.
    Let them go see their families. Let them have those 
moments. Then have them there just during the day. Give them a 
job for a couple weeks where they go in during the day, they 
get to meet with their buddies, but at night, they get to go 
see their families, and that makes all the difference.
    Senator Murray. Mr. Omvig, I assume that meeting with their 
buddies is an important way for them to be able to open up?
    Mr. Omvig. It has to be, because they have to start talking 
about the experiences that they shared together. You know, 
going in and talking one-on-one with a counselor, they are not 
going to share their deep thoughts of what went on. But as a 
group, in group sessions, they are more likely to open up into 
what actually went on there, and as it starts, it gets to be a 
snowball and that snowball gets bigger.
    Senator Murray. Yes.
    Mr. Omvig. And the reason that it has to be during this 90-
day period is that the earlier we address the issues of mental 
health, the faster we can start correcting the problems and 
keeping them from growing chronic. Once to the chronic stage, 
it is difficult to treat and deal with. And we need to give all 
of our veterans the best opportunity to live the best life they 
possibly can. They need to come back and be able to live the 
American dream that they are over there fighting for----
    Senator Murray. Yes.
    Mr. Omvig [continuing].--not being affected and unable to 
live the American dream because of what they did for our 
service.
    Senator Murray. Thank you, Mr. Chairman. I think there are 
two issues. I think one is the stigma of this, and we have got 
to all be talking about it more and working with our 
communities and everybody involved to make sure that people 
understand that we have to all understand this is part of the 
cost of war.
    And second, Mr. Chairman, I heard loud and clear what one 
soldier said to me, and that is they trained me to go to war. 
They never trained me to come home. And I think we seriously 
have to look at how to train these men and women to come home.
    Chairman Akaka. Thank you very much.
    Senator Webb?
    Senator Webb. Thank you, Mr. Chairman.
    First of all, I would like to say just very quickly that a 
number of you mentioned the difficulty with things such as 
readjustment deadlines for people coming back and sort of the 
delay fuse that often exists with PTSD. We did the pioneer 
studies on this literally 29 years ago. I really want to make 
sure that in terms of the way we look at PTSD that it is an 
ongoing exercise by government.
    I have seen in the people that I served with in Vietnam 
cycles. It was like an 8-year cycle, and then there was like a 
20-year cycle, and then there is a period when your regular 
career starts to end when you start to reflect more. We can't 
lose sight of that when we build these artificial deadlines 
into when we administer benefits and this kind of thing.
    But the question that I would have for all of you is given 
what has happened and the different situations that you 
described, how would you describe the reaction of the 
Department of Veterans Affairs people that you have dealt with 
after these incidents occurred? Do you feel they are being 
responsive, or do you feel like we are not getting anywhere 
here?
    Mr. Bailey. Well, sir, when my wife and I were at the L.A. 
VA Hospital, nobody would talk to us. Nobody cared. But they 
sure cared when the ABC reporter got a hold of me and we were 
on the news We were going to be on the news at 5:30 that night. 
I got a call at 5:15 from the public affairs guy wanting to 
know if he could be of any service. So without--I mean, the 
media takes a big hit, but without the media, my son's story 
would not have gotten out there.
    Mr. Omvig. At the present time, there is nothing what they 
call a CO officer assigned to military suicides that are not 
active, and if this happens to a Guard or Reserve individual 
that is not on active status, the parents basically take care 
of everything that is going on. If they were a casualty, then 
there would be a casualty officer with them for 10 days, taking 
care of all the paperwork, all the things that may be presented 
to them for help and everything else. We basically, and I know 
it was a very difficult time for his unit, his company, but we 
were given his Honorable Discharge and the papers at the public 
viewing, the family viewing.
    Mrs. Omvig. Which we lost.
    Mr. Omvig. And I still don't know where they are.
    I was not in the frame of mind. I don't know where they 
were. So I think it is extremely important that we are looking 
at this aspect, also, of helping families deal with a crisis, 
the time where they are not thinking logically. They don't know 
what is out there to assist them. We heard from the chaplain 
once, but basically we have heard very little from his Reserve 
unit since Josh was buried.
    Mr. Bailey. I just want to say one more thing. I spent 20 
years in the military, also, and the day we finally got to talk 
to family services there, the one thing I really expected more 
from my VA and my government was the man who came to give me my 
son's flag, but it was in a box, just like they just had bought 
it from Wal-Mart. It was in a box. It was just, like, oh, by 
the way, here is your flag. Take care. Have a nice day. And 
getting my son's flag in a box was the biggest insult to my 
son.
    Mr. Campbell. And just so we can tell a full picture, for 
me, I am very blessed that I go to the D.C. Vet Center, which 
of the Vet Centers is one under-utilized because people around 
here are definitely the type of people who don't like to admit 
that they have problems. At the Vet Center, I get great care. 
You walk in and you say, welcome home. But I have a very--when 
you go to a VA hospital, you might have a very different 
experience.
    Senator Webb. Thank you very much. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you.
    Senator Tester?
    Senator Tester. Thank you, Mr. Chairman.
    Tony, you spoke of improvements in reducing dosages and 
staffing increases and you made a statement at the end that we 
are going to have to follow up on later, and that is evaluation 
of the systematic problems and where to start there, because 
that is no easy undertaking, but I appreciate that perspective.
    I have a question that revolves around the bill that the 
Omvigs have got the delegation from Iowa to put forth, and I 
don't know if anybody else at the table has had a chance to 
look at it, but there are 11 points on it.
    Senator Murray talked about not only training to go to war, 
but also training to come home. I am going to make two 
assumptions and then I just need to get your opinion. The first 
assumption is that it would pass. The second assumption is that 
the things you talked about, the 11 points, would be 
implemented fully. Is there anything else that we are missing 
that we might want to take a look at that this bill doesn't 
address that would solve or, at least, go a long ways in 
solving the kinds of difficulties we are talking about with 
mental trauma?
    Mr. Omvig. Toward solving, no. As far as identifying, yes. 
If you look at what has been going on with the bill, they 
talked about 1,000 veterans being treated by the VA are dying 
of suicide each year. Josh wouldn't have been one of those 
numbers, and there are so many others that wouldn't have been 
in those numbers. So we really don't know the magnitude of the 
problem that is really out there. And until we know the 
magnitude, it is going to be hard to address it one way or 
another unless we address it right when it comes home.
    Senator Tester. OK.
    Mr. Campbell. I mean, just what I said in my testimony, 
that every soldier who comes home gets a face-to-face--I mean, 
this is beyond what is in this bill and that is that it is a 
required face-to-face mental health screening with a licensed 
professional. It is the only way to take away the stigma.
    Chairman Akaka. At this time, I would like to call on the 
second round of questions here.
    Mr. Bailey, after Justin died, you and your wife visited 
the domiciliary where he was staying following his 2-week 
hospital stay. What can you tell the Committee about the level 
of staffing there?
    Mr. Bailey. Well, the day we got there, we were met by what 
is called the dom assistant, who made a good effort. He was the 
only one working and he made a good effort to get a hold of his 
supervisors. One of his supervisors wouldn't talk to us on the 
phone. The other one told him to stop talking to us.
    Oh, and by the way, we were let in a side door, because we 
didn't know where the front door was, by a resident, so we 
could have been there to cause any sort of damage possible. 
There was no staffing, except for the one dom assistant. This 
was on a Sunday. Residents packed up my son's belongings and we 
got them in garbage bags. You know, there was no respect given. 
We got all of his stuff in a garbage bag.
    Chairman Akaka. Thank you very much.
    I should apologize to you in advance. There are a series of 
votes that have been called and this is why the Members have 
left, to go to the floor to vote. Senator Rockefeller feels so 
strongly about this hearing, he will remain here and conduct 
the hearing. Following this panel, we have a second panel that 
will be testifying, and so I would like to pass the gavel to 
Senator Rockefeller and add my thanks to you for your 
testimony. Following the series of five votes, we hope to come 
back again to this hearing.
    Thank you very much, Senator Rockefeller.
    Senator Rockefeller [presiding]. The question comes about 
people not wanting to seek help, and I think that is true of 
all people. Mr. Campbell, you spoke about a state of denial. I 
am not a psychologist. I am not trained in anything in 
particular. But I think that is the nature of the human being.
    So let us say that you are over in Iraq or Afghanistan, or 
let us say that you have just come back. Your every instinct is 
not to go find somebody, and what you have all said in 
different ways is somebody is going to find you.
    But I have also heard you say that it isn't easy to talk 
about PTSD or any other subject--mental health, trauma, sexual 
trauma, anything--alone with a counselor, so that if a 
counselor comes to you, if that was the situation, which gets 
into the whole Vet Center thing, which I really do want to talk 
about because I really do believe in that. I think that is the 
closest thing to making it easier for you to get somewhere 
where you feel comfortable, which isn't a huge building. But 
you have also said that you really aren't comfortable with 
other people, I mean, just doing it all by yourself.
    So what is a possible way in your own thinking, if we could 
get the right kind of money into the Veterans' Administration, 
that people could reach out to you but still allow you to be 
able to make that a valuable contact by telling them what you 
could only tell them when you feel like telling them? It isn't 
just that they find you and that you meet, it is that they find 
you and that you begin to disgorge and begin to tell them what 
they need to know. I am not sure of the conflict of that. Can 
any of you speak to that?
    Mr. Campbell. I have talked about this actually a lot 
recently with some of the veterans we have in the D.C. area. I 
remember a couple of weeks ago, I took a veteran who just got 
off active duty into the D.C. Vet Center, and when he got out, 
he said, ``I wish that he hadn't told me I had PTSD. I wish he 
told me that I had a suit of armor that said I was impervious 
to PTSD and I was just having some type of issues.'' About a 
week later, he called me back and he said, ``I can't believe 
you made me go. I don't have PTSD.'' Another week later, he 
called me back and he said, ``Thank you.'' And a week later, he 
called me back. I mean, all these calls when he tells me, ``I 
don't have it, but thank you for sending me.''
    The biggest obstacle for a veteran is going in that first 
time and seeing that counselor, getting over the idea that you 
are going to talk about it and just learning where it is. The 
D.C. Vet Center is at 13th and Taylor. I don't know if you know 
where that is, but that is nowhere near Metro. It shares a 
place with a Montessori school. If you don't know what you are 
looking for, you are not going to see it.
    The fact that I went in there and I saw it, I was now able 
to take people in there. Once people have gone once, it is so 
much easier to go a second, a third, a fourth time. To be 
honest with you, what I said in my first session did not help 
me at all. It was the fact that I went is what caused me to 
break down. And about 3 days later--I didn't say anything in 
that first session that helped me, but 3 days later, I am in a 
movie theater and I am crying my eyes out because I realized I 
finally admitted that I have a problem to someone other than my 
journal. I broke free and all of a sudden I felt like I was a 
full human being again. Now, I had to face the fact that I was 
in a lot of pain, but I was feeling for the first time in a 
year since I got back.
    So to answer your question specifically, it is getting 
people to where they would be asking for help so they train--
just like we say in the military, muscle memory, so that you 
keep doing it and you keep doing it so the next time when you 
actually really need to do it, your muscles automatically do 
it. When you know you have a problem, you automatically know 
the phone number to call or the place to go, because otherwise, 
I mean, if you have ever tried to navigate the VA, there is a 
form you have got to fill out. You already know that. You go 
in. I need to fill out this form. I need to talk to so-and-so. 
It makes it so much easier.
    Senator Rockefeller. Any other thoughts? Yes, sir?
    Mr. Omvig. When he brought up the thoughts of forms, just 2 
weeks ago, I was talking to a Guard member and he has a 40-
hour-a-week job. He was in an IED attack in Afghanistan and was 
suffering from a TBI. He went to the Iowa City VA Hospital to 
get some help. While there, they gave him nine forms to fill 
out to get services. He said, if it wouldn't have been for a 
VFW individual in the hallway to help him fill out that 
paperwork, he would have gave the paperwork back and walked 
away.
    One of the big stumbling blocks we have--if a person has 
got PTSD, if they have got TBI, if they have got any type of 
disorder that they are having problems with, how are they going 
to be able to fill out the paperwork themselves?
    There is a big difference between advocacy and case 
workers. We don't need more case workers. We need more 
advocates for the veteran when they go in there to see that 
they get all the benefits they absolutely deserve when they 
finally break down and they finally go to the office to try to 
get services, because if you don't fill out the paperwork 
right, you don't cross all the ``T''s, you don't dot all the 
``I''s, services are delayed and sometimes I have heard two, 3 
months before they are even able to get in again.
    So we need advocates, advocates that are going to be there 
for the veteran, not case workers that are looking out to keep 
the costs down for the company. There is a big difference there 
and we have heard a lot in the news about having more case 
workers and calling them advocates. Those are not advocates. 
Advocates are people that are looking after veterans' 
interests, not the company's interest in providing service.
    Senator Rockefeller. And who might those advocates be? The 
veterans service organizations? There are a lot of other 
volunteer groups----
    Mr. Omvig. Excuse me, I am sorry----
    Senator Rockefeller. No, please go ahead.
    Mr. Omvig. You have got great advocates right here. You 
have got advocates in the DAV who absolutely know how to fill 
out all the paperwork. You have the VFW that is in many of the 
facilities that will help fill out the paperwork. But these 
guys are doing it on a voluntary basis. They are all 
volunteers, and they are doing a wonderful job for all of us. 
It is that we need more of those advocates in every single 
facility today. We don't have a veteran that is having problems 
that can't hardly describe what is happening to himself try to 
go in there and fill out nine to ten pages of paperwork before 
he can even see somebody about his problem. We need to 
streamline things and we need to get advocacy better.
    Mrs. Omvig. I would like to also say, for outreach in that 
not every place has a close veterans' clinic or VA hospital and 
not all the veterans can either get transportation to get to a 
place, or in the time frame, or to go and wait, have somebody 
that will drive them somewhere, they wait for 4 or 5 hours to 
get in, and then drive them the 3 hours back to their home. Not 
everyone has people that can do these things. There are a lot 
of places in this country that are not accessible, physically, 
geographically accessible, and that is saying then if they do 
have a place that it is a good place, because not all of them 
are good places. So for both of those things, you need a lot of 
help.
    Mr. Bailey. You know, talking about the parts of the 
country, we have recruiters that get our young men to sign up. 
We could have an outfit or a unit designated for helping when 
they get back. Put the unit in a truck, tell them Iowa or Idaho 
is your district, and here is a list of your veterans. You are 
on temporary duty. You drive around and you go to every one of 
their houses and knock on their door and say, ``Hi, Bob. How 
are you doing?''
    And as far as the paperwork, there is no excuse for nine 
different copies. When we went to the L.A. VA Hospital, the 
first form we were given, the next day, we were told it was an 
outdated form and was no good. And this is by employees of the 
VA.
    But I am saying, you know, we get a truck. You have an 
active duty unit or a Guard unit, and that is their job, to 
drive around to these veterans in the rural areas, and even in 
the cities. You can get lost in the city probably almost easier 
than you can in a small town. Touch them. Say hi. Ask what can 
I do, or, how can I help you? Asking for help or having help 
offered to you, maybe you might make that first visit.
    Senator Rockefeller. A couple more questions. I come from 
West Virginia, which is not exactly San Francisco, OK? It is 
very rural. We have an enormous number of people who sign up to 
serve. One of the biggest things that they tell me when they 
come back, and this also--you could go all the way back to the 
testing of the atomic bomb way out in the Pacific on instances 
of this sort--they don't want to go somewhere, even if they 
know it is for their own benefit.
    For example, I will just use one that occurs to me now, 
spinal cord injury, sort of a scary thing. It is not up here, 
but it is up here as well as down there. If they have to go to 
Salem, Virginia, which in West Virginia is where you have got 
to go if you are going to get spinal cord injury service, many 
veterans will make the decision not to go because people in 
rural areas, in Appalachia, with all the mountains and the 
winding roads and the psychology of Appalachia in general, 
don't like to have to travel. They don't like to have to go 
make that journey, even to a Vet Center.
    I want to shift to that for a moment. I am a passionate 
believer in Vet Centers for the sole reason that my very small 
State of West Virginia has four huge veterans hospitals, and 
they are, as you would expect, sort of distributed around the 
State. Most of them have pretty good reputations, up until all 
of this started. So what we have tried to work on is setting up 
the system of Vet Venters, exactly what you are talking about, 
which are user-
friendly. They absolutely--they may not be next to a Montessori 
school, because I am not sure we have many of those in West 
Virginia----
    [Laughter.]
    Senator Rockefeller [continuing].--but they are on the 
street.
    You walk from the street into the building and then there 
is somebody, a Vietnam veteran or somebody who is sensitized 
and they are in it because they believe in helping their fellow 
veterans. And I don't know the state of their training, but I 
do know that they are independent and I know they are not under 
the control of the Veterans' Administration.
    And what I want to ask you is if outreach is the deal when 
you get back, forgetting the complexity of when does it come, 
time with the family first then 3 weeks later or a month later 
or whatever. Forget that for a moment. Are Vet Centers 
something which, if proliferated, could, in fact, help when 
people go there? Now, if they go there, they will find less 
service professionally, but they will find more fellow veterans 
to talk with because it becomes a gathering place, really the 
only place that veterans can go and be together because they 
are informal, comfortable buildings. But they are not under the 
control of the Veterans' Administration. They run themselves. 
Is that a formula for something that is useful, or is it a good 
idea? But it is wholly inadequate to what we are going to be 
facing.
    Mr. Campbell. I think the Vet Centers are the model that we 
need to go to, and the reason why is when I would go into the 
Vet Center, the form that I need to fill out, it is a quarter-
sheet of paper. It asks my name and why I am there. There is a 
little check box. So I have to write down two things and turn 
it in and they call Mr. Phillip, who is my psychologist. It is 
so personal.
    I mean, you want that first experience with the VA to be a 
positive one, because once you have that positive experience 
and then you need help and they say, where do I go to get such-
and-such from the VA, they know the answer to that question. 
They say, this is the VA hospital. This is the person you need 
to talk to. This is a good person. Or if they are having 
trouble with their case, they would be, like, this is the 
number to the local VFW, DAV, American Legion. Those are the 
types of things. If close to their house, they will go if it is 
close, and if they have a good, positive first experience, they 
will continue to go, and that will be their gateway into the 
VA, not these monolithic hospitals where you get buried in 
forms.
    Dr. Best. Senator, I think that we can have a variety of 
things that we should offer veterans. There is not one-size-
fits-all. I think Vet Centers can serve a purpose. They 
certainly can be an entre where they can get some help, maybe 
not at the level of care they could in a hospital, but they can 
also interact with veterans. I think the hospitals that are 
staffed by psychologists and psychiatrists can offer very 
specific behavioral kinds of interventions that some people 
with PTSD are certainly going to need that level 
of care.
    The one thing we have not mentioned today is the use of the 
Internet. Our young folks are very savvy. They are very used to 
doing that. Wonderful things could be done that could be 
intervention-based, not just a reciting of what PTSD is, but 
actually you can do assessments online, and then you can tailor 
things to that and you can make that available to places that 
are rural that they don't even want to drive--it is 20 miles or 
30 miles down winding roads to the next city that might can 
support a Vet Center.
    So I think one of the things we can do is literally have an 
array of options to offer veterans, because some might want to 
go to Vet Centers. Some might be near hospitals. Some of the 
flagship VAs have some great programs and that would be good. 
But we also need Internet. We need lots of different things, 
and to make it available so that veterans can pick and choose 
what suits them, what helps them, and you can have things that 
are specific for family members that are available online and 
can address the family needs and answer questions for them.
    So I just think that we need to sort of be creative in our 
thinking. Now is the time to do it. The numbers are already 
there and they are only going to get more with each passing day 
and month. And so we owe it to our veterans to think out of the 
box, to be creative, to have an array and offer it and let them 
decide what might most work for them.
    Senator Rockefeller. Let me come back to you with a 
question that you brought up earlier, and that is psychiatrists 
and psychologists. One of the magnificent things about VA 
health care training is that 50 percent of all physicians in 
this country intern or do residency at VA hospitals. So 
automatically, 50 percent of all doctors everywhere in this 
country, of all kinds, have trained at VA centers. Now, some of 
them, yes, are doing research and that research is very, very 
important.
    My question for you is, I have never actually heard 
somebody say that psychologists and psychiatrists are part of 
that physician group. Do they also get residency training at VA 
hospitals and thus have a chance to experience as they are 
going into their professions what happens?
    Dr. Best. We certainly have people here from the VA system, 
but health care providers, psychologists and psychiatrists, do 
not have to do an internship at a VA in order to become a VA 
employee. Some of them that do participate in internships there 
can remain on staff, but it is not a requirement. So you may 
have a professional, a doctoral-level professional join the VA 
system as a health care provider who has not done an internship 
at the VA.
    Senator Rockefeller. OK. Let me just understand that. I am 
not saying that they have to--I am going back to my 50 percent 
of all physicians. Do they fit into that category or do they 
not, the psychologists and psychiatrists?
    Dr. Best. I do not believe that 50 percent of the 
psychiatrists and psychologists--are you talking about in this 
country?
    Senator Rockefeller. Yes.
    Dr. Best.--have had internships at a VA.
    Senator Rockefeller. That sounds like something to think 
about. Please.
    Mr. Omvig. Speaking for the Guard and the Reserve when we 
bring them back and a possible changing of that defusing time, 
a good idea would be to bring in a team from the VA during the 
drill period when you are going to be able to get everybody 
there as a group and start the initial process of dealing with 
what they have all been through. And if you bring the team in 
and give them a good first appearance and that you are really 
going to try to handle what has gone on with them and create a 
process here, not just a one-time deal and we are gone, here 
deal with it, but that we are going to continually work with 
you to try to help you deal with it, it is easier if you are 
with the group that you were actually with. You can talk about 
like experiences. I understand what happened to you. I saw it, 
too. I am also having problems with it.
    Mrs. Omvig. I would like to also explain that even--I think 
a lot of people are under the false assumption that all the 
Guard goes as a group or all the Reserve go as a group. They 
cherry-pick out to fill in their ranks. One thing we got asked, 
well, why didn't your son drop by after work and tell them that 
he needed to talk to someone? Well, when my son decided the way 
to cope was to be a workaholic. So he worked all the double 
shifts because it kept him very busy and thought that was going 
to serve his purpose.
    Another thing is his base was over 3 hours away from his 
home and thus he couldn't drop by after work on their hours at 
the base to say something to someone. And he wouldn't have done 
it anyway because it would have, not just the stigma, but the 
way the laws are written up now, it would have affected his 
military and his personal career choice of being a police 
officer. I mean, he wasn't just dreaming that one up. It was 
real.
    So I wanted to discuss that kind of thing. There were 
people that were brought in also that were from other States 
into his company to fulfill how many people they needed to have 
in their company. So his Reserve company, they spread out all 
over Iowa, they spread out all over Illinois because it is 
right there on the river, Davenport. They brought in people 
from other States besides those two main States to fill them 
in, so they were gone. Everybody was gone. There was nobody 
close, a few that did live in the area, but other than that, 
they were just far-flung. Guard also do that type of thing, 
too. So contrary to what you think, they don't all go over as a 
unit and all come back as a unit. It is all different.
    Mr. Campbell. I just want to add one real quick thing if 
you don't mind me, Senator. The VA has a great program that 
they are implementing as a pilot where they go into a Guard 
unit, they show a couple of videos and use that as an 
opportunity to have discussions. Sadly, the day that they did 
that with my unit back in Louisiana, they did it for 40 
soldiers, which happened to be my platoon. But the guy who I 
lived next door to was in another platoon and he decided that 
day he was going to take his life because he didn't get to go 
to the training.
    For me, I mean, these tools exist. We have created them and 
we are really good at this. It is just about implementation. We 
can go--we know what we need to do when we go into these units. 
I remember when I called my lieutenant about this, when he told 
me that this soldier had committed suicide, that everyone was 
laughing about--this is before we knew--they were laughing, oh, 
you are going to cry, or you are going to tell some story. As 
soon as the video came on, it wasn't some cheesy DOD movie 
where everyone is happy, it was a serious look at post-
traumatic stress disorder and kinds of the experiences people 
have, everyone got quiet and then people started telling their 
story.
    I remember my lieutenant saying, this is the most amazing 
thing ever, and then he called me an hour later and said, I 
can't believe what I have to tell you. I just think if it just 
had been First Platoon as opposed to Second Platoon, that guy 
would still be here today. That was a pilot program. We know it 
works well. Why aren't we doing it?
    The only last thing is that you have three different types 
of Reservists. You have the Reservists who stay in their unit. 
You have the Reservists like myself who volunteer as a filler. 
I have never been back to Louisiana since then. And then you 
have the people who get out. We have a whole different 
population of people we have got to worry about, the people who 
separate the day they get home.
    They say, ``I am done with the military.'' We have still 
got to go after those people because they are almost in more 
danger.
    Senator Rockefeller. Sure. Let me ask a final question of 
this panel and then we have to move on. I don't want to, but we 
have to.
    I am going to start this off with my very first experience 
on this Committee 24 years ago, when I was very junior and I 
remember right back there were the television cameras. They had 
a guy who I think had come back from Bimini and it was the time 
before the Second World War when the United States was testing 
different things in places where possibly nobody would know 
about or whatever. His testimony, he said, ``I want you to 
understand what it is to have been given cancer by your 
government and to be dying from that cancer,'' which he was 
fairly close to doing, ``because I want you to understand how I 
feel.''
    OK, now we skip forward. It is very hard to skip by World 
War II, North Korea. What people went through in North Korea is 
unbelievable, but you get to the Vietnam War and there was this 
thing called Agent Orange. We used that to defoliate so we 
could find the enemy and in the process thousands of our people 
were getting cancer and dying. But the government and the 
military would never admit that. And the only thing that made 
it possible for people who were dying from cancer or who had 
been exposed to Agent Orange and therefore might be but might 
not know it yet was when an admiral's son--remember Admiral 
Zumwalt? His son died of cancer of Agent Orange. He came and 
testified before some Committee, and all of a sudden, Agent 
Orange compensation was made available. It is a pretty horrible 
way of conducting government policy.
    Skip one war forward, Gulf War and something called the 
Gulf War Syndrome. I was Chairman of this Committee at that 
time and I absolutely knew the DOD said that this problem did 
not exist and I was just making up stuff. But every soldier was 
required to take a pill in Kuwait called pyridostigmine 
bromide, and that pill--I talked to some people back home in 
West Virginia and they said they took one and they knew it was 
just going to tear them apart. They just stopped. But that is 
what you had to do every morning.
    So you wander around West Virginia, and obviously around 
the rest of the country, and the country is full of tens and 
tens and tens of thousands of people who cannot read, who 
cannot sleep, who cannot keep a marriage, who break out in 
rashes. I remember one woman who was absolutely normal, except 
if you touched her on her right arm, she would start screaming 
in just unbelievable ways, and everything else about her was 
perfect.
    The military to this day denies any such thing ever 
happened. And now we have this. The story really of all of you 
is, whether it was the garbage bag, which is horrible beyond 
description to hear you even say it, the flag in a box, the 
papers which became outdated the next day, it is almost like 
you went over there to fight for the country and you ended up 
fighting the people that you were fighting for, which is why it 
always troubles me when people talk about not standing up for 
the troops. Everybody salutes the troops. It is the 
policymakers, the civilian policymakers who make the policy 
that get the troops in trouble or the VA, whatever it is. They 
are the ones.
    My question to you is philosophical. We are a generous and 
a great country. We are not particularly generous to the rest 
of the world. We don't do foreign aid. We don't worry about 
Africa. We don't worry about all kinds of places where the War 
on Terror is building. What, in your view, is it that makes it 
like this? Is it something as simple as a lack of money? Why 
does this happen in America?
    Mr. Bailey. Well, sir, my answer is pretty simple. Apathy 
and complacency, which is what I ran across at the VA. They 
could have a wonderful program. Apathy, complacency, and just 
not caring. That is what I ran across, and I am sure there are 
people who do care, but I didn't run across them.
    Senator Rockefeller. I am sort of talking about people at 
the top level, to be honest with you, the people that run the 
VA hospitals locally, the people that run the VA in Washington, 
the people who make military policy wherever it is made, DOD, 
the White House, all the rest of it. They don't get it. We have 
this hearing. Will they get it after this hearing? Will they 
take up the budget?
    I think we will, and I think we will for one reason, 
because of a building which I have now come to cherish called 
Building 18 at Walter Reed Hospital, which has caused an 
explosion of anger here in Washington and across the country, 
which has suddenly delineated the difference between the 
warfighter and the warfighter who comes back, maybe shot 
through with some of those Iranian shards of metal so that they 
can't remove them surgically without cutting an organ or 
cutting an artery, so the person is in a wheelchair, probably 
wondering whether it would have been better for him to have 
been shot and killed rather than sit in a wheelchair in agony 
for the rest of his life. Why?
    Mr. Omvig. At one point, you talked about money, and I want 
to ask you, who in our society in the United States deserves 
more the appropriations and the funds to take care of them than 
our 
veterans. Who?
    Senator Rockefeller. Nobody.
    Mr. Omvig. Then we should take care of them.
    Senator Rockefeller. But you see, the problem is----
    Mrs. Omvig. You all have to decide that you are going to do 
it, and if you don't think that your constituency is going to 
vote for you, then you have a job of helping to sell this, and 
there are a lot of people that would be glad to help you to 
help sell this idea, that the veterans earned their right, 
implied or contractually, and that they deserve this.
    Senator Rockefeller. Doesn't it strike you as odd that we 
are fighting in Afghanistan and we are fighting in Iraq, and 
forget what one thinks about Iraq, and we are doing it all on 
borrowed money, so there is no budget. We have borrowed off of 
the Chinese, the South Koreans, and the Japanese, and a few 
others. So there is no end to what you can spend.
    But then you come home injured or you come home uninjured 
or you come home thinking you are uninjured--I don't know how 
people come home who aren't injured after an experience like 
that--and then all of a sudden you fall under a national budget 
which has a limit. It is a national health care system, the 
only one in the country. No borrowing of money, but a budget. 
To me, that is obscene, where you can endlessly spend and 
borrow to fight, but you are under a tight budget when it comes 
to the pain at the end.
    Mr. Omvig. My question is, what does this tell the rest of 
the world about the United States of America and our policies--
--
    Senator Rockefeller. Well----
    Mr. Omvig [continuing].--how we are dealing with the people 
that are serving for us when we--these are our people. These 
are our people, and how we are dealing with them. How does the 
rest of the world look at that?
    Senator Rockefeller. I suspect that the rest of the world 
looks at that as pretty unimpressed. On the other hand, what I 
am trying to find out is what we can do about it right here, 
right now. I mean, if anybody has anything else they want to 
say on this----
    Mr. Campbell. You know----
    Senator Rockefeller. We are a good people. Americans are a 
good people. And yet how many people know that we are borrowing 
all that money to fight, that there is no end to the amount 
that we can do? And how many know that you are under a budget? 
And people can use that as an excuse, can't they? Well, we 
don't have the money. We don't have the personnel.
    Mr. Bailey. The only thing--I only have one question, 
really, and I guess you could call it the intersection 
question. Building 18--how long was Building 18 there before 
the Washington Post brought it to light?
    Senator Rockefeller. You have got it. You said the same 
thing about your son.
    Mr. Bailey. How long was it there? And now it is on TV. Now 
people care. It is like the intersection. How many car wrecks 
does it take to get a stoplight?
    Mr. Campbell. For me----
    Senator Rockefeller. From my point of view, to end on a 
hopeful note, I think the climate, and I think the Chairman 
would agree with me, has been profoundly changed in these 
square acres and across this country about veterans because of 
something called Building 18, which people will never 
understand and its mold, but it had nothing to do with it. It 
was the fact that veterans were not being respected. I think, I 
pray, and I hope that we will--not everything can be solved by 
money, but you know what? It is not a bad place to start.
    I mean--Mr. Chairman, I apologize, I have talked too much--
the average nurse in the VA system has served for 27 years. 
Now, you can say, oh, that is because the benefits are great. I 
don't think so. I think it is because the average nurse in the 
VA system believes in trying to help people, and that is a life 
cause for them. So they do it for their life. I think that is 
the way we are as people. It is just that we don't seem to be 
able to function 
that way.
    I think that we are 6 years into this now and I think 
America has been changed in many ways, many, many ways, some 
for the better, some for the worse. I am deciding this is a way 
that we are going to change for the better.
    Thank you, Mr. Chairman.
    Chairman Akaka [presiding]. Thank you, Senator Rockefeller. 
I want to thank you for continuing with the panel here.
    I want to thank this panel for your testimony. It will help 
us make decisions as to what can be done to improve the 
services that we can provide for returning patriots and 
soldiers to this country. Thank you for journeying this far to 
testify here today. So on behalf of the Committee, let me say 
thank you very, very much. Thank you.
    I would like to welcome our second panel of witnesses. We 
have asked VA to provide three of these witnesses to discuss 
some of the VA's very best mental health programs in suicide 
prevention, PTSD, substance abuse, and sexual trauma.
    Let me call a brief recess at this time for just a couple 
of minutes.
    [Recess.]
    Chairman Akaka. This hearing will come to order.
    We welcome our second panel of witnesses. Dr. David Oslin 
is the Director of the Network 4 Mental Illness Research, 
Education and Clinical Center. Dr. Jan Kemp is Associate 
Director for Education of the Network 19 Mental Illness 
Research, Education and Clinical Center. Dr. Patricia Resick is 
the Director of the Women's Division of the National Center for 
Post-Traumatic Stress Disorder.
    They are accompanied by Dr. Ira Katz, VA's Deputy Chief 
Patient Care Services Officer for Mental Health.
    I also welcome Mr. Ralph Ibson, Vice President for 
Government Relations of Mental Health America. Mr. Ibson 
testified before this Committee in 2002. We have asked him to 
pull it all together again for us so that we can focus on 
bridging the gap between the very best programs and the utter 
lack of services.
    I thank all of you for being here today and want you to 
know that your full statements will appear in the record of the 
Committee.
    Now, I ask Dr. Oslin to begin with your statement.

       STATEMENT OF DAVID OSLIN, M.D., DIRECTOR, VISN 4 
    MENTAL ILLNESS RESEARCH, EDUCATION AND CLINICAL CENTER, 
                 DEPARTMENT OF VETERANS AFFAIRS

    Dr. Oslin. Thank you, Mr. Chairman, and thank you, Mr. 
Rockefeller, for being here today and doing this important 
work. We want to express our condolences to the families that 
were here earlier. This is a very important issue, indeed, and 
we really want to work with the families and you in moving this 
issue forward.
    I am a physician at the Philadelphia VA. I am the Director 
of the Mental Illness Research, Education and Clinical Center, 
MIRECC. I am very proud to be a physician in the VA. I was one 
of those 50 percent that trained during my residency in a VA 
and stayed in the VA since that time.
    I am here today to talk to you about our substance abuse 
program in Philadelphia and how we are reaching out to 
veterans. Our MIRECC supports research on the treatment of 
addiction. It also runs the integrated care service for our 
facility.
    As a start, I would like to remind the Committee Members of 
the devastation that addiction brings to patients and families 
in our veterans. Simply put, addiction is a very deadly 
illness. As an example, alcohol misuse in this country creates 
more financial burden to our society than any other health 
behavior, including smoking and obesity, and it is often 
neglected. The toll on families, friends, and coworkers is 
incalculable, as we have heard today.
    Despite that devastating nature of the illness, research 
such as that conducted in our center has clearly demonstrated 
that addiction is an illness not unlike hypertension or 
diabetes and that through good care, it is treatable. Our 
program, we have intentionally built a program that encompasses 
a broad spectrum of care and incorporates treatments that have 
an evidence base 
behind them.
    We particularly start in the primary care setting, 
realizing that a lot of the veterans won't come to us in the 
specialty care setting. The VA currently and, has for the past 
several years, annually required screening of all veterans for 
alcohol misuse. Our integrated care program, called the 
Behavioral Health Laboratory, provides systematic follow-up for 
those veterans that screen positive for alcohol misuse as well 
as PTSD or depression.
    That follow-up actually starts with a structured telephone 
call. We call the veterans in their homes and don't require 
them to necessarily show up to a clinic visit or the burden of 
having to deal with the transportation hassles. After that 
telephone assessment, we determine the level of need of 
services and reach out to the veteran, including those that are 
OEF and OIF veterans, who will have particular concerns, as we 
have heard here today, about the stigma associated with coming 
to a mental health clinic.
    Based on the assessment, we can begin to provide treatment 
in that primary care setting outside of the stigmatizing 
setting of mental health, and the variety of services will 
include things like brief alcohol interventions, psycho-
education or education, as well as referral into our specialty 
care programs. There is pretty clear evidence that these 
proactive public health initiatives can be very effective in 
reducing the addiction process and reducing the burden 
downstream. The effective use of brief interventions also keeps 
our veterans from the specialty care services that they so 
often 
fear to use.
    This part of the program has also brought education and 
training to our internists, family therapists, family 
practitioners, and other primary care staff to approach mental 
health just like another health disorder, just like the 
diabetes or hypertension.
    Moving up the ladder of our program, the next component 
would be our Addiction Recovery Unit. Here, veterans are 
assessed using a multidisciplinary team to assist in treatment 
planning. We offer a wide variety of outpatient treatments, 
including 12-step programs, pharmacotherapy, opiate 
substitution therapy, individual psychotherapy, and group 
therapy. We also have access to inpatient rehabilitation 
services in our Coatesville and Lebanon facilities and acute 
inpatient psychiatric care in Philadelphia.
    Additionally, another critical element to our program is 
the integration of physical, emotional, social, as well as 
addictive components that are afflicting the veterans' lives, 
the assessment of those issues. Many of our veterans have a 
multitude of problems, including PTSD or post-traumatic stress, 
depression, psychosis, and bipolar illness. We have to assess 
each veteran for their needs in order to provide an appropriate 
therapeutic environment.
    We are particularly proud that our program has integrated 
primary care within our addiction program so veterans don't 
have to go to a multitude of different places to get support. 
We also integrate homeless programs, peer support, family 
therapy, and the recovery model into the services.
    It is clear that the treatment of addiction has changed 
substantially in the last decade and now includes a wide 
variety of effective treatments. We are striving in our program 
to provide the best available treatments to our veterans. In 
order to accomplish this, we stress the importance of 
effectively engaging patients in treatment, which entails 
listening to and honoring their preferences in their treatment, 
as well. This emphasis is coupled with continually evaluating 
the program and adapting to a growing evidence base for 
treatment.
    We are also keenly aware, though, that our treatments are 
not universally effective and we emphasize ongoing research in 
our facility to develop new treatment options and new 
opportunities for interventions.
    In closing, I would welcome the Committee Members to visit 
our facility at any time, meet with our staff and the veterans 
we so proudly serve. Thank you.
    [The prepared statement of Dr. Oslin follows:]
   Prepared Statement of David Oslin, M.D., Director, VISN 4 Mental 
Illness Research, Education and Clinical Center, Department of Veterans 
                                Affairs
    I would like to thank you for this opportunity to describe our 
substance abuse treatment program at the Philadelphia VA Medical 
Center. I am a physician at the Philadelphia VA Medical Center and the 
Director of the Mental Illness Research Education and Clinical Center 
or MIRECC. Our MIRECC not only supports research on the treatment of 
addiction but also runs our integrated care program for the treatment 
of addiction.
    I would first like to remind Committee Members of the devastation 
caused when the disease of addiction goes untreated. Alcohol misuse 
creates more financial burden to our society than any other health 
behavior, including smoking and obesity. Addiction is also a deadly 
disease. The toll on families, friends, and coworkers is incalculable. 
Despite the devastating nature of the illness, research such as that 
conducted in our center has clearly demonstrated that addiction is an 
illness not unlike hypertension or diabetes. The critical implication 
of such research is that addiction is a treatable condition, with a 
growing evidence base for an array of effective treatments.
    In our program, we have intentionally decided to build a program 
that encompasses the broad spectrum of severity and incorporates 
treatments that have an evidence base supporting their effectiveness.
    We start in the primary care settings. Throughout the VA system all 
veterans are screened annually for alcohol misuse. Our integrated care 
program, the Behavioral Health Laboratory, provides systematic follow-
up for veterans who screen positive for alcohol misuse. The follow-up 
begins with a structured telephone assessment that includes questions 
about a range of mental health symptoms, including illicit drug use and 
suicidality. It is important to note here that this program has been 
very effective in reaching OEF/OIF veterans who may be particularly 
worried about the implications or stigma of going directly to a mental 
health clinic. Based on both the assessment results and the veterans' 
preferences, patients are triaged to the most appropriate level of 
care. We offer a broad array of services including brief interventions, 
education, and referral to our specialty care clinics. There is a clear 
evidence base that this type of broad-based public health initiative 
can identify veterans earlier in the addiction process and prevent 
substantial burden in the future. The effective use of brief 
interventions also keeps many veterans from needing specialty care 
services. This part of the program also provides education and training 
to internists, family practitioners and the other staff in primary care 
and approaches addiction just like any other health problem.
    The next component of our program is our addiction recovery unit. 
Here veterans are assessed by a multidisciplinary team to assist in 
treatment planning. We offer a wide array of outpatient treatments 
including traditional 12-step programs, pharmacotherapy, opioid 
substitution therapy, individual psychotherapy, and group therapy. We 
also have access to inpatient rehabilitation services at the 
Coatesville and Lebanon facilities and an acute inpatient program in 
Philadelphia.
    Additionally, another critical element of our program is the 
integration of assessments of the physical, emotional, social, and 
addictive components of veterans' lives. Many of our veterans not only 
have addictive disorders but also suffer from post-traumatic stress, 
depression, psychosis, and bipolar illness. Assessing each veteran for 
all their health needs is crucial to providing a therapeutic 
environment. We are particularly proud that our addiction program 
integrates primary care, homeless programs, peer support, family 
therapy, and the recovery model for those veterans in need of these 
services.
    The treatment of addiction has changed substantially in the last 
decade and now includes a variety of effective treatments. We are 
striving in our program to provide the best available treatments to our 
veterans. In order to accomplish this goal, we stress the importance of 
effectively engaging patients in treatment, which entails listening to 
and honoring their preferences for treatment. This emphasis is coupled 
with continually evaluating the program and adapting the growing 
evidence base for treatment. We are also keenly aware that our 
treatments are not universally effective and we emphasize ongoing 
research as a mechanism for developing new treatment options.
    In closing, I would welcome any of the Committee Members to visit 
our facility and meet our staff and the veterans we so proudly serve.

    Chairman Akaka. Thank you very much, Dr. Oslin.
    Dr. Kemp?

    STATEMENT OF JAN KEMP, R.N., PH.D., ASSOCIATE DIRECTOR 
 FOR EDUCATION, VISN 19 MENTAL ILLNESS RESEARCH, EDUCATION AND 
                CLINICAL CENTER, DEPARTMENT OF 
                        VETERANS AFFAIRS

    Dr. Kemp. Mr. Chairman and Senator Rockefeller, thank you 
for the opportunity to be here. I am one of those 20-year-plus 
nurses who is not with the VA because of the benefits and I am 
very glad to have this opportunity.
    The VA recognizes that suicide prevention requires a 
comprehensive plan that involves integrated strategies, 
coordinated efforts, and a steadfast commitment to 
implementation and evaluation. Based on CDC data and not 
controlling for VHA population-specific factors, it is 
estimated that there are up to 1,000 suicides per year among 
veterans receiving care within the VHA and as many as 5,000 per 
year among all living veterans.
    Various strategies have been put into place in order for 
the VA to understand the problems associated veteran suicide, 
assess veterans under their care for suicide risk, and provide 
treatment strategies aimed toward suicide prevention. In 
addition, the Mental Illness Education Research and Clinical 
Centers are involved in several clinical research endeavors in 
the areas of various treatment strategies and 
neurophysiological approaches to the management of suicide and 
are working closely with the NIH-funded Suicide Prevention 
Centers to understand and disseminate current information.
    The VISN 19 MIRECC in Denver has implemented a template 
tracking system which allows identification of suicide attempts 
within our network in order to provide follow-up care for these 
veterans as well as to identify system issues that could be 
resolved in order to improve the care that veterans receive.
    To date, we know that over 250 veterans in the Rocky 
Mountain Network have attempted suicide since October 1, 2005. 
We have learned a great deal about this particular group of 
veterans. Thirty-two of them have died as a result of their 
attempt. A vast majority have been diagnosed with various 
mental illnesses, including PTSD and major depression disorder. 
Many have substance abuse problems and many have chronic pain 
issues.
    While knowing the numbers and tracking the statistics is 
critically important to our work, we are also very cognizant of 
the fact that we are dealing with individual lives and that 
each life is invaluable. Implementing treatments that we know 
are useful with suicidal patients has become our mission across 
the country. We have begun an extension education and awareness 
campaign aimed first at mental health and primary care 
providers. We know that increased awareness of the possibility 
of suicide will lead to better identification of those who are 
at risk and improve our ability to implement appropriate 
suicide prevention treatments.
    In March of this year, I was giving a program in Battle 
Creek, Michigan. A psychologist who was taking urgent care 
calls that day was pulled from the program because a veteran 
was on the phone asking for an appointment. She came back to 
the program and stated since suicide was forefront in her mind, 
she had asked the right questions and was able to determine 
that this patient was at extreme risk and had gotten him 
immediate help. We need to keep suicide in the forefront of all 
of our providers' minds.
    We are currently in the process of implementing 
demonstration projects that will allow us to gather 
effectiveness data while providing veterans with the most 
current treatments in suicide. These include training 
therapists in cognitive behavioral therapy techniques and the 
collaborative assessment and management of suicidality problem 
developed by Dr. David Jobes.
    Through the newly established Center of Excellence in 
Canandaigua, we will initiate intensive suicide prevention 
programs in VISN 2 and in VISN 7, with national implementation 
soon after.
    We have also begun to use alternative treatment options 
with those veterans who require enhanced monitoring and 
management of their cyclic and persistent suicide ideation. 
This includes the use of our Health Buddy, a tele-health unit 
that we give to veterans that they use to track their health 
care concerns and get immediate education and advice.
    In Denver, we have seven chronically suicidal patients 
currently using the depression module on the Health Buddy. Each 
of these chronically suicidal patients has had several serious 
suicide attempts. Since they have been working with the Health 
Buddy, none of them have attempted. One patient told us that he 
followed the Health Buddy protocols late one night with a gun 
in his lap. By the time he got to the directions to call for 
help, he had realized that help was really only a phone call 
away and that the urge to kill himself had passed. He came into 
the facility the next day, was admitted, and is currently 
receiving ongoing treatment and has been doing well with no 
attempts for over a year.
    Another patient said that he feels the Health Buddy is the 
missing piece of the puzzle he needed to know that his 
depression and PTSD are manageable.
    Each veteran's story is compelling and each treatment 
success a valuable lesson. It is by working with individuals, 
assessing their risk, and providing them with appropriate 
treatment that we will reduce the number of suicides among our 
Nation's veterans.
    New concerns are constantly emerging. Our newer veterans 
are coming to us with risk factors such as PTSD and traumatic 
brain injury that both carry with them a high suicide risk 
rate. We have developed a manual to help the providers who care 
for patients with traumatic brain injuries understand their 
patients' risk for suicide.
    We are in the process of placing suicide prevention 
coordinators at each facility that will carry on these 
approaches in their own local communities. We are developing 
awareness programs to reach all of our staff and community 
partners who work with veterans. Mechanisms to share best 
practices and ideas will be put into place through the Center 
of Excellence.
    We have a large task in front of us. Awareness, training, 
and access to appropriate mental health care continue to be the 
major components of our multi-faceted approach to reaching and 
helping these individuals while we continue our research 
programs to determine and refine our treatment strategies.
    Thank you again, Mr. Chairman, for inviting me today.
    [The prepared statement of Dr. Kemp follows:]
  Prepared Statement of Jan Kemp, R.N., Ph.D., Associate Director for 
  Education, VISN 19 Mental Illness Research, Education and Clinical 
                 Center, Department of Veterans Affairs
    Mr. Chairman and Members of the Committee, good afternoon.
    VA recognizes that suicide prevention requires a comprehensive plan 
that involves integrated strategies, coordinated efforts, and a 
steadfast commitment to implementation and evaluation. Based on CDC 
data and not controlling for VHA population specific epidemiologic 
factors, it is estimated that there are up to 1,000 suicides per year 
among veterans receiving care within VHA and as many as 5,000 per year 
among all living veterans. Various strategies have been put into place 
in order for the VA to understand the problems associated with veteran 
suicide, assess veterans under their care for suicide risk and provide 
treatment strategies aimed toward suicide prevention. In addition, the 
Mental Illness, Education, Research and Clinical Centers (MIRECC) are 
involved in several clinical research endeavors in the areas of various 
treatment strategies and neurophysiological approaches to the 
management of suicide and are working closely with the NIH-funded 
suicide prevention centers to understand and disseminate current 
research information.
    The VISN 19 MIRECC in Denver has implemented a template tracking 
system which allows identification of suicide attempts within the 
network in order to provide follow-up care for these veterans as well 
as to identify system issues that could be resolved in order to improve 
the care that these veterans receive. To date we know that over 250 
veterans in the Rocky Mountain Network have attempted suicide since 
October 1st of 2005. We have learned a great deal about this particular 
group of veterans. Thirty two of them died as a result of their 
attempt. A vast majority have been diagnosed with various mental 
illnesses (including PTSD and major depression disorder). Many have 
substance abuse problems and many have chronic pain issues. The VISN 3 
MIRECC is installing and implementing an evidence-based risk assessment 
tool which is linked to the alerts and clinical reminders sections of 
our electronic medical record.
    While knowing the numbers and tracking statistics is critically 
important to our work we are also cognizant of the fact that we are 
dealing with individual lives and each life is invaluable. Implementing 
treatments that we know are useful with suicidal patients has become 
our mission across the country.
    We have begun an education campaign aimed first at mental health 
and primary care providers. To date, over 750 VA clinicians have been 
provided with up-to-date information on suicide. This includes two 
regional evidence-based intervention conferences co-sponsored by VISNs 
3, 4 and 19. One was held in Atlantic City in June 2006 and one in 
Denver this past February. At both of these conferences experts from 
across the country were brought in to share the latest developments in 
assessing suicide risk and providing care for those at risk for suicide 
in our population. National satellite programs have been offered and a 
Web-based program is in development. VISN 19 has held individual face-
to-face programs at over 30 medical centers at this point and several 
others are planned. VISNs 3 and 4 have also extensively trained their 
providers at regular conferences and programs.
    We know that increased awareness of the possibility of suicide will 
lead to better identification of those who are at risk and improve our 
ability to implement appropriate suicide prevention treatments. We will 
continue our awareness campaign. In March of this year I was giving an 
education program in Battle Creek, Michigan. A psychologist who was 
``taking urgent care calls'' that day was pulled from the program 
because a veteran was on the phone asking for an appointment. She came 
back to the program and stated that since suicide was forefront in her 
mind, she had asked the right questions and was able to determine that 
this patient was at extreme risk and had gotten him immediate help and 
he was being admitted. We need to keep suicide in the ``forefront'' of 
all of our provider's minds.
    We are currently in the process of implementing demonstration 
projects that will allow us to gather effectiveness data while 
providing veterans with the most current treatments in suicide. These 
include training therapists in Cognitive Behavioral Therapy techniques 
and the Collaborative Assessment and Management of Suicidality (CAMS) 
program developed by Dr. David Jobes. Through the newly established 
Center of Excellence in Canandaigua we will be initiating intensive 
Suicide Prevention Programs in VISNs 2 and 7 with national 
implementation soon after.
    We have also begun to use alternative treatment options with those 
veterans who require enhanced monitoring and management of their cyclic 
and persistent suicide ideation. This includes the use of our Health 
Buddy, a tele-health unit that we give to veterans that they use to 
track their health care concerns and get immediate education and 
advice. In Denver, we have 7 chronically suicidal patients currently 
using the depression module on the Health Buddy. Each of these 
chronically suicidal patients has had several serious suicide attempts. 
Since they have been working with the Health Buddy none of them have 
attempted. One patient told us that he followed the Health Buddy 
protocols late one night with a gun in his lap. By the time he got to 
the directions to call for help he had realized that help was really 
only a phone call away and the urge to kill himself had passed. He came 
into the facility the next day, was admitted, and is currently 
receiving on-going treatment and has been doing well with no attempts 
for over a year. Another patient said that he feels the Health Buddy is 
the missing piece of the puzzle; he needed to know that his depression 
and PTSD are manageable.
    Each veteran's story is compelling and each treatment success a 
valuable lesson. It is by working with individuals, assessing their 
risk, and providing them with appropriate treatment that we will reduce 
the number of suicides among our Nation's veterans. New concerns are 
constantly emerging. Our newer veterans are coming to us with risk 
factors such as PTSD and traumatic brain injuries that both carry with 
them a high suicide risk rate. We have developed a manual to help the 
providers who care for patients with traumatic brain injuries 
understand their patients risk for suicide.
    We are in the process of placing Suicide Prevention Coordinators at 
each facility that will carry on these approaches in their own local 
communities. We are developing awareness programs to reach all of our 
staff and community partners who work with veterans. Mechanisms to 
share best practices and ideas will be put into place through the 
Center of Excellence. We have a large task in front us. Awareness, 
training, and access to appropriate mental health care continue to be 
the major components of our multi-faceted approach to reaching and 
helping these individuals while we continue our research programs to 
determine and refine our treatment strategies.
    Thank you again, Mr. Chairman for inviting me today. At this time, 
I will answer any questions you or other Members may have.

    Chairman Akaka. Thank you very much, Dr. Kemp.
    Dr. Resick?

        STATEMENT OF PATRICIA RESICK, PH.D., DIRECTOR, 
          WOMEN'S DIVISION, NATIONAL CENTER FOR POST 
           TRAUMATIC STRESS DISORDER, DEPARTMENT OF 
VETERANS AFFAIRS; ACCOMPANIED BY IRA KATZ, M.D., PH.D., DEPUTY 
    CHIEF, PATIENT CARE SERVICES OFFICER FOR MENTAL HEALTH, 
                    DEPARTMENT OF VETERANS 
                            AFFAIRS

    Dr. Resick. I would like to thank the Committee for the 
opportunity to discuss best practices today. I was asked to 
speak on two separate topics. The first is the National 
Training Initiative I am currently conducting to train 
therapists, along with my colleagues, in an effective therapy 
for PTSD. The other topic I was asked to speak about is the 
women's programs at the VA Boston Health Care System as an 
example of best practices for women veterans.
    We have effective therapies, particularly cognitive 
behavioral therapies, such as cognitive processing therapy, 
that can significantly reduce symptoms of PTSD and can cure it 
in many cases. Cognitive processing therapy, which I developed 
almost 20 years ago, is a 12-session treatment for PTSD which 
can be implemented in groups or individually. It has been shown 
to be effective for combat, sexual assault, and other traumas. 
Once cured, we have not found relapse in PTSD over long periods 
of time that have been assessed in research, and that is 5 to 
10 years we have 
tracked people.
    Therapies such as cognitive processing therapy for PTSD 
require 1-hour weekly therapy for 13 to 14 sessions, including 
intake appointments. In order to conduct this therapy, 
therapists have to be trained and provided support, such as 
case consultation with experts in the therapy. In order to 
implement cognitive processing therapy effectively, therapists 
should have no more than 25 cases in their caseload at any 
given time.
    VA's central office has funded an initiative that I am 
conducting to train and support 600 VA therapists nationally in 
cognitive processing therapy. To this end, my colleagues and I 
have written a treatment manual with everything needed to 
conduct the therapy, have trained qualified trainers for 2-day 
workshops and case consultation, which will be available 50 
hours a week across time zones. Over the next 2 years, we will 
be providing 22 workshops throughout the country followed by 
these support efforts, and that will also include online 
supports, as well.
    On the second topic, VA Boston is a good example of best 
practices for services for women, because in addition to being 
able to receive services from any clinical program, women can 
receive services from specialized women's programs that 
represent a continuity of care. Like all VA hospitals, we had a 
Women Veterans Program Manager and a Military Sexual Trauma 
Coordinator who serve as advocates for information and 
referrals to appropriate programs. We have a separate Women's 
Health Center that provides primary care, gynecological care, 
osteoporosis assessment and treatment, urgent care, and social 
services.
    The Women's Stress Disorder Treatment Team, located in its 
own wing of the hospital, offers outpatient mental health 
treatment for post-traumatic stress disorder and other trauma-
related mental health problems. A full line of services, 
including psychiatry, individual and group therapy, 
psychological assessment, and consultation are available.
    There is a separate wing of the Acute Inpatient Psychiatric 
Program designated for women to provide them security and 
privacy. We will soon open a residential program for women with 
co-
occurring PTSD and substance abuse disorders. It will be the 
first of its kind in the country.
    The goal is to help women develop skills to maintain 
abstinence, manage PTSD symptoms, and address their traumas. 
The program offers assessment, group, individual, and psycho-
pharmacological treatment and psycho-educational programs while 
supporting participants in the development of their own long-
term recovery plan.
    The Women's Homelessness Program provides an array of 
services to homeless women and women who are at high risk for 
becoming homeless. Our transitional residence, called the TRUST 
House, specializes in the treatment of women with post-
traumatic stress, mood and substance use disorders. Up to seven 
women can live at this residence at a time. The treatment 
program involves individual therapy, case management, group 
therapy, house meetings, and paid work experience through the 
Veterans Industries Vocational Program. Women are assisted in 
making the transition from VA-supported employment to 
employment in the community.
    Thank you again, Mr. Chairman, for inviting me today, and 
at this time, I can answer any questions that you or any other 
Members may have.
    [The prepared statement of Ms. Resick follows:]
    Prepared Statement of Patricia Resick, Ph.D., Director, Women's 
     Division, National Center for Post Traumatic Stress Disorder, 
                             Department of 
                            Veterans Affairs
    I would like to thank the Committee for the opportunity to discuss 
our program. I was asked to speak today on two topics. First, the 
national training initiative I am currently conducting to train 
therapists in an effective therapy for PTSD and the women's programs at 
VA Boston Healthcare System as an example of best practices for women 
veterans.
    We have effective therapies, particularly cognitive behavioral 
therapies, such as cognitive processing therapy (CPT), that can 
significantly reduce symptoms of PTSD and can cure it in many cases. 
Cognitive processing therapy, which I developed almost 20 years ago, is 
a 12-session treatment for PTSD which can be implemented in groups or 
individually. It has been shown to be effective for combat, sexual 
assault, and other traumas. Once cured, we have not found relapse in 
PTSD, over long periods of time that have been assessed in research (5-
10 years). Therapies such as CPT for PTSD require 1-hour weekly therapy 
for 13-14 sessions (including the intake appointments). In order to 
conduct this therapy, therapists have to be trained and provided 
support such as case consultation with experts in the therapy. In order 
to implement CPT effectively, therapists should have no more than 25 
cases in their case loads at any given time. VA Central Office has 
funded an initiative that I am conducting to train and support 600 VA 
therapists nationally in cognitive processing therapy. To this end, my 
colleagues and I have written a treatment manual with everything needed 
to conduct the therapy, and have trained qualified CPT trainers for 2-
day workshops and case consultation available 50 hours a week across 
the time zones. Over the next 2 years, we will be providing 22 
workshops throughout the country followed by these support efforts.
    VA Boston is a good example of best practices for services for 
women because, in addition to being able to receive services from any 
clinical program, women can receive services from specialized women's 
programs that represent a continuity of care. Like all VA hospitals, we 
have a Women Veterans Program Manager and a Military Sexual Trauma 
(MST) coordinator who serve as advocates for information and referrals 
to appropriate programs. We have a separate Women's Health Center that 
provides primary care, gynecological care, osteoporosis assessment and 
treatment, urgent care and social services. The Women's Stress Disorder 
Treatment team, located in its own wing of the hospital, offers 
outpatient mental health treatment for post traumatic stress disorder 
and other trauma-related mental health problems. A full line of 
services including psychiatry, individual and group therapy, 
psychological assessment and consultation are available. There is a 
separate wing of the acute inpatient psychiatric program designated for 
women to provide them security and privacy. We will soon open a 
residential program for women with co-occurring PTSD and substance 
abuse disorders. The goal is to help women develop skills to maintain 
abstinence, manage PTSD symptoms, and address their traumas. The 
program offers assessment; group, individual and psycho-pharmacological 
treatment and psycho-educational programs while supporting participants 
in the development of their own long-term recovery plan. The Women's 
Homelessness Program provides an array of services to homeless women 
and women at high risk for homelessness. Our transitional residence, 
TRUST House, specializes in the treatment of women with post traumatic 
stress, mood and substance use disorders. Up to seven women live in the 
residence. The treatment program involves individual therapy, case 
management, group therapy, house meetings, and paid work experience 
through the Veteran Industries Vocational Program. Women are assisted 
in making the transition from VA supported employment to employment in 
the community.
    Thank you again, Mr. Chairman, for inviting me today. At this time, 
I will answer any questions you or other Members may have.

    Chairman Akaka. Thank you very much for your testimony.
    Now we will hear from Ralph Ibson.

         STATEMENT OF RALPH IBSON, VICE PRESIDENT FOR 
          GOVERNMENT RELATIONS, MENTAL HEALTH AMERICA

    Mr. Ibson. Thank you, Mr. Chairman. I am pleased to be here 
testifying today on behalf of Mental Health America, which is 
the country's oldest and largest nonprofit organization 
addressing all aspects of mental health. I appear before you 
today as a veteran, a veteran of the United States Army, of the 
staff of the House Veterans' Affairs Committee, and of the VA. 
I want to commend you and the staff for putting together an 
extraordinary panel of witnesses who I think have framed the 
central issues that confront both the VA and the Congress, and 
let me try and highlight what I think has emerged from the 
testimony today. I think it has been exceptional.
    First of all, it strikes me that our military operations in 
Iraq and Afghanistan differ markedly from prior combat 
engagements in at least two important respects.
    First is the extensive reliance on the National Guard and 
the Reserves, and second, the reliance on multiple tours of 
duty, repetitive tours of duty. I think both are critically 
important in terms of their implications for the mental health 
of our veterans and the way we approach these issues.
    To clarify the point, deploying to a combat zone can be 
enormously stressful for a soldier and for that soldier's 
family members, and that stress increases markedly with each 
subsequent deployment.
    Secondly, as I think many of the witnesses emphasized 
today, members of the Guard and Reserve who make up such a 
large percentage of our fighting forces overseas are largely 
returning to rural America and to small towns and communities 
often very distant from the network of VA facilities and DOD 
facilities that might otherwise be there to serve them.
    I think experts agree, and you heard the same from many of 
the panelists today, that virtually all returning veterans face 
readjustment problems and that it is advisable to provide 
counseling and support to veterans and their families to ease 
in that transition. I think this Committee historically has 
laid an extraordinary foundation with the Vet Center program 
and there are powerful lessons to be learned and opportunities 
to build on that success. The preventive approach of the Vet 
Centers, I think, has helped avert the development of serious 
mental disorders, like depression and substance use disorder, 
and we should employ such a preventive approach today.
    I think a third point is that the prevalence of mental 
health problems among these OIF/OEF veterans appears to be 
significantly higher than was anticipated. One statistic that 
was not aired today that I find compelling is relatively recent 
DOD data on those who have served in Iraq which show that some 
50 percent of Army National Guard members and some 45 percent 
of Army and Marine Reservists have reported mental health 
concerns--half of all Army National Guard members report mental 
health concerns!
    A fourth point, certainly heavily emphasized by many of the 
witnesses, is the profound stigma associated with mental health 
care and the deterrent effect that has, particularly among the 
Guard and Reserves, on help-seeking.
    Further, family members of OIF/OEF veterans are 
experiencing mental health problems related to the veterans' 
service. Research has shown that PTSD, for example, can have a 
profound impact on members of the veteran's family. We 
certainly have particular concern for the family members of 
Guard and Reservists who have faced repeated deployments and, 
again, who tend to be isolated from the community support 
systems that may be available to family members of active duty 
members who live on or close to military bases.
    And sadly, despite many outstanding programs and best 
practices at individual VA facilities, and we certainly have 
heard about them just now, I think VA as a system can still do 
more and ought to be doing more. I think the earlier testimony 
reinforces that point, but let me offer a few examples or recap 
points made by earlier witnesses.
    I think it is true of VA as it is true of most health 
systems that they are largely passive, and we heard today of 
the importance of outreach, the importance of the use of peers, 
the importance of drawing veterans into readjustment, into care 
systems, into screening, into help. While VA's 207 Vet Centers 
play an important role in providing much-needed readjustment 
counseling assistance to veterans, it strikes me that the 
Department's more far-reaching network of medical centers, 
clinics, and other facilities really don't have the opportunity 
or take the opportunity to provide the kinds of preventive 
services that experts say all returning veterans need as we 
heard from several previous witnesses.
    Helping these veterans readjust or overcome PTSD often 
requires working with that individual's family, but there are 
both fiscal disincentives to that in VA medical centers and 
what I believe are outright statutory barriers to that kind of 
engagement. There, too, I think changes are in order.
    VA's resource allocation methodology and its decentralized 
decision-making, it strikes me, give no assurance that the kind 
of targeted mental health funding that Congress has so 
carefully dedicated itself to will not be offset by cuts to 
other VA mental health programs and similarly give no assurance 
at the facility level where there are such extraordinary 
pressures competing for scarce dollars that mental health will 
get the priority it needs as against high-tech medicine or the 
many other services that lay claim on those dollars.
    And although efforts have been made to improve services, it 
is not clear, at least from my vantage point, that VA's 
substance use services have been fully restored from the cuts 
that have been sustained over the years and that this Committee 
has so carefully sought to reinstate.
    And finally, notwithstanding excellent programs and 
outstanding practices that we see at Boston and other VA 
facilities, I think the jury is out in terms of women veterans 
and their perceptions, regardless of the reality, but their 
perceptions of VA as a welcoming, caring set of institutions, 
given the breadth of issues we have heard today ranging from 
the extraordinary combat trauma to which women are exposed in 
Iraq to the tragic sexual assaults that we learned about 
earlier.
    What does all this tell us? I think I would go a step 
further than Dr. Best, who called for a ``larger boat.'' I 
think we need to think about some redesign or reconfiguration 
of that boat to address some of these issues.
    Again, several witnesses stressed outreach, and I believe 
there would be great value and we heard discussion of the role 
of peers. I see an opportunity for a robust national VA program 
of training a cadre of OIF/OEF veterans, veterans who have come 
back with these kinds of problems--with PTSD, anxiety, other 
readjustment problems--training those veterans in perhaps week-
long sessions. Such programs do exist. After undergoing such 
training, such individual could be employed in VA and by 
community providers to do the kind of outreach and to provide 
the kind of support that Patrick Campbell and others spoke 
about as so necessary to make VA a help-without-hassles, 
welcoming place in which the stigma they anticipate is 
diminished and in which care can be furnished and successfully 
so. As Sergeant Campbell testified, some veterans just need to 
talk to someone who will understand, and certainly Josh Omvig 
and Justin Bailey needed a person like that.
    Secondly, I believe there is also a need for time-limited--
I would stress time-limited--service-delivery mechanism that 
would enable OIF/OEF veterans who are returning to those small 
towns and rural areas that are remote from VA facilities, and 
remote from DOD facilities, to get the kind of care that they 
need. I see an opportunity for that in the network of Community 
Mental Health Centers. Under a carefully designed program, VA 
can contract for those services and set requirements. It can 
require, for example, that those centers hire trained peers, 
and that they meet criteria that VA set. A time-limited program 
like that can be a very important stop-gap measure to reach 
veterans who are now not only underserved, but not served at 
all.
    I would concur certainly with Sergeant Campbell in 
recommending that the 2-year eligibility window for combat 
veterans is far too short and should be extended to 5 years.
    And lastly, I would urge the Committee to consider 
legislation, again, on a time-limited basis, to authorize VA to 
provide immediate family members with both support services 
and, when needed, mental health services to help foster the 
veterans' readjustment or recovery.
    We would certainly be happy to work with the Committee and 
its outstanding staff to develop those recommendations further, 
and I would be pleased to join others in answering any 
questions you might have, Mr. Chairman.
    Thank you.
    [The prepared statement of Mr. Ibson follows:]
           Prepared Statement of Ralph Ibson, Vice President 
             for Government Affairs, Mental Health America
    Mr. Chairman and Members of the Committee:
    Mental Health America (MHA) is the country's oldest and largest 
nonprofit organization addressing all aspects of mental health and 
mental illness. In partnership with our network of 320 state and local 
Mental Health Association affiliates nationwide, we work to improve 
policies, understanding, and services for individuals with or at risk 
of mental illness and substance-use disorders. Established in 1909, the 
organization changed its name last November from the National Mental 
Health Association to Mental Health America in order to communicate how 
fundamental mental health is to overall health and well-being. MHA is a 
founding member of the Campaign for Mental Health Reform, a partnership 
of 17 organizations which seek to improve mental health care in 
America, for veterans and non-veterans alike.
    Mr. Chairman, we commend you for scheduling this important, timely 
hearing, and in doing so, providing visibility and focus for critical 
questions that must be answered if we are to avoid mistakes of the 
past. While we know that servicemembers have experienced mental health 
problems in every war, our operations in Iraq and Afghanistan differ 
markedly from prior combat engagements, with critically important 
implications for veterans' readjustment and recovery.
              unique aspects of operations iraqi freedom 
                     and enduring freedom (oif/oef)
    Operation Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF) 
are unique in their heavy reliance on the National Guard and Reserves 
who make up a large percentage of our fighting forces. Reserve forces 
alone have made up as much as 40 percent of U.S. forces in Iraq and 
Afghanistan, and at one point, more than half of all U.S. casualties in 
Iraq were sustained by members of the Guard or Reserves. These 
operations are also unique in their reliance on repetitive deployments. 
Deploying to a combat zone is necessarily enormously stressful to a 
soldier AND his or her family; that stress increases markedly with each 
subsequent deployment.
    The impact of those deployments on servicemembers has already been 
profound. The prevalence of mental health problems among OIF/OEF 
veterans appears significantly higher than had earlier been 
anticipated. To illustrate, recent data from the Defense Medical 
Surveillance System (reflecting post-deployment health self-assessments 
since June 2005 of servicemembers who had served in Iraq) show that 50 
percent of Army National Guardsmen and some 45 percent of Army and 
Marine reservists have reported mental health concerns. Unexpectedly 
high percentages of OIF/OEF veterans are receiving VA mental health 
services, many with very serious problems like PTSD and depression. 
According to VA data, more than 35 percent of OIF/OEF veterans who 
accessed VA care from 2002 through November 2006 were diagnosed or 
being evaluated for a mental health disorder.
    The high percentages of Guard and Reservists among the OIF/OEF 
cohort creates unique challenges that VA has not previously faced. 
First, these ``citizen-soldiers'' often live in communities remote from 
VA medical centers. Yet they are as likely to have readjustment issues 
or to experience anxiety, depression or PTSD as veterans who have good 
access to VA health care. Long-distance travel is a very formidable 
barrier to a veteran's seeking (and continuing) needed treatment. That 
barrier is likely to be even higher for veterans with mental health 
needs, given the lingering stigma surrounding mental health treatment. 
Second, with activation to and from active duty associated with 
multiple deployments, health care responsibility for these 
servicemembers shifts from DOD to VA to DOD, with each shift in 
responsibility inviting confusion.
                     veterans' mental health needs
    OIF/OEF veterans are experiencing a broad range of post-deployment 
mental health issues--some of which require treatment, while others 
call for some combination of education, support and counseling. VA data 
identify PTSD (seen in 15 percent of those evaluated at VA facilities), 
drug abuse (13 percent) and depression (10 percent) as the most 
prevalent disorders being treated in its facilities. Importantly, 
another 5 percent were diagnosed with a psychosis, reflecting severe 
mental illness. A recent study on the mental health status of Iraq 
veterans in the Maine National Guard provides another illuminating 
snapshot. That survey found that 25 percent of these veterans reported 
significant problems with PTSD, alcohol or depression. But the study 
data also indicate the extent to which these veterans are experiencing 
readjustment problems. For example, more than 43 percent had problems 
with anger (compared with 16 percent in Guard members who had not been 
deployed), more than 35 percent had relationship problems (vs. 15 
percent among the nondeployed), and 22 percent reported sexual problems 
(vs. 10 percent among the nondeployed). Significantly, only 15 percent 
of those Maine veterans had sought help from a mental health 
professional.
    VA's Special Committee on Post-Traumatic Stress Disorder (a 
statutorily created panel of clinicians which reports annually to VA 
and to Congress) has provided a helpful assessment of the wide range of 
post-deployment mental health issues confronting veterans and their 
families. Its February 2006 report advised that ``VA needs to proceed 
with a broad understanding of post deployment mental health issues. 
These include Major Depression, Alcohol Abuse (often beginning as an 
effort to sleep), Narcotic Addiction (often beginning with pain 
medication for combat injuries), Generalized Anxiety Disorder, job 
loss, family dissolution, homelessness, violence toward self and 
others, and incarceration.'' The Committee advised that ``rather than 
set up an endless maze of specialty programs, each geared to a separate 
diagnosis and facility, VA needs to create a progressive system of 
engagement and care that meets veterans and their families where they 
live . . . The emphasis should be on wellness rather than pathology; on 
training rather than treatment. The bottom line is prevention and, when 
necessary, recovery.'' Importantly, the Special Committee also advised 
that ``Because virtually all returning veterans and their families face 
readjustment problems, it makes sense to provide universal 
interventions that include education and support for veterans and their 
families coupled with screening and triage for the minority of veterans 
and families who will need further intervention.'' [Emphasis added.]
    Certainly our perspective is too general when we speak globally and 
without distinctions of ``veterans' needs.'' Of particular significance 
surely are the contributions that women are making in these ongoing 
operations. Women represent some 15 percent of those in the OIF/OEF 
theaters. And while not serving in infantry units, they are more 
exposed to trauma--driving in convoys, serving in security assignments, 
and even flying aircraft--than in any other military engagement in our 
history. It should also be acknowledged that the range of trauma to 
which women in service are being exposed ranges from the threat of 
IED's to marital and family stresses.
                             family issues
    While there is widespread recognition of the prevalence of post-
traumatic stress disorder (PTSD) and other war-related mental health 
problems among veterans of service in Iraq and Afghanistan, less 
attention has been given to the toll these military operations have had 
on the mental health of our veterans' families, and the implications of 
those problems on the veteran's readjustment and health. Research on 
PTSD, for example, has shown that it has had severe, pervasive negative 
effects on marital adjustment, general family functioning, and the 
mental health of partners, with high rates of separation and divorce 
and interpersonal violence. PTSD can also have a substantial impact on 
veterans' children. Not surprisingly, in a military engagement that has 
required multiple tours of duty of many servicemembers and in which the 
burden has fallen heavily on citizen-soldiers of the National Guard and 
military Reserves, the impact on families has been particularly hard, 
and may be implicated directly in mental health problems in family 
members of the veteran.
    Despite recognition in the VA regarding the mental health needs of 
returning veterans' families and the importance of engaging family 
members in the veteran's readjustment, current law and practice limit 
VA's assistance to, and work with, family members. The Special 
Committee on PTSD reports that ``the strength of a war fighter's 
perceived social support system is one of the strongest predictors of 
whether he/she will or will not develop PTSD.'' VA is an integrated 
health care system which offers a relatively full continuum of care and 
services for eligible veterans. Family therapy is often a component of 
the readjustment counseling provided at VA ``Vet Centers'' that are 
usually located in population centers and operated independently of VA 
medical centers and clinics. But veterans and family members who live 
far from a Vet Center and who rely instead on a VA medical center or 
clinic routinely encounter a system that discourages family therapy. 
Most VA health facilities focus exclusively on the veteran-patient 
(rather than on the veteran as part of a family unit) and provide 
incentives through measures of ``workload'' that fail to provide any 
workload credit for helping the veteran's family. This patient-centered 
workload system effectively discourages medical-center clinicians from 
providing family therapy and support services that are routine in a 
parallel system of VA facilities. There is no sound programmatic 
rationale for encouraging family support at one set of VA facilities 
(the Vet Centers) and discouraging it at others. VA health care, and 
particularly mental health care, would often be more effective if 
barriers to family involvement were eliminated.
    Current law compounds the difficulty. While the law (38 U.S.C. 
1710(e)(3)(C)) authorizes VA to provide medical care and services 
(subject to a 2-year time limit) to a veteran who served in a combat 
theater, section 1782(b) of title 38 of the U.S. Code would limit 
counseling for a family member of a combat veteran receiving treatment 
to circumstances where the counseling had been initiated during a 
period of hospitalization and continuation is essential to hospital 
discharge (while family members of veterans receiving treatment for a 
service-connected condition can receive counseling as needed in 
connection with the veteran's treatment). Insofar as the law 
effectively treats the veteran who served in a combat theater on a 
presumptive service-connected basis for a time-limited period, we 
recommend that VA be authorized to provide immediate family members 
with both support services AND (when needed) mental health services to 
help foster the veteran's readjustment or recovery. And, to ensure that 
the benefits of such family support and mental health services are 
realized, we recommend that legislation require the Department to 
revise its workload measurement system to eliminate the disincentive 
to, and provide credit for, working with family members of veterans 
where such education, counseling, or therapy would help foster the 
veteran's readjustment or recovery. Yet additional consideration should 
be given to the mental health needs of survivors of those who have lost 
their life in Iraq and Afghanistan, including parents who generally are 
not even eligible for VA grief-counseling.
               stigma surrounding mental health treatment
    There is wide recognition of the importance both of preventing 
readjustment problems from worsening and of treating behavioral 
disorders as early as possible. Left untreated, mental disorders like 
PTSD and depression are likely to become chronic and severely 
disabling.
    The stigma surrounding mental health disorders--and the degree to 
which that stigma deters help-seeking--has profound implications for 
the long-term health and recovery of OIF/OEF veterans. Data do show 
some decline in the stigma associated with seeking behavioral health 
care (as reported in DOD's May 2006 report of its Mental Health 
Advisory Team on Operation Iraqi Freedom (MHAT III)), but the level of 
stigma among these servicemembers remains troublingly high. The MHAT 
III report indicates, for example, that among those who met criteria 
for mental health problems and were asked to identify factors that 
might affect their decision to receive mental health counseling or 
services, 53 percent thought they would be seen as weak. High 
percentages of OIF/OEF veterans responded affirmatively to concerns 
that seeking mental health assistance might (a) lead unit leadership 
``to treat me differently'' (29 percent); (b) result in ``members of my 
unit [having] less confidence in me'' (26 percent); and (c) ``would 
harm my career'' (17 percent).
    While substantial numbers of OIF/OEF veterans are being seen at VA 
facilities with behavioral health problems, there are compelling 
reasons to question how many are not seeking needed treatment. Congress 
and VA could learn much from an independent study on the numbers of 
OIF/OEF veterans who have mental health needs but elect not to seek 
treatment because of stigma.
              va's capacity to provide for veterans' needs
    This hearing provides an important opportunity to question whether 
the VA health care system--with all its strengths--is adequately 
staffed, adequately configured, and operating with appropriate 
incentives--to meet the mental health needs of returning 
servicemembers. VA's health system has great strengths, and many 
centers of excellence within it. But we should be mindful of the gaps 
in that system, especially with respect to mental health needs, and 
find ways to fill those gaps.
    VA is a facility-based system that does not necessarily provide 
good access to care for veterans in rural America or in other areas 
remote from its healthcare facilities. As noted above, these gaps are 
particularly pronounced in light of the pressing mental health needs of 
OIF/OEF veterans, many of whom are citizen soldiers of the National 
Guard and Reserves who have returned from overseas deployments to 
communities far from VA facilities. Those distances are all the more 
formidable in the face of the stigma still surrounding mental health 
care.
    VA facilities themselves do not necessarily provide a full range of 
needed mental health services. To illustrate, experts believe that most 
servicemembers returning from a combat deployment face readjustment 
issues during what is essentially a transition from the trauma and 
horrors of war to reintegration to their communities and families. That 
need for readjustment should not be seen as a pathology that requires 
treatment; rather, readjustment counseling, education and support are a 
preventive, health-promoting measure. Most returning veterans could 
benefit from readjustment counseling, and the failure to make that 
these services available can lead to behavioral health problems. But 
VA's current capacity to provide this important service is generally 
limited to its array of approximately 200 readjustment counseling 
centers (Vet Centers). The department's extensive network of medical 
centers and clinics, which provides a range of intensive treatment 
services, generally do not provide the largely preventive services 
furnished by the Vet Centers. While the unique circumstances of the 
Vietnam era help explain the development of these parallel systems 
(with their own separate administrative structures), there is no 
statutory barrier to VA medical centers providing readjustment 
counseling services, and--given the need--no obvious reasons not to 
make such services more widely available through other health-care 
facilities. We urge the Committee to explore having VA medical centers 
provide readjustment counseling services to OIF/OEF veterans and 
immediate family members. In that regard, it is important to remember 
that the Vet Center program was established with a ``help without 
hassles'' philosophy. For veterans struggling to readjust, and needing 
help with anger, feelings of grief, or problems with relationships, for 
example, there is great value in a ``help without hassles'' approach. 
And we find no requirement in law that OIF/OEF veterans must enroll for 
VA care in order to be eligible to receive readjustment counseling in a 
VA medical center, and urge that such a precondition not 
be instituted.
    Another gap in the VA health care system is the still uneven 
distribution of treatment resources for veterans who have substance-use 
problems. VA's arsenal of resources for treating substance-use 
disorders was profoundly diminished a decade ago with the closure of 
inpatient programs. It is our understanding that the department's 
substance-use treatment capacity has grown in subsequent years, but 
does not appear to have been fully rebuilt. There is also need to 
question the breadth of the gap between women veterans' mental health 
needs of women veterans and VA's capacity to meet those needs, 
consistent both with expectations of privacy and of a welcoming 
climate. It would be most helpful in this connection to survey women 
OIF/OEF veterans, in order to understand their experiences and 
perceptions regarding care in a system long seen as an enclave for 
treating an almost exclusively male population.
    To its credit, Congress has appropriated additional funds in recent 
years to upgrade VA mental health and substance-use services. It is 
difficult, however, to gauge the adequacy of mental health staffing and 
capacity in this large health system. VA is unquestionably seeing more 
patients with PTSD, for example. But is that due to increased staffing 
or some contraction in the intensity of service-delivery? The 
complexities associated with distributing and allocating funding in the 
VA health care system invites question as to whether new funding finds 
its way, dollar for dollar, into increases in mental health staffing. 
Are there medical centers that receive new money for a specific mental 
health initiative, but offset such increases in part by cutting 
staffing of other mental health programs? It should be possible to 
monitor and measure the net gain in staff associated with efforts to 
expand mental health funding, and we urge the Committee to direct such 
action. But unless such monitoring is done with rigor and with 
consequences, one cannot be certain that the system's capacity will 
reflect congressional expectations.
    In that connection, we also recommend that the Committee examine 
the incentives and disincentives in VA's resource allocation 
methodology (VERA) as it relates to mental health service-delivery. To 
its credit, VA leadership embraced the recommendations of the 
President's New Freedom Commission on Mental Health with its emphasis 
on the importance of fostering recovery from mental illness rather than 
simply managing symptoms. Many fine VA mental health programs are 
essential to fostering veterans' recovery from mental illness, and 
should be encouraged. But among those programs, valuable initiatives, 
like supported employment and peer supports, do not add to ``workload'' 
and therefore are not rewarded by VA's resource allocation methodology. 
We urge the Committee to explore avenues to ensure that VA fiscal 
incentives reward efforts to foster recovery from mental illness, not 
simply efforts to increase numbers of patients served.
    Finally, anecdotal data suggest that some veterans are encountering 
barriers in getting needed VA mental health services. How many more 
veterans would get VA services if travel distances were not so great, 
or if stigma were not so pervasive, or if VA staff were perceived as 
more welcoming, or if VA conducted active outreach efforts using peer 
outreach workers? It would not be difficult to conduct an independent 
survey of OIF/OEF veterans to gauge the relative ease of access to VA 
mental health care, to determine the percentages who are not able to 
get services, and to identify the factors, if any, that discouraged 
veterans from getting needed help. We urge the Committee to consider 
directing the conduct of such a survey.
                  closing gaps in va service-delivery
    The principle that a veteran with a service-incurred health problem 
should have equitable access to treatment (that is, that a veteran 
should not be barred from getting needed care) regardless of where he 
or she lives is well-established. In our view, there is a growing need 
to establish a time-limited mechanism that could be implemented 
relatively quickly to provide high quality mental health and 
readjustment services to OIF/OEF veterans who do not have reasonable 
access to VA care. Specifically, we see great benefit for veterans in 
the development of a targeted mechanism (in areas distant from VA 
medical centers) that would combine (a) outreach and ongoing support 
from trained OIF/OEF peers with (b) provision of mental health services 
by clinicians knowledgeable about PTSD, the combat experience and the 
unique circumstances of military service and veteran status. Such a 
mechanism could be established through VA contracts with community 
mental health centers for provision of needed services for OIF/OEF 
veterans who live far from VA mental health centers under which such 
centers would be required to (1) participate in a VA-conducted national 
training program; (2) employ an OIF or OEF veteran who has completed a 
peer outreach/support training and certification program; (3) secure 
prior approval from VA (in accordance with a VA-provided protocol) 
before the Department would incur any liability for provision of 
services for an OIF/OEF veteran; and (4) provide VA with annual summary 
data on numbers of veterans served, diagnosis, course of treatment, and 
demographics. We recommend further that VA contract with a not-for-
profit national mental health organization to train OIF/OEF veterans 
for employment as ``stigma-busting'' peer outreach workers and peer 
counselors. (The use of peer-counselors and support specialists is a 
well-established, cost-effective modality in mental health care that 
has been employed with success at a number of VA centers.) Instituting 
such a training/employment program is a step that would not only help 
participating OIF/OEF veterans further their own recovery, but pave the 
way to overcoming the stigma that remains a formidable barrier to 
needed counseling and treatment.
                               next steps
    VA and DOD have unquestionably taken important steps to understand 
and address the mental health needs of OIF/OEF veterans, and Congress 
has played a vital role in mounting much-needed oversight and providing 
needed funding. Yet there remains much to be done, and, in our view, 
compelling reason to pursue new directions: (a) to work to fill the 
wide mental health service-delivery gaps in the VA health care system, 
(b) to address (in at least a time-limited way) the war-related mental 
health needs of veterans' family members, (c) to make peer-outreach and 
support in VA service-delivery the norm rather than the exception, (d) 
to develop better data to support Committee oversight and VA mental 
health management, and (e) to align fiscal incentives with clinical 
imperatives.
    Such steps, in our view, will go a long way toward fostering the 
readjustment and reintegration of returning veterans, and the recovery 
of those who have experienced mental health problems as a result of 
their service to their country.
    We look forward to working with the Committee to help achieve those 
goals.

    Chairman Akaka. Thank you very much for your testimony, Mr. 
Ibson.
    I want to welcome Dr. Katz here on the panel. Dr. Katz, Mr. 
Ibson's testimony points to, among other things, shortages of 
informal counseling services in VA clinics and a substance 
abuse program which has not been fully rebuilt since the 
reductions were made several years ago. My question to you is, 
how do you respond to the previous panel and Mr. Ibson's 
testimony?
    Dr. Katz. Well, let me focus. I was, as everyone else in 
the room, profoundly affected by what we heard. I want to say 
with respect to the issues that the Bailey family raised that 
my colleague from the Office of Mental Health Services is in 
Los Angeles now looking very carefully at that program and 
looking for lessons to be learned to improve residential and 
other forms of care in the VA.
    I have been struck by the Omvig family's work and I admire 
and applaud their willingness to talk about it. VA is grateful 
for the House, Mr. Boswell, and for Mr. Grassley and Mr. Harkin 
for raising that bill, the Omvig's veteran suicide prevention 
bill. We are implementing it already. The suicide prevention 
coordinators called for in the bill are being hired as we speak 
throughout our system. There will be one in each medical 
center. We are working hard to take the lessons that we have 
learned from hearing about Joshua Omvig to make sure it doesn't 
happen, or to decrease the rates of suicide among veterans.
    We are expanding and enhancing mental health services 
throughout VA, not only in the specialty care setting, but by 
making mental health an important part of primary care.
    It is a way of easing the stigma, making it easier for 
veterans to receive care. We call this an in-reach approach. At 
the same time, Dr. Butteriss, my colleague, is working very 
hard to expand the veterans center program through outreach and 
now at most post-deployment health reassessment, there is a 
veterans center outreach person there to meet veterans and to 
talk about the VA.
    There is no wrong door. The Vet Centers are often the only 
mental health care that is needed. When it is not, it is an 
important point of entry to mental health services. It is what 
we often call stepped care. If the Vet Centers work, wonderful. 
If not, a referral to mental health services in medical centers 
and clinics is helpful. In the same way, the integration of 
mental health and primary care is another important way to 
facilitate access. We are making care available.
    About substance abuse, the number of beds in inpatient 
substance abuse care settings has decreased, but the overall 
number of beds, including other forms of residential care and 
homeless programs focusing on substance abuse, have actually 
increased. What we have done in large part is to work to 
overcome the siloing of care that is often a problem. Let me 
give you an example of that.
    If I, as a middle-aged man, were to have a heart attack 
tomorrow, I would get depressed over it and I would probably 
drink to treat my depression. With three related problems like 
that, I would have to get care in three different settings and 
I probably couldn't manage it. We need to fix that and we are 
working for it.
    So 40 percent of substance abuse care in VA is in specialty 
substance abuse care. About 30 percent is in other mental 
health services, and about 30 percent is in primary care. We 
want accountability. We should be held accountable for serving 
these veterans with substance use problems. But the way we look 
at this has to go beyond the narrow silos that characterize 
care in the past.
    I see time is up. So much has been said. These have been 
some first thoughts in response.
    Chairman Akaka. Thank you, Dr. Katz.
    Dr. Katz, the National Center continues to give VA the best 
tools to deal with PTSD. Has funding and has staff for the 
center increased in recent years?
    Dr. Katz. Our look at the budget for the National Center 
for PTSD includes a number of components. There is the core 
funding for the National Center and a number of additional 
mechanisms for funding other components of their activities.
    So, for example, Dr. Resick receives funding for the 
Women's Division of the National Center that she directs.
    She also receives funding for the implementation and 
dissemination of the cognitive processing therapy she talked 
about. Dr. Friedman receives funding for his division and for 
the overall direction of the National Center. He also receives 
funding for studies, for example, of the primary care treatment 
of PTSD.
    So if one looks at the entire VA support of the National 
Center, including both its core funding and its project-
specific funding, it is increasing over time.
    Chairman Akaka. We have been trying to increase the budget 
of the Department of Veterans Affairs and have been able to do 
that, as you know. Of course, the hope is that it will give you 
license to, if needed, increase personnel wherever it is 
necessary and deal with some of these complaints, let me say, 
and shortfalls that have occurred. So we look forward to 
working this with you, as well, to try to bring this about and 
give the best kind of service we can to all veterans. This is 
what it is all about.
    Dr. Katz. Yes.
    Chairman Akaka. I want to thank all of you for being here, 
for your testimony. We truly appreciate your taking the time to 
give us all a better understanding of the challenges facing VA 
mental health care and of efforts to meet those challenges. I 
look forward to continuing to work with you on that.
    My expectation is that VA will adapt to meet the mental 
health needs of the newest generation of veterans and to 
prevent the tragic stories we have heard today from happening 
again.
    So again, thank you so much for all of this. This hearing 
is now adjourned.
    [Whereupon, at 4:53 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

  Female Soldiers and Sexual Trauma: Operation Iraqi Freedom (OIF) \1\
---------------------------------------------------------------------------
    \1\ Submitted by SGT Carolyn Schapper of Virginia National Guard. 
She served as an Interrogator/HUMint Collector in Iraq from October 
2005 to September 2006 with the 221 st MI BN.]
---------------------------------------------------------------------------
    Define ``sexual trauma.'' When one hears the phrase sexual trauma 
it is natural to quickly assume we are talking about rape and physical 
confrontation. Rape is universally understood as wrong, so with its 
easy definition it is what one focuses on. Although it is a problematic 
crime in the Army, I do not know if statistics would tell you that it 
is more of a crime in the Army and/or the military in Iraq, than in 
society in general. What I do know is that when I asked my fellow 
female soldiers about it and thought of my experiences and, the 
experiences of those I served with, I realized sexual trauma has a much 
broader and murky definition, and everyone had a story. Rape is not the 
crux of this issue, nor the prevalent issue in my opinion. True sexual 
trauma in Iraq involves ambiguous Equal Opportunity (EO)/gender issue 
situations that always exist within Army culture. However, EO 
violations are exacerbated in the Iraqi environment where males, are 
supposed bastions of sexual frustration and are in constant and close 
proximity to limited female soldiers. This close proximity disallows 
female soldiers the ability to ``walk-away'' when they find themselves 
in a situation they would rather not be in.
    Furthermore, upon discussing this topic with fellow female soldiers 
I realize women serving in Iraq get put into categories, as defined by 
their male counterparts, based on the females' reactions to daily 
exposure to questionable situations. Army women in a war situation must 
overlook, on a daily basis, statements against their gender as well as 
a plethora of images that objectify women, all that would be legally 
unacceptable in the civilian world. More than once have I heard, ``all 
Rules go out the window in War,'' and many people believe that 
justifies violations of the standards. Thus the true sexual trauma in 
wartime Iraq is when the character of the female soldiers is determined 
by their male soldiers. I have tried to work out how to paraphrase some 
of the definitions so I do not offend anyone, but the reality is I 
cannot, nor should I, because these are the labels female soldiers are 
given everyday in Iraq and they are not easy to live with and they 
cannot be sugar-coated. The following are the loose categories for 
female soldiers that I have come up with: the weak and emotional female 
who cannot hack it, or the poor sport; the bitch; the good sport or the 
``pal''; the flirt which will ultimately evolve into ``slut''; and/or 
certain combinations of the above.
    Following are five brief stories of five different women who have 
served in Iraq between September 2005 and present-day:
                               story one
    My story. I was assigned to a small Infantry base where very few 
female soldiers lived, or had ever been. Aside from lack of female only 
facilities (i.e., showers and latrines) I lived in a house with 20 
males. Nearly every living space in the house was covered with photos 
of scantily clad women from FHM and Maxim magazines. More than one 
conversation was an inappropriate conversation of a sexual nature. But 
these are the things I overlooked in order to be a ``soldier'' and not 
a ``female soldier.'' However, mainly due to my mature age (usually at 
least 10 years older than those I was serving with) I found it easy to 
steer clear of immature conversations and chose not to participate. Nor 
did I flirt with them as other females did, in order to boost their 
egos. I quickly became the ``poor sport'' and/or ``bitch.'' When they 
mocked me about my age and my appearance, I was deemed a weak female 
that could not hack it when I took offense at being called unattractive 
and old.
    As the deployment progressed my Team Leader took liberties with my 
personal space. We were only separated by a thin wooden wall and a 
curtain for a door. He would routinely bust into my living space 
without knocking, under the premise that I was a ``soldier'' and not a 
``female.'' I began to weigh my curtain down with heavy items to 
discourage him, it did not work, he only pulled harder. More than once 
I was lying on my bed with headphones on only to look up and see he had 
already made it into my room and was staring at me. I began to dress in 
the shower room for fear he would walk in at any moment.
    In addition, my objection to my Team Leaders included his 
aggressive actions on missions. My objections got me deemed a weak and 
emotional female. My Team Leader would act aggressively on the roads 
and run Iraqi drivers off the road, more for sport, than for safety. 
One day, it became an almost deadly situation. A male team member who 
outranked me, said he would speak to our Team Leader about it. Nothing 
changed. I once found an article about how poor soldier road behavior 
creates enemies among the civilian populations of Iraq/Afghanistan. I 
showed my Team Leader. Afterwards, I found out he went to a training 
weekend that had representatives from several teams with varying ranks 
in our Area of Operations and was mocking me openly because I was upset 
when he ran non-threatening Iraq civilians off the road. He made no 
mention of the male team members who objected, but blamed my emotional 
predisposition as a female for my protests.
    Aside from my Team Leader, I felt safe with those I served with 
when we went out on missions into the villages. It was only when I 
returned back to base did I feel ostracized and thus did I isolate 
myself more and more in the ``safety'' of my room as the mission 
progressed. According to the males I served with I was, at the same 
time, overly emotional and a bitch, two ideas that would seem naturally 
contradictory.
                               story two
    Another female that was on my base did play at the game of 
flirtation to get what she wanted from her male counterparts. She told 
me once she enjoyed her celebrity-like status on the small base and 
used it to her advantage. Many guys liked her because she was a ``good 
sport'' and would joke around with them. Eventually they turned against 
her. By the end of our deployment her picture had been posted on a wall 
in an open office environment with the phrase ``Slut of Bayji (our base 
location),'' underneath it. With only two weeks left in Iraq, her work 
environment had become so hostile that she asked me if I could convince 
my team leaders to let her work from our office instead, even though it 
was further away from her living quarters and her chain of command. We 
allowed her to work with us. Her demeanor had changed completely, she 
barely talked to anyone in the carefree manner she had before and could 
rarely be found. She has since left the Army.
                              story three
    Female Three was to be transferred to our team because her Team 
Leader had exposed himself to her. When word got out that another 
female was coming to our house many of the guys I was living with kept 
saying they hoped she would be put into their room because she was 
``hot.'' Similar comments even came from those who knew why she was 
being transferred. They did not see her as another soldier that would 
assist our mission capabilities, but as an opportunity for flirting, 
and perhaps, sex. Fortunately, mission focus changed and she was never 
transferred to us.
                               story four
    The next case I hesitate to bring up because I know the female will 
be judged before most people get passed the immediate description of 
her case and will pass judgment on her and may not look beyond it to 
determine whether she was treated fairly or not, and/or subjected to 
gender specific punishment. I will set up the situation and then let 
her own words make her case, she is still currently serving in Iraq 
under this command.
    Female Four is a friend of mine and I have not worked with her in 
Iraq, but know her personally and feel I can describe her and her 
likely conduct in Iraq with some authority. Female Four is an 
attractive, petite and friendly female. Because of her self-confidence 
she can hold her own in many a ``questionable'' conversation and would 
likely overlook these conversations and other aforementioned scenarios 
as most female soldiers would in order to focus on the mission. She is 
fully capable of her position as an Arabic-trained interrogator.
    Unfortunately, Female Four unknowingly became pregnant during the 
mobilization process in the States, but it was such an early pregnancy 
it was missed at the mandatory pregnancy test administered before 
deploying to Kuwait/Iraq. While conducting missions in Iraq she became 
very ill. It took several weeks to determine that the cause was morning 
sickness. It turned out she was pregnant. From here I will let her tell 
her story in her own words:

          ``I deployed August 11, 2006 to Kuwait, and found out 
        September 26, 2006 that I was pregnant, 10 weeks pregnant. I 
        informed my First Sergeant [1SG] the same day and told him that 
        it was my intent to have an abortion and return to Iraq as soon 
        as possible.
          My immediate chain of command was supportive. Within a few 
        days I had my stuff packed and was in Baghdad, I thought, 
        waiting for a flight. Turns out I was wrong. They did a 15-6 
        investigation into the incident, which makes sense. During the 
        investigation the officer in charge told me, ``you can write 
        whatever you want in your statement but there is nothing in 
        general order number one that says you can not have sex.'' No 
        matter how many times I said it happened before I got here, I 
        am pretty sure no one outside of the people who know me, 
        believed me. (Note: some females get pregnant on purpose to get 
        out of deployment, in which case an investigation would be 
        warranted, however, a soldier who did it on purpose would not 
        likely get an abortion and request to return to duty.)
          I was stuck in Baghdad for over a week and worried because I 
        thought I had only until my 12th week to have an abortion 
        legally. Anyway, I finally got notified that I had a flight and 
        was called into the Battalion Commander's (BN CDR) office the 
        afternoon prior. I assumed it was for encouraging words.
          Instead I was read the most horrifically offensive, 
        insensitive, immature letter of reprimand I could imagine. The 
        letter promised that the Brigade (BDE) would personally make 
        sure I was barred from reenlistment, among other downright 
        nasty insults, insults of a personal, not a professional 
        letter.
          I was furious. I went to JAG immediately but was pretty much 
        told--see JAG when you get back to the States. All I was able 
        to do was apply for an extension so that I could write my 
        rebuttal (the timing was such that I would most likely get back 
        to the States the day my rebuttal was due, without having had 
        time to go to JAG). My request for a ten-day extension was 
        denied--I was granted five.
          Two days after I got back to the States I had my abortion.
          I went the next day to JAG, wrote a letter of rebuttal, 
        outlining all of the facts, that clearly showed I became 
        pregnant through normal sexual behavior, clearly had no 
        intention of becoming pregnant, and clearly had no knowledge 
        that I was pregnant. Moreover, I had chosen the mission first 
        and would be returning.
          A day later my rebuttal was rejected. My rejection letter 
        reiterated that the Brigade Commander, COL XXXXX had already 
        initiated my bar to reenlistment.
          I had to wait in the U.S. five weeks until I finally passed a 
        pregnancy test. I came back to my unit and was welcomed back by 
        everyone. I was told that I was to return to my team in a few 
        days.
          A few days later I was told that my team was changing 
        locations and would be moving all of their things to Baghdad, 
        so I would just wait in Baghdad, get my interrogation 
        certification training done, then move out with them to Tikrit. 
        I was in Baghdad for two more weeks when I was told that COL 
        XXX XX had picked me to move to the HARC [a military 
        intelligence office position]. I would be transferring 
        battalions the next day, but they were barely expecting me, 
        they had not been looking for someone to fill the slot and they 
        were shocked to find out that I was a 97E Arabic linguist, an 
        interrogator not an intelligence analyst. They were even more 
        shocked to find out that I did not have a Top Secret clearance 
        and so could not take the job ``hand-picked'' for me.
          When they took this up the chain of command, they were told 
        that they had to keep me and to put me to work in the orderly 
        room. The 1SG, a friend of my original 1SG, said he had no work 
        for me. This saved me.
          I got transferred a few days later back to the 502d MI BN. I 
        was put into HHS and told that I would be working in the S3, a 
        logistics position and I had no choice. I met my new NCOIC (Non 
        Commissioned Officer In Charge) and was told that I would be 
        the Air Movement Request person. I would work at the TOC 12 
        hours a day, and put in flight requests for any of the S02d 
        line companies.
          I was freaking out. I went to EO, IG (Inspector General) and 
        JAG. Everyone told me the same thing--it sounds like this is 
        personal, but a commander had leeway to move his assets however 
        he wants. I even asked--so if I do not get an EOT (Equal 
        Opportunity Treatment Complaint), I do not get promoted and I 
        am shuffled around to worse and worse jobs by him personally 
        for the rest of the tour--I have no recourse? The answer was 
        ``yes.'' I asked, ``who has oversight?'' ``No one'' was the 
        answer, unless I wanted an open door with a one-star General 
        who would probably not get a chance to see me until the end of 
        my tour, if ever.
          So I went to the logistics position. The CSM (Command 
        Sergeant Major) actually told me to come to his office. He 
        said, I bet you are wondering why you are here. I asked. I 
        asked a lot. And he told me, ``the BOE commander had issued a 
        direct order that you will not be on any [Tactical HUMint 
        Team], nor will you have any soldiers under you. Period. We had 
        to fight hard to even get you in the S3--this was the best we 
        could get for you. It is personal from him to you.''
          Yes, the CSM actually told me this.
          So that is my story. Is it sexual trauma--no. But is it 
        harassment of the worst form? Yes. Is it applying a ludicrous 
        series of emotionally fueled assumptions about ``female 
        behavior'' in general onto one person, with no eye to the 
        circumstances and no attempt to behave professionally? Yes. 
        This man has power, but he uses it when he does not need to.
          The only way that I am not barred from reenlistment is that 
        he tried to order my company commander to initiate it and my 
        commander, after going to JAG, refused.
          My old team leader even went to the BOE COR and asked for me 
        back. When he said my name the COL got all red in the face and 
        yelled NO WAY!

                               story five
    Female Five is the most extreme of cases. She is young, petite, 
pretty and friendly, all things that would prove to work to her 
disadvantage. I have worked with her in the past and know her to be of 
a strong character that does not use her appearance to take advantage 
of her situation. When she got to Baghdad-area she was separated from 
the Military Intelligence (MI) command she came with and placed with a 
group of Military Police (MP) who had specifically requested a female 
interrogator. She was the lowest ranking of those she served with and 
the only female. Highly inappropriate conversations of the sexual 
nature followed her wherever she went. Unlike myself, who felt safe and 
insulated from derogatory commentary while on missions, for her, her 
harassment continued. For example, a Senior NCO that outranked her by 
three ranks would call out over the radio, while on mission, and ask 
her about her preferred sexual positions. Everyone would hear this and 
laugh. She was decidedly embarrassed. Other MPs that she worked with 
would routinely graze her breasts or touch her thigh in fictional 
scenarios that involved them reaching across her. The following is her 
story in her words:

          As a female in the military, you are considered either a 
        ``bitch'' or a ``slut''. A female that keeps to herself, who 
        works hard at her job, and who demands that people take her 
        seriously as a soldier is considered a bitch. Whereas a female 
        that is friendly, outgoing, and that enjoys having fun is 
        thought of as a slut. In a military environment, there is no 
        in-between; both carry stigmas and neither title is avoidable 
        or reversible. I have been both a ``bitch'' and a ``slut'' at 
        different times throughout my military career.
          I quickly learned that by being the social butterfly that I 
        am gave me ``slut'' status. I felt like flypaper for freaks. 
        Although having ``slut'' status meant I could be myself, I was 
        insulted that my guy friends never really viewed me as just a 
        friend. I was not taken seriously and was constantly being 
        disrespected. The general opinion that I was ``easy'' followed 
        me from my second training station to my third, and when I was 
        finally handed my 00214 release from active duty I vowed to not 
        be quite as personable the next time. So when I was mobilized a 
        year later, I built a wall around myself and reentered active 
        duty with my guard fully up, allowing myself to quickly obtain 
        ``bitch'' status.
          At first I was relieved; no more unwanted attention, no more 
        random guys trying to get my number, nobody knocking on my door 
        at night trying to get me to go out so they could attempt to 
        get me drunk. I was a bitch, and I intended to keep it that 
        way.
          Upon arrival in Iraq, I was assigned to a military police 
        (MP) brigade, and my team of two other guys were given a squad 
        of nine MPs to escort us on our missions throughout Baghdad. 
        Each of the men on our squad detested three things in 
        particular: Military Intelligence, ``bitches,'' and above all, 
        taking instructions from ``bitches''. They had wanted a 
        ``slut'' as the only female on their squad, and they were 
        beyond disappointed when they got me. I had no intention of 
        taking my guard down; I was there to do a job, and that's all I 
        was going to do.
          As the assistant team leader of my tactical human 
        intelligence team, I often planned my team's missions for our 
        squad to escort us out on. My job was to then inform our squad 
        leader of our plans and it was his job to prepare a convoy 
        plan. But my squad hated taking instructions from me, not only 
        because I was a female but because I was about 10 years younger 
        than each of them. Often times they disregarded my plans and 
        caused our team to lose access to valuable intelligence. I 
        ended up having to have one of my male teammates present my 
        mission plans to our squad just to avoid their disrespect. But 
        that plan backfired on me when they started rumors that I was 
        no longer doing my job planning missions. However, that was the 
        least of my problems. They slowly began breaking me down with 
        their words, each day bringing me closer and closer to giving 
        up completely.
          In the Army, they brief you every six months on sexual 
        harassment. They tell you that you should first confront the 
        person bothering you, and if that does not work, utilize your 
        chain of command. So I confronted the two guys that harassed me 
        the most. I told them the things they were saying made me 
        uncomfortable and that they were egging the other guys on. They 
        were surprisingly cool about it; they said they would cut it 
        out. The next day I arrived at our headquarters only to have 
        every guy on my squad making fun of me; cracking jokes and then 
        sneering at me saying, ``I'm sorry, did I offend you, Smith? 
        Are you uncomfortable?''
          The harassment worsened; I endured countless rude comments, 
        filthy jokes, and inappropriate questions from the MPs. I was 
        disgusted with myself for even coming forward and telling them 
        to quit it in the first place. So disgusted, in fact, that when 
        my First Sergeant got wind of what was going on, I denied 
        everything, saying they were just being playful and they did 
        not bother me in the least. I feared that if my chain of 
        command investigated the situation, the MPs would deny 
        everything and the harassment would only get worse.
          My fears came true when my First Sergeant finally went to 
        speak to the MPs. I told him later what had gone on because of 
        his interference in the situation, and asked if I could be 
        removed from the team. I was told there was no other place for 
        me; that a female was necessary on that specific team, and I 
        was the only one available for the job. I was devastated; not 
        only had my situation worsened, but the person who had 
        seemingly been on my side a day earlier was now leaving me to 
        be preyed upon by my harassers.
          As a soldier, you are trained to ``drive on'', no matter the 
        circumstances. ``Adapt and overcome!'' they say. For 6 months I 
        ``drove on''. I thought, ``Maybe they are right, maybe I am 
        just being sensitive.''
          But in reality, the harassment was killing me; I lost my 
        appetite, stopped exercising, did not socialize, rarely called 
        home, and was crying on a regular basis.
          I began to wonder what it would have been like had I obtained 
        ``slut'' status instead. Would my deployment have been easier? 
        Would my squad respect me? Could any female soldier, bitch or 
        slut, ever have her male counterparts actually respect her? If 
        respect was impossible to attain, should I have strived for 
        their admiration instead? Upon realization that I was beginning 
        to justify the harassment, I decided that I desperately needed 
        help; I needed a way out of this situation.
          So I reluctantly went to my unit's Chaplain, who listened to 
        each of my woes without a word. ``Should I beg for them to let 
        me off the squad? Go to my chain of command about the 
        harassment? Or see a psychiatrist because maybe I am just crazy 
        and none of this is really happening? '' My mind was full of 
        questions, and what I wanted was an answer to my problems.
          I finished speaking and was staring at the Chaplain with a 
        look of desperation on my face. He nodded his head slowly like 
        he understood completely, as if he knew exactly what I should 
        do. I was practically on the edge of my seat when he finally 
        answered. ``Smith'', the chaplain said, ``I've known some great 
        guys that were MPs. Great guys. . . My best friend was an MP. 
        But those guys were exceptions, because MPs are scumbags.''
          This was hands-down the best piece of information I had ever 
        received. This was better than any therapy session or anti-
        depressant. It was so simple, yet it made so much sense. These 
        guys were not even worth worrying about. They were scum.
          The Chaplain continued to explain that I would meet many more 
        scumbags in both my military and civilian life, and these guys 
        were like practice for the future. If I let these scumbags get 
        the best of me that was like letting them win on behalf of 
        scumbags everywhere.
          With that, I left his office feeling not so lucky to be 
        tested by a bunch of scumbags under such stressful conditions, 
        but still feeling a whole lot better.
          The next day I woke up half an hour earlier than usual. I was 
        the first one at headquarters, and had my vehicle cleaned and 
        fully maintained before the rest of my squad even showed up.
          Every day, I arrived a little earlier and worked a little 
        harder than my male colleagues. If they made a filthy comment 
        or cracked a rude joke, I would roll my eyes and shrug it off. 
        I did not try to crack one back; I did not want to lower myself 
        to their scumbag level. I went out and collected more Intel 
        than ever, and produced 75 percent more reports than my male 
        teammates. This was not a competition; I was not trying to 
        prove myself to them or anyone else. I was showing them that 
        they could not break me. That I was not backing down. I made it 
        nearly impossible for them to give me any grief. By not 
        appearing uncomfortable by their crude talk, their harassment 
        even began to subside. They had nothing on me.
          Before I knew it, my deployment was ending. I had had 17 
        Intel reports published nationally since my talk with the 
        chaplain, several more than the 6 months prior. I had 
        accomplished more than some people accomplish in their 
        lifetime. I had not been able to be myself for a whole year, 
        but I had not gone to Iraq to be myself. I had gone there to 
        accomplish a mission, and that is exactly what I did. I cannot 
        say my squad respected me much more than before, but I can say 
        that I was no longer disrespected like the ``sluts'' were.
          Being considered a ``bitch'' really sucks, but it has more 
        pay-offs than being considered a ``slut''. I left Iraq with 
        something way more precious than a long list of admirers. I 
        left Iraq with more courage, greater confidence in myself as a 
        soldier, and most importantly, self-respect.

    Female Five now holds the strongest opinion against females serving 
in a war-zone. She does not think any female should be sent to a war-
zone unless she specifically volunteers because the hostile work 
environment is so severe that it is debilitating. What I found most 
troubling about her story was that the Chaplain told her scumbags were 
everywhere. When I told her that in my 13 years of civilian employment 
I had never been treated poorly due to my gender and that the civilian 
world is 180 degrees different than the military she was relieved that 
the severity of issues she experienced would not likely be repeated on 
the civilian side. She has since gone through therapy to work through 
these issues.
    To conclude, we do our female military personnel serving in Iraq 
and Afghanistan a great disservice by focusing on rape as the 
definition of sexual trauma. Respective chains-of-command can often be 
the problem or fail to offer a solution to harassment at its most basic 
levels, so why would female soldiers trust them when the stakes 
increase? As these stories have shown a woman enters war often at a 
disadvantage that she will never overcome no matter what her behavior. 
This is sexual politics and trauma of the most extreme kind. Every 
soldier, female and male, needs their head in the game when at war and 
female soldiers should not be suffering from physical or emotional 
trauma from their fellow soldiers simply because they were born female 
while they deal with the stress of war.

  

                                  <all>

</pre></body></html>
